<html>
<title> - FUTURE MAINTENANCE AND REPAIR OF THE GOING-TO-THE-SUN ROAD IN GLACIER NATIONAL PARK</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
 FUTURE MAINTENANCE AND REPAIR OF THE GOING-TO-THE-SUN ROAD IN GLACIER 
                             NATIONAL PARK

=======================================================================

                             FIELD HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                 SEPTEMBER 21, 1998, KALISPELL, MONTANA

                               __________

                           Serial No. 105-115

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources



                      U.S. GOVERNMENT PRINTING OFFICE
 51-797 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho
                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 21, 1998..................................     1

Statements of Members:
    Burns, Hon. Conrad, a Senator in Congress from the State of 
      Montana, letter to Hon. Rick Hill..........................    65

Statements of witnesses:
    Armbruster, Rahn.............................................    58
        Prepared statement of....................................    75
    Black, Roscoe................................................    60
    Brooke, Will, President, Glacier/Waterton Visitor Association    31
        Prepared statement of....................................    72
    Darrow, George...............................................    57
    Hall, Gary, Mayor of Columbia Falls, Montana.................    22
        Prepared statement of....................................    65
    Helton, John E., Abbott Valley Homestead, Martin City, 
      Montana....................................................    62
        Prepared statement of....................................    74
    Hunt, Richard B., Vice-President, Friends of Glacier, Inc....    29
        Prepared statement of....................................    69
    Jacoby, Carol H., Division Engineer, Western Federal Lands 
      Highway Division, Federal Highway Administration...........     5
        Prepared statement of....................................    64
        Response to questions from Mr. Hill......................    82
    Meznarich, Lowell, Glacier County Commissioner...............    24
        Prepared statement of....................................    66
    Mihalic, David, Superintendent, Glacier National Park, 
      National Park Service......................................     2
        Prepared statement of....................................    63
    Retz, Bob....................................................    60
    Running Crane, Roger, Vice-Chairman, Blackfeet Nation........    28
        Prepared statement of....................................    68
    Unterreiner, Joe, President, Associated Chambers of the 
      Flathead Valley............................................    26
        Prepared statement of....................................    84
    Wieringa, Onno...............................................    61

Additional material supplied:
    Baggetta, Mike and Joe Galliani, Founding Partners, The Parks 
      Company, prepared statement of.............................    88
    Bissell, Gilbert K., Owner/Manager, Aero Inn, Kalispell, 
      Montana, prepared statement of.............................    82
    Brown, Dee, Canyon RV & Campground, Hungry Horse, Montana, 
      prepared statement of......................................    93
    Kennedy, James E., Designer, Log Chalets for Two, West 
      Glacier, Montana, prepared statement of....................    90
    Streeter, Serena, Owner, Glacier Park Super 8 Motel, prepared 
      statement of...............................................    94
    Willows, Sharlon L., C.L.A., Certified Legal Assistant, 
      Adminstrative Law, Hungry Horse, Montana, prepared 
      statement of...............................................    76



 FUTURE MAINTENANCE AND REPAIR OF THE GOING-TO-THE-SUN ROAD IN GLACIER 
                             NATIONAL PARK

                              ----------                              


                       MONDAY, SEPTEMBER 21, 1998

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Kalispell, Montana.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. at 
Cavanaugh's at Kalispell Center, Ballroom A, 20 North Main, 
Kalispell, Montana, Hon. Rick Hill, presiding.
    Mr. Hill. [presiding] The Subcommittee on National Parks 
and Public Lands will come to order.
    The Subcommittee is meeting today to hear testimony on 
rehabilitating the historic Going-to-the-Sun Road in Glacier 
Park.
    I do have an opening statement that I want to add to the 
record. First, I want to thank all the witnesses for taking 
their valuable time to add to the important discussion, and I 
want to thank all of you who are here attending today's 
hearing. Your interest in helping the National Park Service and 
our Subcommittee deliberate on rebuilding this road is very 
important to all of us, and I've asked for this hearing due to 
my concern and the concern that has been expressed by many of 
my constituents over the possible impacts that the rebuilding 
effort may have on the Park, on nearby communities and on 
Montana's tourism industry.
    Chairman Hanson was gracious enough to allow us to hold 
this hearing because of the road's significance, not only to 
the local communities and to Montana, because of its important 
to the whole of the National Park System, and he has told me 
personally that he believes that this hearing will be very 
valuable as the Subcommittee examines this effort and similar 
projects around the country.
    He and other Members of the Subcommittee could not be here 
today. However, that doesn't mean they don't care about this 
issue. They will continue to pay close attention to the hearing 
record and the progress that we make in this matter today. I 
would point out to you that we had two Committee Members who 
were unable to attend the hearing simply because of 
accommodations for the airlines. They were unable to get air 
passage into Kalispell because of the strike and then the 
impacts associated with that.
    This is important for many reasons, this hearing. We all 
want to protect this historic road, and I think everybody here 
agrees that that is an important role for the Congress and for 
the Park Service. We also want to enhance access by visitors, 
and we want to also enhance visitor enjoyment of the Park. We 
also want to make sure that the local economy will not be 
unfairly impacted by and during the reconstruction effort, and 
for that reason, my goals in this hearing are really two-fold: 
One, I want to have a discussion of the mitigating--how we can 
mitigate the economic impacts to the local communities as much 
as possible by finding the right alternative to the 
reconstrudditional days following this hearing. We also are 
going to have an open mike period for some period following the 
hearing. That may be restricted by time to a half hour or an 
hour, and we will allow people to enter public comment. I would 
ask those that do to limit their comments to 2 minutes and to 
also confine their comments to the road as opposed to any of 
the other issues associated with the Management Plan.
    You may also submit your thoughts to my offices here in 
Montana or in Washington, or you can submit them to the 
Honorable Jim Hanson, Chairman of the Subcommittee on National 
Parks and Public Lands, at H1-814 O'Neill House Office 
Building, Washington, DC, 20515, and that will be available for 
you. You don't have to write that down. You can also see any 
member of my staff that is here if you have trouble getting any 
or all of that information or submitting that information. They 
will be here to help the public during and after this hearing.
    With that, again, I want to thank everybody for their 
interest. I look forward to a productive discussion and hearing 
where we can work together to find some commonsense solutions, 
and with that I would like to call our first witnesses to the 
table.
    Our first panel of witnesses is Dave Mihalic, 
superintendent of Glacier Park, and Carol Jacoby, an engineer 
with the Western Federal Lands Highway Division of the Federal 
Highway Administration.
    If you would both stand and raise your right hands, it is 
the general process, as you know, with the rules of the 105th 
Congress, that all witnesses appearing before Congressional 
hearings are sworn under oath, and we will ask all witnesses to 
do that.
    [Witnesses sworn.]
    Mr. Hill. Thank you.
    I would remind the witnesses that under the Committee rules 
they should be limiting their oral statements to 5 minutes. If 
they have a longer statement than that, it will appear in the 
record.
    I now recognize Mr. Mihalic.

 STATEMENT OF DAVID MIHALIC, SUPERINTENDENT, GLACIER NATIONAL 
                  PARK, NATIONAL PARK SERVICE

    Mr. Mihalic. Thank you, Mr. Chairman. I'd also like to 
introduce Ms. Mary Riddle, who is our General Management Plan 
coordinator, who is sitting next to me.
    Mr. Chairman, we applaud your interest in seeking ways to 
maintain the values preserved by----
    Mr. Hill. You need to turn your mike on.
    Mr. Mihalic. I'm sorry. I should say, Mr. Chairman, that my 
statement has been submitted to the Committee for the record, 
and I'll summarize it here.
    Mr. Chairman, we applaud your interest in seeking ways to 
maintain the values preserved by our national parks, which are 
so important to all Americans, and also critical to local 
communities near the parks. A General Management Plan guides 
the administration of each unit of the National Park System.
    Glacier's last master plan was completed in 1977. Our first 
public scoping meetings were held in the spring of 1995. Since 
then, we have had a number of opportunities to listen to the 
public, those both near and far, so that we can incorporate 
their comments into our planning. One of the most controversial 
issues is how to rehabilitate the world famous Going-to-the-Sun 
Road.
    This national landmark has been rightly recognized as 
perhaps the most scenic road in North America. The 
deterioration of the Sun Road was recognized by the Service 
over a decade ago. With the passage of the Intermodal Surface 
Transportation and Efficiency Act, funds were made available to 
the National Park Service for park road construction across the 
nation. Glacier and the needs of the Sun Road competed with 
other national park needs across the country.
    The only work scheduled in the next few years is on some of 
the most critical repair needs on the retaining walls in the 
alpine section of the Sun Road and a slumping section of the 
Many Glacier Road. These sites are sections of the road where 
it is easier to maintain visitor traffic during construction 
even though delays still result. There is no apss than a half 
mile of road in the Logan Pass area. For those who remember, it 
was a nightmare, both for the contractor and the public. Some 
of the delays seemed interminable. We tried many things and 
learned a tremendous amount from that experience. For example, 
we tried night work. We tried lane closures, scheduling major 
work in the fall, all those steps that quickly come to mind. 
Mostly, we learned that working on this high, narrow, carved-
from-a-cliff national landmark cannot be done without conflicts 
and impacts when the construction season and the visitor season 
are almost one and the same.
    As a result, the Service and the Federal Highway 
Administration put our most experienced engineers and 
transportation planners to work on how best to continue the 
road work and minimize the impact to visitors. We're using the 
General Management Plan process to seek public input.
    We quickly learned three things: First, doing the work 
conventionally with the funding we would normally expect from 
the Park Roads and Parkways Program would take decades to 
complete; second, being able to maintain traffic flow, which 
really means ensuring visitors to Glacier would be able to 
continue to traverse the Park, is a tremendous complicating 
factor; finally, the costs of the different alternatives vary 
radically, from approximately $70 million to $210 million.
    We've been very concerned since the beginning about the 
potential for tremendous economic impact. We know that the road 
work might impact the whole state, especially as Montana 
prepares for the Lewis and Clark Bicentennial. We also know 
that there are different economic interests at stake, whether 
one is located east of the Divide or in the Flathead, in a 
retail or service industry or gateway community visiting 
Glacier.
    We arranged for studies of the economic impacts on local 
businesses and the broader travel industry. Those studies 
indicated that the economic pain only gets worse the longer the 
work drags on. Since then, the University of Montana has 
conducted independent studies arriving at similar conclusions.
    Mr. Chairman, I wish I could sit before you today and tell 
you that we have a plan or the money to carry it out to rebuild 
the road without disrupting anything, but I cannot. We do not 
have the fiscal resources that come anywhere near matching the 
road needs of our parks, and for every tax dollar spent in 
Glacier, there are $3 for other national parks that go unmet.
    We have proposed what we believe is the best solution given 
the knowledge we have today. Believe me. If there's a better 
solution, I will be the first to embrace it. We also do not 
want to see the road closed from the public any more than 
necessary, nor do we want to see a catastrophic road failure.
    I also pledge to you that we see this as an opportunity to 
work closely with the surrounding communities and the State of 
Montana. During the time we are developing detail design, we 
would be happy to work with the communities and the state to 
mitigate as much as possible the effects on local and State 
economies during the period that the road is under 
construction. In fact, I hope we can use the challenge we all 
face with the road construction to forge the most successful 
cooperation yet among the Park, the State and the affected 
communities to better serve our visitors.
    Mr. Chairman, thank you for your leadership in bringing 
these issues to the forefront. The Sun Road is perhaps the most 
spectacular roadway in the National Park System. Our agency's 
mission is to preserve these treasures for future generations 
and also use them for the present. I assure you that is our 
goal.
    That concludes my formal remarks, Mr. Chairman, and I'd be 
happy to respond to any questions you may have.
    Mr. Hill. Thank you Mr. Mihalic.
    [The prepared statement of Mr. Mihalic may be found at end 
of hearing.]
    Mr. Hill. Ms. Jacoby.

   STATEMENT OF CAROL H. JACOBY, DIVISION ENGINEER, WESTERN 
   FEDERAL LANDS HIGHWAY DIVISION, FEDERAL HIGHWAY ADMes to 
  improve the condition of Going-to-the-Sun Road. The Federal 
 Highway Administration has been assisting the Park Service in 
assessing the roadway and transportation needs and how to enact 
reconstruction. This assistance is being provided in accordance 
 with the 1983 Interagency Agreement between the National Park 
          Service and Federal Highway Administration.

    The current assistance Federal Highway is providing began 
in 1984 with a study of the roads in Glacier National Park and, 
particularly, Going-to-the-Sun Road. Since then, we've been 
updating the findings of the 1984 study, and we've been 
continuing our efforts with the Park to look at these roads.
    Improvements have been initiated on the Park road. The work 
within Glacier National Park is challenging due to the 
difficult terrain, the importance of preserving Park values and 
the impact of how and when reconstruction projects occur and 
the need to accommodate the traveling public. In summary, the 
Federal Highway Administration is committed to assisting the 
Park Service to develop and refine alternatives in the General 
Management Plan to expedite rehabilitating Going-to-the-Sun 
Road and, simultaneously, minimize impacts on the traveling 
public visiting the Park and the adjacent edge communities.
    We appreciate the opportunity to provide comments, and 
we're available to answer detailed questions.
    [The prepared statement of Ms. Jacoby may be found at end 
of hearing.]
    Mr. Hill. Thank you very much.
    Thank you both for your testimony. Let me ask a few 
questions.
    Let me start with one--It's a bit indirectly related to the 
whole reconstruction effort, but one of the issues I've heard 
from a number of constituents about is the issue of the width 
of the road. There's some areas where we're doing 
reconstruction right now where we're actually narrowing the 
road from what it is now. I think it's what is referred to as 
Moose Country. Can you address that matter, why we're narrowing 
the road, Mr. Mihalic, and what the responsibilities of the 
Park are in that area?
    Mr. Mihalic. Well, I think that we're trying to make the 
road retain its historic character. The roadway width is 22 
feet. It's that width substantially all the way up through the 
Lake McDonald section and also on the east side. There is a 
section in Moose Country, probably less than half a mile, that 
was flooded in the 1964 flood and repaired at that time, and at 
that time it was made 26 feet wide. In order to make that 
section back along the--to the width of the rest of the 
roadway, we're reducing it from 26 feet to 22 feet. Most of the 
road that the public drives, the vast majority of the road that 
the public drives, is 22 feet or less.
    I think that--I'm not sure what the concern is in this one 
particular section of coming down from 26 to 22 feet, unless 
there's some engineering concern that I'm not aware of.
    Mr. Hill. I think the concern is, I think, two-fold. One is 
the issue of safety. Are we adequately considering the concerns 
of safety when we narrow the road or if we confine it to its 
historic width? In your testimony I think you pointed out that 
we built this road with horse drawn equipment, and it was built 
for a different age. Are we adequately considering the impact 
on the safety of the traveling public?
    Mr. Mihalic. I would believe we are, and, certainly, Ms. 
Jacoby could answer from an engineering prospective, from a 
safety engineering perspective.
    The biggest concern we have with respect to safety on the 
road is really bicyclists on the road. Probably most people who 
have driven that road know that the area that's of most concern 
is really on the high alpine section. We've had hardly any 
bicycle accidents on those portions of the road that are 22 
feet wide, and this one particular section is fairly straight. 
If anything, a wider road would encourage greater speeds.
    I think we're just going on the basis of our experience.
    Mr. Hill. One of the concerns there, it seems, Dave, is 
tning that part of the road an additional two to two and a half 
feet. I don't know if there's--if it's a strict standard 
through every one, but we are adding additional pavement and 
roadway width in those areas where it's a concern.
    Mr. Hill. In the corners?
    Mr. Mihalic. So I think it's not so much that we're 
sticking to a standard and we're not considering anything else. 
I think we're trying to work with our engineers to try to find 
out how to maintain the road as a historic road, which the 
public has told us they want to see, and yet be able to take 
care of these safety concerns.
    Mr. Hill. But it is your interpretation that your 
responsibility to maintain it as an historic road does obligate 
you to maintain the roadway width at 22 feet? I mean, that's 
the Park's conclusion?
    Mr. Mihalic. I think what we've found is that 22 feet keeps 
the road a gentle, curving, pleasurable, low-speed visitor 
experience and that any concern about safety with bicyclists, 
collisions or anything else is just really not there. 
Obviously, we want to--The road was probably even narrower. It 
was a gravel road when it was constructed for historic 
purposes.
    We're not making a decision and saying, History is 
dictating this. I think what we're saying is that, This is the 
best roadway width in order to maintain lower speeds, maintain 
a safe roadway for bicyclists and the public, and so far, at 
least, in the 10 years of experience we have with that width on 
both sides of the Park, we haven't seen any increase in terms 
of problems with respect to accidents or accidents with 
bicyclists.
    Mr. Hill. I have some photographs that a constituent has 
offered suggesting that you're not paving in the corners 
sufficiently. I'm not going to dwell on that, but what I would 
do is offer these photographs to you and ask you if you would 
respond just for the record with regard to the specifics that 
are here.
    Mr. Mihalic. Certainly.
    Mr. Hill. And we can leave that behind.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. One of the other issues, though, that has been 
raised is the suggestion that the reason that the road in that 
area was wider was to accommodate people to stop and view moose 
and other wildlife and that, as part of the Management Plan 
with respect to the road, the Management Plan actually calls 
for more pullout areas and more areas for people who are 
touring the Park to be able to stop and observe wildlife or 
observe the scenery, and the concern that's been expressed to 
me is that, what is occurring in the area that we're doing 
reconstruction on right now is somewhat inconsistent with what 
we're suggesting is going to happen in the rest of the road 
reconstruction. Could you address that? I just want to get this 
behind us.
    Mr. Mihalic. Mr. Chairman, I'm not quite sure exactly of 
the details. In the Moose Country area, we had a huge, giant 
pullout that people parked in every which way they could, with 
continuing to have a pullout there that we're going to try to 
maintain with a little bit more direction, and it's being 
redesigned. It, I believe, is made a little bit smaller, but I 
think we're going to have a new base and extended pavement in 
that area.
    I think that without trying to prejudge our General 
Management Plan and without trying to say that, This is the 
direction we're going to go, what we are doing in that Moose 
Country area will be very compatible with the direction of the 
Management Plan, the alternative that you just referred to.
    Mr. Hill. How do you respond to those that say that the 
road was actually built wider to accommodate that and, by 
narrowing the road now, we're reducing the accommodation for 
people to stop and observe?
    Mr. Mihalic. I just don't agree with that. The roadway 
wasn't built to have cars parked along the edge of the road. 
The roadway in that area that's being reduced from 26 to 22 
feet was much wider than any other part of the 52 miles of 
road, and our engineers--From an engineering standpoint, maybe 
Ms. Jacoby could add, but our planners and engineers determined 
we didn't need to have it that wide in that area. We're going 
to maintain visitor access. We're going to maintain parking. I 
think it's consistent with the proposals in the Management 
Plan.
    Mr. Hill. The Management Plan does, as I characterized it, 
call for actually more pullouts to accommodate that in more 
areas, doesn't it?
    Mr. Mihalic. Yes, it does.
    Mr. Hill. And so I just want to make sure that those who 
might be concluding from what's occurring in that section that 
they shouldn't be drawing a conclusion that that means that 
we're not going to have more pullouts or accommodate----
    Mr. Mihalic. In fact, in this particular section, the area 
that was there before will be the same size, but it will have 
some post and railing around it to better define the pullout 
itself, and we're putting in one extra pullout that was 
scheduled to be removed based on some of the comments that we 
had during our General Management Plan. I think we're trying to 
be very responsive to people who have opinions on highway 
engineering, but we've engaged the Federal Highway Association 
for actual engineering opinions.
    Mr. Hill. And, Ms. Jacoby, do you want to comment about 
that, about the width of the road and the safety issues there 
and turns and that?
    Ms. Jacoby. Just a general statement is that, one of the 
frequent issues that we deal with on park roads is the issue of 
informal parking, and that does provide safety and operational 
problems. So we try to work with the Park Service to actually 
define where the parking will be and to accommodate the parking 
needs, but to do it in a defined area and to control the access 
to and from those parking areas, because that's a frequent 
point of safety interaction problems.
    Mr. Hill. What about the width of the road? When you're 
designing roads today, what's the standard width that you 
design roads for today?
    Ms. Jacoby. There's no one answer to that. It depends on 
the amount of traffic you have on the road, the terrain you're 
dealing with, and I would say that where we are for the Going-
to-the-Sun Road in Glacier is, we're trying to mesh what the 
current vehicle uses are with the historic character of the 
road and what we could feasibly enact. We don't have the 
opportunity to do a lot of road widening in here because of the 
nature of the road.
    Mr. Hill. I understand. Particularly in the alpine region.
    Ms. Jacoby. Right.
    Mr. Hill. There's no doubt about that.
    Going back to the issue of safety, I want to specifically 
address the issue of the safety. Is there some equation that 
the Highway Administration has with regard to road widths and 
gradients and with regard to speed and those matters? I mean, 
are there some formulas that are available for that?
    Ms. Jacoby. The highway industry as a whole has some 
identified standards. The National Park Service has looked--And 
that industry, as a whole that I'm referring to, is the 
Association of the State Highway Transportation Officials. 
They've got standards defined, and we use those as guidance 
materials. The National Park Service in 1984 looked at those 
materials and published their own road standards that matched 
those pretty much line for line, but it brings in some of the 
Park road esthetics and that. So we used those two documents to 
come up with what we think we need to do.
    We also--We do have defined processes to identify how much 
curve widening we should be using in those curves.
    Mr. Hill. Is that information available in some sort of a 
condensed manner that we could make available to the public so 
that we can--so that folks who have written to me and others 
who have raised this issue would have that available to them?
    Ms. Jacoby. We could provide references for the record and 
probably provide a narrative of how we go through that process 
and submit that to the record.
    Mr. Hill. The key point here is, obviously, you can 
mitigate for narrowness by speed and other issues; right, and 
how you deal with corners, and if there's some--Either you 
could provide in separate written report to the Committee or if 
there's some other material that's generally available, I'd 
appreciate it if you'd have that. We could make it available to 
those people that raised that concern.
    Ms. Jacoby. We will do that.
    Mr. Hill. I'd appreciate that.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. Mr. Mihalic, your obligation here--You're not in 
the highway business, are you? The Park Service isn't in the 
business of designing highways and engineering highways? It's 
your responsibility to look to the Federal Highway 
Administration to consult with this?
    Mr. Mihalic. That's correct, Mr. Chairman. The National 
Park Service and--I think in terms of good government and 
efficiency, there's no reason to duplicate those services in 
each agency, so we look to the Federal Highway Administration 
for the expertise.
    Mr. Hill. And they do the design work for the design of the 
highway and the specifications and actually administer--Do they 
actually administer those contracts?
    Mr. Mihalic. They do, but, obviously, they work with our 
designers and our transportation planners. Most of our people 
that work with them are landscape architects as opposed to 
highway engineers. One of the reasons for that is because the 
Park road experience for visitors is usually a means to some 
further recreational or visitor experience. It's not normally 
merely a means for a car to get from Point A to Point B, and it 
becomes the trip----
    Mr. Hill. In other words, a straight and level highway is 
not necessarily the objective here?
    Mr. Mihalic. That's correct. So that's why one of the 
biggest things that the National Park Service, I think, has 
learned in all the national parks and working with all the 
roads--and as a ranger, I worked a lot of accidents--is that 
the biggest thing that you can do to prevent accidents is to 
keep the speed down, and when--Many of the visitors in national 
parks do not want to go fast. They want to go slow. It helps if 
you provide the vehicle, in a sense, in terms of the roadway, 
by having curves, by having not the standard highway road 
widths, by having what we call park road standards.
    And those are the standards Ms. Jacoby refers to, and most 
of those road standards do focus on narrow width, curve linear 
alignment and trying to keep down speed as one of the principal 
issues of trying to maintain a safe highway environment for 
folks in a national park.
    Mr. Hill. What I was leading up to is, some have suggested 
that, because of the unique nature of this road and the 
complexities associated with its reconstruction, it might be 
valuable to go outside the Federal Highway Administration to 
seek advice and input in how the road might be designed or how 
the work ought to be staged.
    I mean, in this instance we're not redesigning the road in 
the sense we're not going to relocate the road. We're talking 
about reconstructing it, and I'd make the case that this isn't 
anywhere near the typical highway. This really is retaining 
wall reconstruction more than it is roadbed reconstruction; 
right?
    Mr. Mihalic. That's correct. There is a lot of roadbed 
reconstruction in it because of the way the road was 
constructed with those horse drawn scrapers and steam shovels 
way back when.
    Mr. Hill. So you do envision removing significant portions 
of the roadbed itself or relaying the roadbed?
    Mr. Mihalic. I think we have found, in a number of areas, 
that part of the problems that we see on the surface or with 
the retaining walls is with respect to the base, the roadbed 
itself in some areas. I think we're finding that--We had people 
just last week who found one new, horrendous example, and it is 
some, what, 15 or 20 feet below the surface of the road.
    Mr. Hill. Some kind of void or something?
    Ms. Jacoby. Yeah.
    Mr. Hill. Ms. Jacoby, how about that? Does the Federal 
Western Highway Administration have experience with something 
that you could characterize as similar to this road and this 
kind of an environment with this kind of challenge?
    Ms. Jacoby. Definitely. We just completed a project or 
we're in the process of completing a project this week in Mt. 
Rainier National Park in the state of Washington where the road 
construction techniques are very similar to what we're talking 
about for Going-for-the-Sun Road.
    Mr. Hill. How large of a section of road was that?
    Ms. Jacoby. That was only eight-tenths of a mile, but it's 
only one piece of another alpine section of road.
    Mr. Hill. How long did it take it to be constructed?
    Ms. Jacoby. For eight-tenths of a mile, we've done it in 
one season. We've not completed the masonry work, and we've not 
placed the final pavement surface, but we've gone in and 
stabilized the walls, put in parapet walls without the final 
masonry finish and trued up the roadway for its use until we--
--
    Mr. Hill. And was that road closed during that 
reconstruction?
    Ms. Jacoby. It was closed Monday through Thursday at five 
o'clock, and then the public had access to it Thursday evening, 
Friday, Saturday, Sunday. That was the traffic management plan 
we worked out with the Park Service there and the local 
businesses, but if I could elaborate on some other point.
    What has happened to date is that, our efforts with the 
Park Service--we've actually gone out and talked to Canadian 
highway officials and other State officials in the continental 
U.S. and Alaska that deal with cold weather construction 
techniques, so while it's the Federal Highway Administration 
that's been providing the engineering input to the Park Service 
at this point, we have gone through and done literature 
searches and talked with our partners in the industry to see if 
there's something new that we could be incorporating in this 
road.
    Mr. Hill. When you made reference in your testimony to the 
experience, I think, in 1995 with the reconstruction effort, 
what were the problems that developed in that project in your 
mind?
    Ms. Jacoby. I'm personally going to have to either defer to 
a staff member from my office, because I did not work in that 
office in 1995--I just know it didn't work or if--or if Dave 
wants to talk----
    Mr. Hill. Sure.
    Mr. Mihalic. I'll be happy to kind of give you a general 
overview. The biggest problems that I think occurred were the 
fact that we tried night work, and part of the problem with 
night work is that, to maintain traffic every day as opposed to 
several days a week and then work on it several days a week, as 
Ms. Jacoby just related with respect to Mt. Rainier, is a fact 
that a portion of the time is getting back to the point you 
were the night before. So you spend a couple of hours or at 
least some time getting to the point where you can make 
progress, further progress, and then before the road opens the 
next morning, you have to put the road back so that the public 
can then, therefore, use it. That's one of the issues, together 
with the fact that it's cold. It's rainy. It could be dark. 
You're having to use lights to--you know, artificial lighting 
and so on in terms of a safety issue, but just the fact that 
you're expending some of your time just getting to a point 
where you can make progress.
    The biggest thing during the day, I think, from the 
public's point of view, was that we allowed the contractor, I 
believe, 25-minute closures, and during that time, the traffic 
backed up so far that it would take 2 or 3 hours to get the 
traffic--because we could only move one lane at a time, to get 
all the traffic moving to a point where they could have another 
25-minute closure. The folks behind us might know differently, 
but I've been told that on some days things were so bad that 
they'd have one period of closure in the morning, and traffic 
would be disrupted for the rest of the day, and they would, 
literally, have to just do things that they could do around the 
fact that traffic was moving until they could get a second 
closure either late in the day and, on some days, maybe not 
even get a second closure.
    That was part of the problem that ran that job, which 
originally was scheduled to be 1 year and finishing up the 
second year, to end up being a 2-year job, and it finished up 
the third year.
    Mr. Hill. How large of a section of road was that?
    Mr. Mihalic. It was less than a half a mile. It was right 
at Oberland Bend, from Logan Pass around the corner, and it was 
all in just one short section.
    Mr. Hill. I guess what I'm leading up to--I'm not sure 
there's an answer to this, but what have we learned from that? 
It didn't work out like you thought it was going to.
    Mr. Mihalic. The biggest thing that we learned at that time 
was that--And I'm told it was seven-tenths of a mile. It looked 
like a half a mile to me.
    Mr. Hill. It was on a curve.
    Mr. Mihalic. The biggest thing I think we learned is that 
we had in our program--And I can't remember which year it was 
to begin. We had some three miles along the Rimrock section, 
which, for the public that knows the road, is the high alpine 
section just immediately preceding Logan Pass on the west 
side--But we had a three-mile section of road that, working 
with Federal Highway engineers, our folks had thought we could 
do in 2 years, and they came back after that, and they said, 
Well, we think now if we cut it in half we could do it in 7 
years.
    That was about the time that we started asking, Well, just 
how long will it take us to do it, given the fact that the way 
we do road construction is not in a comprehensive manner, but 
it's strictly driven by the dollars that we get out of the 
total pot of park roadway money that's allocated to Glacier? We 
take the money we get. We find a project to fit it.
    Mr. Hill. In fact, I've made note to make that point, and 
my understanding is that, right now, the funding that you get 
comes from an allocation that's made to the Park Service, and 
it's allocated to this Park and Yellowstone and all the other 
parks, and you, I would presume, have some sort of a queuing 
system that you go into for those dollars, and that's how it's 
handled; right?
    Mr. Mihalic. It's all on a competition basis where we 
compete with roads within our region, which includes 
Yellowstone, Grand Canyon, Grand Teton, Rocky Mountain National 
Park, and then we further compete with roadway needs across the 
nation.
    Mr. Hill. But what we're proposing here is to actually have 
Congress appropriate funds independent of that park allocation 
or to direct the Park Service to use its allocation to this 
purpose. That's part of what the Management Plan now 
contemplates, as opposed to how it's now handled, at least the 
preferred alternative.
    Mr. Mihalic. The Management Plan would not suggest your 
first alternative, certainly. That would be way beyond their 
bounds, but what the Management Plan is suggesting is that, by 
continuing to go about it the way we have been, driven by the 
dollar allocation that we get--and it's a very small 
allocation----
    Mr. Hill. Which is, what, $3 million a year?
    Mr. Mihalic. It's a couple of million dollars a year. It's, 
like, $3 to $4 million every other year, so it ends up being 
about a couple million dollars a year. That to continue to try 
to do the comprehensive project in that manner literally will 
take decades. I say ``Decades'' because I've been told 30 
years, 40 years or 50 years.
    Mr. Hill. In the recent highway bill, do you recall how 
much was allocated to parks, to all the parks?
    Mr. Mihalic. It was about $182 million, I believe, in 
appropriation, but there's $20 million that's set aside for 
another project. I believe the Park Service ends up with about 
$161----
    Mr. Hill. For this year?
    Mr. Mihalic. No. Each year. That's correct.
    Mr. Hill. Each year. So in other words, there's $150 or 
$160 million dollars per year for the next 5 years from now----
    Mr. Mihalic. About $165 million a year.
    Mr. Hill. [continuing] for all the parks and all the roads 
and----
    Mr. Mihalic. We're competing with 370 national park areas.
    Mr. Hill. The Management Plan contemplates that this 
project will be handled, at least to some extent, independent 
of that?
    Mr. Mihalic. What it suggests is that, to be fiscally 
responsible, we ought to do it in some sort of broader, 
comprehensive manner, rather than look at road construction up 
on that road, which is of tremendous impact on public use, 
every year for the next 30, 40 or 50 years.
    Mr. Hill. Ms. Jacoby, has the Federal Highway 
Administration solicited any input from outside parties, 
engineering groups, construction, design/build organizations, 
et cetera, to look at this project in terms of how you're 
looking at--how we might handle the scheduling issue and the 
staging problems that we experienced in 1995?
    Ms. Jacoby. At this point, other than talking with other 
industry officials that I referenced earlier, no, we have not. 
The efforts we have done to date have been really conceptual in 
format to identify techniques that could be used, and some of 
that information we had internally. Some of that information we 
learned through talking with other State and Canadian highway 
officials.
    We are not in design at this point. We've been doing the 
conceptual planning with the Park Service, and we've been doing 
data gathering as far as surveying or field data collection, 
but we've been waiting----
    Mr. Hill. But you haven't gone outside the Highway 
Administration?
    Ms. Jacoby. No.
    Mr. Hill. Do you think it's a good idea that you did?
    Ms. Jacoby. At this point I don't know what we would have 
asked. We're not into design. We've got no funding for design. 
We're waiting for the Park Service to select a preferred 
alternative as a result of this Management Plan and to 
collectively have the Park Service and Federal Highway 
Administration go into the final design of this project.
    Mr. Hill. But, you know, there's a bit of a chicken and egg 
thing here. If you're going to wait for the conclusion of the 
Management Plan before you contemplate the issues of staging 
and scheduling--I mean, the choices that are made in this 
Management Plan assume that those decisions have been made. I 
mean, they're built into the decision, if you're going to do it 
5 years or you're going to do it 15 years.
    So the question that I'm asking is, do you think that there 
would be some value in seeking some outside input at this point 
in looking at this issue and this set of issues at this stage 
of the game? We're going to be making some decisions that are 
going to be, theoretically, irreversible here if the Management 
Plan is adopted and Congress supports it.
    Ms. Jacoby. What's in the Management Plan right now is 
based on the concepts we know that are available in the 
industry, and the timeframes and the dollars that are outlined 
in there provide some flexibility on how they would be 
implemented.
    Mr. Hill. When you say, Concepts in the industry----
    Ms. Jacoby. As far as whether you would go in and have 
precast roadside barriers versus building that barrier onsite, 
whether you can--when you have to do concrete work in the cold 
weather, what you can do to still get good concrete but knowing 
that you're trying to extend your construction season on the 
alpine section. We've talked to the industry on what they've 
done, if they did pave in less than desirable weather 
conditions.
    Mr. Hill. When you're talking about talking to the 
industry, then you have consulted with engineering firms and 
construction companies outside the Highway Administration, or 
has that consultation been within the----
    Ms. Jacoby. The consultation has been with the State 
Departments of Transportation as far as what they're 
implementing and with the Canadian Department of Transportation 
or whatever their structure is in Canada.
    Mr. Hill. Let me ask, again, the question. Do you think 
there would be some value in seeking some input from outside 
organizations, engineering firms, construction companies that 
have dealt with some of these issues in other ways? Do you 
think there's some value in that?
    Ms. Jacoby. I think the value comes when we actually start 
putting the pieces together and get more detailed about talking 
staging and manpower.
    Mr. Hill. So the answer is, Yes, or, No?
    Ms. Jacoby. The answer is, Yes, there's value in doing it. 
It's being smart about when you do it.
    Mr. Hill. There's some who think that we could actually 
bring some creative ideas to the table now if we went outside 
the environment that we're in now and, I mean, given the fact 
that those are--we're going to be making some of those 
decisions before we actually get the design in terms of how the 
Management Plan is adopted----
    Ms. Jacoby. Right.
    Mr. Hill. [continuing] that this would be a good time 
perhaps to do that. Do you need direction from Congress to do 
that, or would it be helpful if Congress gave that direction?
    Ms. Jacoby. I don't need that direction, sir. I guess what 
I'm looking at is that, I see the alternatives to the 
Management Plan where we lay out a scheme on how we're going to 
manage traffic, and they really don't deal with the engineering 
solutions to the issues. The alternatives in there----
    Mr. Hill. I mean, part of the engineering issue here is how 
the work is staged and scheduled and laid out, whether you 
close the road or don't, how you accommodate use of the Park. 
That's part of this decision, and it will be part of the 
design; right? I mean, it will be part of--I mean, how you--
what sequence you allow--let contracts, if you do it in 
multiple contracts, how you stage restoring supplies, where you 
get gravel, where a hot plant--I mean, all those are issues 
that will be changed, depending upon how you went about staging 
this work; right? They would all change, depending on how you 
went about staging this work; right?
    Ms. Jacoby. They would all change, depending on how we've 
staged the work, and we've provided that information to the 
Park Service in the preparation of the Management Plan. All 
those items will also change, depending on how the work is 
actually funded and whether we get the funding when we need it.
    Mr. Hill. Going on on this--Dave, one of the questions that 
has been raised--and I'd ask you to respond to--is that, it 
appears as though in the Management Plan that there--Obviously, 
there's a big effort here in terms of allocation of dollars to 
the reconstruction of the road, and it seems to ignore the need 
for road maintenance. I mean, if you take 10 years to rebuild 
this road or 15 years or 6 years, there's going to have to also 
be some ongoing maintenance of the sections of the road that 
have already been done; right?
    Mr. Mihalic. That's correct.
    Mr. Hill. Where does that come into this equation? Is that 
going to be some supplemental funding? Do you think you'll get 
an allocation from the Park Service in addition to this 
project? Will you use FEMA? You have funds now that you're 
getting from increased fees. Are you anticipating allocating 
some of those to that effort?
    Mr. Mihalic. Obviously, it would be wonderful, as happened 
with the Beartooth, if we got road construction funding that we 
also got maintenance funding along with it. Maintenance of park 
roads comes out of our operation of the National Park Service 
allocation, and that allocation is part of the normal budget 
process with the Department of Interior and the Office of 
Management and Budget and----
    Mr. Hill. I mean, you're hopeful, is where we are. There's 
one other thing I want to go on, and then, just so the people 
understand, you're going to come back later, after we hear from 
the members of the public, and we can carry on this 
conversation some more, because--Hopefully, we'll have some 
valuable input.
    One of the questions that I have goes to the economic 
impacts. Dave, you and I have talked some about that. I don't 
know than we necessarily agree about that, but let me just ask 
you a couple of questions.
    One, nowhere in the economic analysis that I have seen is 
there any analysis of the economic impacts to the Park itself, 
revenues to the Park, revenues--how that would impact the 
budget of the Park----
    Mr. Mihalic. That's correct.
    Mr. Hill. [continuing] and, basically, no analysis of how 
that would impact the concessions within the Park or the 
concessionaires within the Park.
    Mr. Mihalic. That's correct.
    Mr. Hill. Is that by design?
    Mr. Mihalic. I don't believe so, sir. I think, you know, 
the Management Plan is to provide general guidance. It's to 
provide a direction. It seemed to me that this issue was such a 
huge issue that, if we were to just assume that we can 
reconstruct this road over the next several decades the way we 
have been doing it and not consider it in a General Management 
Plan that we would be doing two things. First, we wouldn't be 
being very honest with the public about what to expect in their 
national Park over the next 20 years, but, second, that we 
wouldn't be giving them an opportunity to say if they wanted to 
do it--have it be done any other way. So we included the Sun 
Road issue in the Management Plan.
    As part of that general management planning process, we 
looked at what to do with the Sun Road, and we've come a 
tremendous distance with respect to how the Sun Road should be 
managed, and what we're proposing is that the Sun Road not be 
turned into a tramway, not be turned into a monorail, not be 
turned into a railway, not be turned into a bike path or a 
hiking trail, but continue its historic use by the private 
automobile and general use by the American public as an example 
of one of the most spectacular roadways in the world.
    The real issue is how to get there, and we recognized that 
there was going to be an economic impact, regardless of the 
different ways of how to get there, and so we took the funding 
that we had available for that, and we asked the contractor to 
tell us the economic impact to the state of Montana in the best 
way they could in the time that they had to do that.
    The Park is not there for the benefit of the 
concessionaire. The concessionaire works as a contractor for 
the National Park Service to provide visitor services for us. 
The National Park does not exist for the economic benefit of 
the contractor. The fact that there are economic benefits 
around the Park are wonderful because they--That's stuff that 
we don't have to provide, and we couldn't really best serve our 
public without them, and so we do want to minimize any economic 
impact.
    What we tried to do is that--We tried to address everything 
in a comprehensive manner, and the contractor--The economic 
impact contractor was asked to include the concessionaires, not 
in specifics, but in the broader sense, with the economic 
figures for the state of Montana. The local businesses were the 
same. We didn't ask for it to be strictly local because we know 
that if somebody turns right in Miles City and heads up toward 
Glacier National Park it's going to have an economic impact to 
communities along the High Line.
    So we didn't want to try to limit it in any way, and with 
what we have--We've got a general overlook, and the specifics 
may be--As you have said, some of the underpinnings may not be 
as strong as they could be. If we had an approved project and 
had approved direction to look at this road construction in 
some greater comprehensive manner, then we could have--the 
funding, I would assume, would come with that to do such 
economic studies to make sure we got the right solution in the 
end.
    Mr. Hill. The concern--I guess what I'm leading up to is 
that, in your opinion is it the responsibility of the Park 
Service to mitigate the economic impacts on the Park itself?
    Mr. Mihalic. That's not what Congress has told us our 
responsibility is, no, sir.
    Mr. Hill. OK. What is your responsibility, then? What in 
your judgment is your responsibility in terms of the Park 
itself, the Park, the budget----
    Mr. Mihalic. With respect to the economic----
    Mr. Hill. Yeah.
    Mr. Mihalic. I think that what we have here is almost a 
classic tale of Aesop's fable in which we have a goose that's 
laying golden eggs, and if we want to have those eggs continue 
to provide economic benefit from the Park, then we need to make 
sure that that goose is a healthy goose.
    Mr. Hill. I understand that.
    Mr. Mihalic. This national park has resources and--that are 
spectacular in terms of the scenery, has animals that people 
can see from the road. Just yesterday morning I was able to see 
a bear on the east side of the Park. That's what the public 
wants to see, so our responsibility is to ensure that that 
national park is a healthy national park with basic 
infrastructure to serve Park visitors. Some of those other 
visitor needs, rightfully, should be assumed by the private 
economy outside the Park. They're not an inherited government 
function, and I would think they wouldn't be our 
responsibility.
    Mr. Hill. That's what I wanted to spend some time talking 
about, because in the contemplation of this, maybe that's 
something Congress should look at. What I think I hear you 
saying is that, as part of the development of the Management 
Plan--and we're confining, at this point, to the discussion of 
the road--is that it is your view that the Park Service doesn't 
have an obligation to conduct this reconstruction in a fashion 
that would mitigate--I'm talking responsibility now. To 
mitigate the economic impacts even to the Park itself. Is that 
what you're saying?
    Mr. Mihalic. No, sir. I'm saying that--I'm saying that our 
responsibility is set up in more than just one particular area, 
and on page 49 of our Management Plan overview, we've said 
that, The National Park Service prefers an alternative that 
preserves the historic character of the road, completes the 
repairs before the road fails, minimizes the impact on natural 
resources, visitors and the local economy and minimizes the 
costs.
    So we think that the impact on the local economy is 
certainly part of our responsibility, but it's not the first 
part, nor is it the only part, and I think that what we want to 
ensure is that we can choose the alternative that best 
minimizes the impact.
    To date two studies have shown that the longer the work 
drags on the more the economic pain. If there's a better 
solution that will do a better job that accomplishes all of 
those other goals and even further minimizes the local economic 
impact, I'm all for that, but I'm not sure that it's the 
National Park Service's responsibility to produce a solution 
that first goes to the greatest effort to minimizing that local 
economic impact.
    Mr. Hill. As a matter of fact, I agree with you about that, 
but what I'm just trying to get the point to here is that, 
either it is part of your responsibility or not. I'm not trying 
to suggest that----
    Mr. Mihalic. I think it is part of our responsibility.
    Mr. Hill. You agree this is part of your responsibility----
    Mr. Mihalic. Yes.
    Mr. Hill. [continuing] both to the Park and to the 
communities, the gateway communities, the people that are 
directly impacted, and you've made the case that people as far 
as away as Glasgow could be impacted if it diminishes people 
who would travel across Highway 2 to the Park, and that's 
accurate. But I think you would agree that the closer you get 
to the Park the greater the impact is going to be if, in fact, 
we reduce visitorship to the Park. Do you agree with that?
    Mr. Mihalic. That's correct. I would agree with that.
    Mr. Hill. That's one of the quarrels I have with the 
economic study is that the economic study didn't do anything to 
try to iden-

tify the different levels of impact that would occur based upon 
proximity to the Park, and I want to be careful here that--
We're talking about the economic impacts only because that's 
where I have the largest quarrel with what has taken place at 
this point, not necessarily because I think it's the most 
important thing, and I certainly don't think it's the most 
important thing. I would agree with your assessment, but it is 
an important thing.
    I would just draw the parallel. If we were talking about 
the impact on endangered species and we were talking about the 
proximity of a denning area to the road and we were just going 
say, Generally, this isn't going to impact grizzly bears, even 
though we're going to put a gravel pit at a denning area, 
people would say, Well, no. You've got to be more specific 
about that. Or if we were going to, you know, locate a hot 
plant in a location where there was an endangered plant species 
that could endanger that species particularly, people would 
say, Well, no. We've got to find a way to locate it in another 
area because we've got to mitigate that impact and, perhaps in 
that instance, totally mitigate that impact.
    I would simply make the argument that in the area of the 
economy we have some responsibility to do what we can to 
mitigate that impact, and the more specific you get, the better 
job you can do. The more general you get, the less likely 
you're going to have a good outcome. That's one of my quarrels 
with the economic analysis that's been done so far.
    The second is that the economic analysis and the analysis 
that has been done of the economic analysis are based upon some 
assumptions that I think are not reliable, and that is that 
this is substantially based upon a fairly casual survey that 
was taken of people traveling through the Park, a relatively 
small sample and, I think, an inappropriate sample and that 
even the conclusions that were drawn from that sample are 
inaccurate conclusions, and then they're replicated in the 
analysis. If those assumptions are wrong--and I think there's 
reason to believe that they are--then the whole analysis has 
relatively little value.
    That's a concern that I have, Dave. We don't need to beat 
about that.
    Mr. Mihalic. No, sir. I think it's a very valid concern, 
and I think it's a very real concern. I don't know whether--
With all due respect, Mr. Chairman, I don't know whether the 
concern is, in fact, correct. In all of the economic or other 
socioscience studies that I'm familiar with in the National 
Park Service, the samples that can determine a confidence level 
do not have to be all encompassing in order to give you a 
fairly good confidence level.
    I think that the study here gives us a good, broad, general 
direction to go. Does it give us specifics? No, it doesn't, and 
in that regard you may, in fact, be correct. However, I would 
think that it's probably more right than it is wrong. In the 
study itself, it recognized that, while the estimates are for 
the whole state, the impacts would be disproportionately felt 
on communities nearer the Park. It just doesn't say how 
disproportionately it would be felt.
    Mr. Hill. Let me just ask you, Dave. If that report said 
that this road building would have a disproportionate affect on 
grizzly bears than it would on bald eagles, do you think the 
community will say, OK. That's all right?
    Mr. Mihalic. No, sir.
    Mr. Hill. You would have to define that?
    Mr. Mihalic. Of course you would. I think the biggest thing 
that we've taken away from this economic impact analysis is 
this one point, and that is, the longer the work drags on, the 
greater the economic pain, and so it reinforced our concern 
that we should seek a better solution than merely dragging out 
the work over decades.
    Our concern also, although it's not expressed in the plan 
or in the economic analysis, was the fact that the Park road 
construction every year probably has a detrimental impact to 
the local economy, and if visitors say, Gosh, it's a great 
experience, but be ready for road delays, every year, every 
year, every year, that, too, has an economic impact.
    So that's why we really tried to seek a more comprehensive 
solution. We came up with two ways working with our highway 
experts, and the general, overall economic analysis for those 
ways was that quicker was better, and if there's a better way, 
I will be happy to embrace it.
    Mr. Hill. I want to make clear. I'm not disagreeing with 
you about any of this.
    Mr. Mihalic. I know.
    Mr. Hill. What I am saying, though--then we'll move on 
here--is that you can't mitigate impacts you haven't 
identified.
    Mr. Mihalic. That's correct. I agree with you. You sure 
can't.
    Mr. Hill. My view of the study to date is that it doesn't 
identify--sufficiently identify those impacts, and so it's 
almost impossible for you to develop a plan to mitigate it.
    Mr. Mihalic. It doesn't except for the fact that we felt 
that it went far enough to look at the broad, general direction 
in terms of a comprehensive plan. You're very correct that it 
does not go anywhere near to mitigating the impacts if we were 
to choose one without any further study.
    Mr. Hill. Let me just get one last question, and then we're 
going to let you rest. That is, are you willing to work with 
the interests that are involved in these local communities to 
minimize these economic impacts?
    Mr. Mihalic. Absolutely.
    Mr. Hill. OK. We'll talk later about how we can get that 
done, but there's no doubt that you feel a responsibility to do 
that, and there's a commitment on your part to do that?
    Mr. Mihalic. There's no doubt, Mr. Chairman. I think that 
it would have been very easy during my tenure as superintendent 
of Glacier to pass this one by and to let it explode some time 
down the road. I truly believe that we are much better off to 
face these things head-on and work together and develop some 
sort of comprehensive solution before we need to, and that, 
honest to goodness, is my greatest concern.
    Within the first year I was here, a part of that road fell 
off that mountain, and we even brought--We even brought part of 
the headlines, and it had a profound impact on me, and that led 
me to ask Ms. Jacoby's predecessor, Just what plans have we got 
if that were to occur? Do we even know where it would occur? We 
didn't know where it would occur. We had no knowledge of the 
total condition of the road. Everything was in broad, general 
parameters.
    It seemed to me that, as tough of a pill as this is to even 
contemplate swallowing, we are far better off trying to work 
together to come to the best solution for all concerned rather 
than to just say, Well, we'll turn a blind eye to it, and if it 
happens, we'll deal with it then. I was just trying to be 
comprehensive.
    I still think that we can work together and get to the end, 
and it will be better for the local economy, not worse.
    Mr. Hill. Let me just say this. I compliment you on that. 
It's hard to face down the tough issues sometimes, particularly 
when there's no easy solution, and I agree with you. You and I 
have had private conversations. I am absolutely committed to do 
what I can do to help us find a solution and then to fight for 
what that solution is.
    Mr. Mihalic. I know you are. I'll be there with you.
    Mr. Hill. All right. It's going to take a lot of work on a 
lot of people's parts to do that. The purpose here is to not 
deter us from finding a solution. The purpose of this meeting 
to try to get--first of all, to get the community informed 
about issues and then, also, to get input from the community 
about, How do we accomplish the best result here? I mean, how 
do we get to the place that we all know that--We have to 
rebuild the road, and sooner is better than later. There's no 
doubt about it. I agree with you about that.
    The fact that you're starting this far ahead and--is 
important, because it allows us to realistically deal with all 
those issues. I compliment you on that. I appreciate the work 
that you're doing in that regard.
    With that we'll take a brief recess, and we'll come back 
for some more discussion about that, but I'll ask the other 
panel to come up. We'll take about a 5-minute recess.
    Thank you, Mr. Superintendent.
    Thank you, Ms. Jacoby.
    [Brief recess.]
    Mr. Hill. If we can take our seats and if our second panel 
would come forward.
    Our second panel consists of the Honorable Gary Hall, mayor 
of Columbia Falls; the Honorable Lowell Meznarich, Glacier 
County commissioner; Joseph Unterreiner, executive vice-
president of the Kalispell Area Chamber of Commerce; Roger 
Running Crane, vice-chairman of the Blackfeet Tribe; and Will 
Brooke, owner of the St. Mary KOA Campground.
    Before I swear this panel in, I do want to read into the 
record letters that we have received from Senator Burns and 
Governor Racicot, and I'll read these into the record so that 
the people who are in attendance here will have the benefit of 
this.
    From Senator Burns, ``I want to congratulate you for your 
attention to Glacier National Park and Going-to-the-Sun Road. 
It seems there are few easy answers to the infrastructure needs 
of Glacier. Whatever course we take with the Going-to-the-Sun 
Road, whether it be shorter term action, longer term action or 
even inaction, it will have great implication for the Park and 
for the families and the communities that depend upon the Park 
for their survival. That is why it is extremely vital that we 
have all the information and opportunities for public input 
that we can afford.
    ``Glacier National Park is truly one of our national 
treasures. We must do everything in our power, in accordance 
with our stewardship of the Park system, to preserve it and 
also to help provide for the demands of continued visitation. 
In light of this, today's hearing is an important one, and the 
Committee is to be applauded for your efforts.
    ``Senator Burns.''
    [The prepared statement of Hon. Conrad Burns may be found 
at end of hearing.]
    Mr. Hill. Governor Racicot writes, ``We were very pleased 
to learn that the Subcommittee of the Committee on Resources 
will be coming to Montana to conduct an oversight hearing on 
management options regarding the Going-to-the-Sun highway 
within Glacier National Park. Glacier National Park is valuable 
to Montanans and Americans in so many ways. It is truly one of 
Montana's most unique and special places to visit. In addition, 
it provides a key component to the economic well-being of many 
communities in the Flathead and surrounding areas.
    ``Because we hold such strong feelings about Glacier and 
because of its extraordinary economic importance, I'm very 
pleased that you've had the foresight to hold an oversight 
hearing into the future management of Going-to-the-Sun Highway.
    ``As you are very aware, Glacier National Park has released 
for public review their draft Environmental Impact Statement 
and General Management Plan. The complex and difficult issues 
addressed in this document will be subject to more discussion 
and review because the Park and future management options for 
the Park are significantly important both economically and 
ecologically to our state.
    ``You have spent much time examining this issue, and I know 
one of the most complex components of the plan deals with the 
famous Going-to-the-Sun Highway. While most will recognize that 
the highway is in need of repair, just how to accomplish the 
reconstruction is not clear. It is worthy of the review and 
attention of the Subcommittee hearing that will be--that the 
Subcommittee's hearing will provide.
    ``One very important component in any successful solution 
will be Congress and the issue of funding. This will be no 
doubt an expensive multiyear contract, and having Members of 
the Congressional Subcommittee in Montana to hear from 
Montanans and Park officials is very important to any 
successful solution.
    ``We have informed the National Park Service of our intent 
to carefully review and analyze the draft Environmental Impact 
Statement. After our review and analysis is complete, the State 
of Montana will submit formal comments. As with other efforts 
of this nature, we will utilize the expertise and various 
disciplines within State government, which will include this 
office and the Departments of Fish, Wildlife and Parks, 
Environmental Quality, Commerce, Natural Resources and 
Conservation and Transportation. As well, we will be listening 
to and evaluating comments which come to us from the local and 
tribal governments and other interested parties.
    ``Again, thank you for your leadership and for conducting 
this hearing. We look forward to continuing to work with you 
and other Members of Congress, the National Park Service and 
others as we consider future management options for Glacier 
National Park.
    ``Sincerely, Marc Racicot, Governor.''
    [The prepared statement of Hon. Marc Racicot follows:]
    Mr. Hill. If each of you would stand and raise your right 
hand.
    [Witnesses sworn.]
    Mr. Hill. What we will do--again, I would ask members of 
the panels to try to keep their comments to 5 minutes, their 
public statements. If the statement is longer than that, we 
will make it a part of the permanent record, and we will start 
with Mayor Hall.

    STATEMENT OF GARY HALL, MAYOR OF COLUMBIA FALLS, MONTANA

    Mr. Hall. I begin this 5-minute dissertation by sincerely 
thanking Representative Hill for his definite leadership and 
concern for this most important event in Montana's history. On 
behalf of small businesses of the Flathead Valley, we truly 
thank you. We, as you know, are a minority, and it is real nice 
to know that we are being considered and given a voice at this 
most crucial time.
    I don't believe that the GNP is out to hurt small business, 
but I do believe that there are some inequities in the 
Alternative A road closures. I applaud the efforts put forth by 
GNP and by the reports and the willingness to listen to the 
community, so I would ask that you listen real carefully today 
to all that is brought before you.
    The Federal Highway Administration proposed a 15-year 
reconstruction plan with partial closures and several untried 
measures to allow visitor use, but GNP did not offer this to 
us, and we are wondering why.
    At Representative Hill's last meeting in Kalispell, a man 
from the Department of Transportation told us how rock walls 
can be built on the Valley floor and be lifted in place, which 
can save many days and many dollars. Please listen to Mr. 
Hill's suggestion of getting outside input for reconstruction 
ideas.
    Another concern is that there has not been a formal 
engineering study done on the road, and that should be a 
concern for all of us. We must know all the facts before 
pushing hundreds of businesses to the edge of extinction. We 
have made everyone aware that up to this point there is not a 
citizens' advisory board in place, and we just insist on having 
that in place before we move any further.
    The economic study that was done at the University of 
Montana was good, but one of my concerns is the talk of 
promoting people to come and plan their vacation around 
observing the construction. No matter how you look at it or 
present it, it's a bad deal. I know that if I'm going to spend 
an average of $206 per person per day in the Park, why in the 
world would I want to spend it doing that? It would be a 
marketing miracle to pull that one off, and one we shouldn't 
risk.
    People who don't own a business or whose hopes and dreams 
aren't hinging on whether the road closes or not will get their 
say today and tomorrow, for example, newspapers, others whose 
jobs are not directly affected by the road being closed.
    Please hear the heartfelt concerns of the business 
community. They will not be able to recover their businesses 
once closed.
    I also believe that the public deserves a full and separate 
environmental and economic review of the options. Also, it 
seems that we may be putting the cart before the horse. We are 
beginning this process without committed funding. Are we going 
to close the Park for reconstruction and then try to get the 
funding? I would sincerely hope not.
    There has been talk of the importance of communication and 
marketing. GNP needs to communicate to people now and forever 
that Logan Pass is and should always be open no matter what the 
scenario we come to. Once again, we must take the word 
``Closure'' out of our vocabulary, literally.
    Also, by the information given to the media and the press 
to this point about the road being shut down for 
reconstruction, we have had a minimum decline in tourism to the 
state of 20 percent. We cannot expect the general public to 
understand all that is going on at this end.
    I also find it disturbing that the road reconstruction plan 
ended up in the General Management Plan in March. We got a 
basic explanation for that today, but I would ask that it be 
removed. NEPA, the National Environmental Policy Act, demands 
that any major construction of this nature must have its own 
Environmental Impact Statement. The construction of Going-to-
the-Sun Road should be removed from the General Management 
Plan.
    No one has ment around the other side, but don't advertise 
the C word.
    No. 2, do everything possible to keep the $160 million 
income and 2,400 jobs going strong in this area.
    A suggestion by a local business directly affected by the 
proposal is to extend the Many Glacier Road to the North Fork 
Road, which would create a loop. This would allow repair of the 
road to happen at any time, even emergency closures by 
accidents, rock slides and so forth. It would also make 
opportunity for campsites off the North Fork Road from Camas 
Creek to Columbia Falls, thus taking pressure off of the Park.
    Last--And I hate to end on this note, but to let you know 
how serious local businesses are to being sure that they are 
protected, there is in place substantial dollars from even only 
two businesses so far that would be applied to a class action 
lawsuit, if necessary, to protect our businesses and our 
futures, not a desired action.
    Again, thank you very, very much for allowing me to express 
these grave concerns as an elected official along with the 
views of other local business people directly affected by the 
road closure idea. Please help us stay in business.
    Respectfully submitted, Gary Hall, Mayor.
    Mr. Hill. Thank you, Mayor Hall, for that valuable 
testimony.
    [The prepared statement of Mr. Hall may be found at end of 
hearing.]
    Mr. Hill. Our next witness will be the Honorable County 
Commissioner Lowell Meznarich.
    Mr. Meznarich. Meznarich.
    Mr. Hill. Meznarich. I understand that. Rich and Rick. 
People confuse my name that way too. I apologize.

   STATEMENT OF LOWELL MEZNARICH, GLACIER COUNTY COMMISSIONER

    Mr. Meznarich. Thank you, Mr. Chairman.
    My name is Lowell Meznarich, and I'm an elected 
commissioner representing Glacier County. All of Glacier 
National Park, which is east of the Continental Divide is in my 
county. Given that fact, all issues which affect Glacier 
National Park are important to us.
    My fellow commissioners and I have cautiously monitored the 
discussions regarding the future maintenance and repair of the 
Going-to-the-Sun Road in Glacier National Park. Simultaneously, 
we have questioned the population to obtain their input on the 
matter at hand. I am pleased to have this opportunity to offer 
our collective thoughts.
    No local issue in the past 5 years has seen greater 
scrutiny than the options given to repair the Going-to-the-Sun 
Road. All of the options will be harmful to the tourism 
industry in northwestern Montana. There is a solution, however.
    The fast-track option, coupled with several other 
enhancements, has the potential to get the work done 
effectively, while also providing a unique opportunity to 
assist the east side of the Park in reducing its tourism loss. 
I am strongly in favor of the fast-track option and reducing 
the impact on the economy by taking advantage of an upcoming 
significant event.
    Enhancement No. 1. The closure of the east side of the road 
should coincide with the observance of the Bicentennial of the 
Lewis and Clark Expedition. The large increase in visitors for 
the Bicentennial will help a great deal with the expected 
reduction in visitors to Glacier National Park because of the 
road work and closure. Planning to have these two events at the 
same time will be a tremendous benefit to Glacier County.
    The years 2004 through 2006 would be ideal for the east 
side closure. This is important since within 25 miles of Cut 
Bank, the Glacier County seat are two of the most significant 
sites along the Lewis and Clark Trail. The first, Camp 
Disappointment, is where Meriweather Lewis and three of his 
party discovered that the Missouri River drainage did not cover 
as much territory to the north as originally hoped. The dreary, 
overcast day not only added to the disappointment, it also 
obscured the Rocky Mountains, which were just to the west.
    Had the day been clearer, Lewis would have plainly seen the 
opening to Marias Pass, the lowest elevation pass through the 
Rocky Mountains. Lewis was within easy sight of one of his most 
significant potential discoveries, but he would never know. The 
possibilities of that missed discovery have been romanticized 
for years.
    The fight site is the location of the following day's camp. 
At this site Lewis encountered and camped with a group of 
Blackfeet Indians. The following morning was the only armed 
conflict of the entire expedition. The fight over horses and 
weapons resulted in the death of two of the Blackfeet party and 
a close call for Lewis who wrote, ``Being bare headed at the 
time, I plainly felt the ball pass over my head.''
    This encounter took place near the banks of the Two 
Medicine River in an area which historians consider the most 
primitive and least changed in the nearly 200 years since the 
explorers' journey. Use of this site will also provide an 
additional introduction to the Blackfeet Indian culture, which 
is another of the great treasures of our region.
    The residents of Glacier County are quickly learning that 
the upcoming Bicentennial is gaining national and international 
attention. Already, Glacier County residents have taken the 
first few sparks of interest, added their entrepreneurial 
spirit and developed creative business ventures to cash in on 
the expected rush of adventuresome tourists. With the expected 
increase in visitors to our area I believe we can significantly 
reduce the negative impact of the closure of the east side of 
the road. A carefully crafted promotion would be very 
beneficial to Glacier County.
    Enhancement No. 2. Regarding the Lewis and Clark Trail 
sites, we need assistance to improve access opportunities to 
the sites themselves. Traveling to each site presently requires 
driving on undeveloped roads, followed by a walk of up to one 
mile. The roads are one lane only and are often not more than 
slightly worn paths through the natural grass. The walk is over 
easy terrain, but the path is not clearly visible in many 
areas.
    Any improvement should maintain the present condition of 
the sites and not detract from the natural state each site 
presently enjoys. As such, many portions of the road and trail 
will merely need simple markings to keep the traveler on the 
proper path. Other areas may need compaction work and/or a 
light gravel application.
    Much like the work in Glacier National Park, any 
improvements to these sites must preserve and protect the area. 
Little has changed since Lewis appeared at these sites. We need 
to keep it that way, since that is precisely why these sites 
appeal to a significant number of Americans. These improvements 
could be accomplished with a very small amount of funding.
    Both sites are located on and accessible only through 
private land. I believe we must immediately pursue public 
acquisition of the sites and access. If that not possible, in 
the least we must have agreements in place which allow for 
public maintenance and access when appropriate.
    Glacier National Park Enhancement No. 3. Glacier National 
Park must do everything in its power to trumpet what is 
available to the visitors and downplay the Going-to-the-Sun 
Road closure. We don't need the headline to scream that the 
road is closed. Instead, leading up to and during the east side 
closure, national and international promotions should extol the 
uncommon beauty of our many east side areas, Two Medicine, St. 
Mary's, Many Glaciers and even Canada's Waterton National Park.
    Promoting jointly with Waterton should become a priority. 
The opportunities to experience the Lewis and Clark sites 
should also be a significant part of the promotion.
    Enhancement No. 4 has been discussed. Let's get the job 
done. Let's not have the types of delays that have plagued 
previous construction projects.
    Enhancement No. 5. Glacier National Park must accept 
primary responsibility for repair and maintenance of Highway 
49, which is known as the Looking Glass Road. This road is the 
north/south link between East Glacier Park, Two Medicine and 
St. Mary's.
    The road was originally constructed by the National Park 
Service and for years was maintained by them. Since it is 
outside the Park boundary, the Park Service has chosen to allow 
the road to deteriorate. At present the Looking Glass Road is 
generally open on the same calendar used by Glacier National 
Park. The road is not maintained during the winter. Like the 
Sun Road, the Looking Glass offers a unique view of Glacier 
National Park, which is just to the west of the road. The road 
itself winds along the slopes of the moun Glass Road.
    With these five easily attainable enhancements, I'm 
confident the Park Service will find general support for the 
road repair project.
    Mr. Chairman, that concludes my formal comments.
    Mr. Hill. Thank you, Mr. Meznarich.
    [The prepared statement of Mr. Meznarich may be found at 
end of hearing.]
    Mr. Hill. Again, I would just urge all those submitting 
testimony to try to stay as close as you can to the 5-minute 
limit.
    Our next testimony will come from Joe Unterreiner, 
executive vice-president of the Kalispell Area Chamber of 
Commerce.
    Thank you for appearing, Joe.

STATEMENT OF JOE UNTERREINER, PRESIDENT, ASSOCIATED CHAMBERS OF 
                      THE FLATHEAD VALLEY

    Mr. Unterreiner. I am executive vice-president of the 
Kalispell Chamber. I was invited to speak as the president of 
the Associated Chambers.
    The Associated Chamber group is an association of six 
chambers of commerce and three tourism organizations, 
consisting of 1,800 businesses and organizations in northwest 
Montana, and, Congressman, I'd like to applaud your efforts to 
understand this issue, its implications for northwest Montana's 
economy and the steps that you've taken to ensure the best 
possible course of action is taken. We would like to recognize 
and express our appreciation for your efforts.
    The Sun Road is a critical economic, social, cultural and 
historic asset of this area. There is, perhaps, no other 
singular resource in the Flathead that effects more people both 
personally and professionally than the Sun Road. It is 
essential that this road be maintained and repaired in a way 
that provides for the enjoyment of future generations while 
minimizing the economic and social impact to the current 
generation.
    There are several things we think that Congress can do to 
help achieve this goal: One, ensure that the best possible road 
construction expertise is applied to this engineering challenge 
and make impact reduction the highest priority; two, provide 
public education funding to minimize projected visitation 
losses as part of the appropriation request; three, provide 
financial relief for those businesses most severely affected by 
the negative impacts of reconstruction; four, utilize business 
input; and, five, provide adequate funding for national park 
roads.
    I'd first like to note that data from the University of 
Montana's Institute for Tourism and Recreational Research has 
indicated that 25 percent of nonresident tourists to Montana 
come here primarily to see Glacier National Park. This is a 
destination tourism attraction that benefits not just the 
Glacier areas, but other cities and towns that line the roads 
to and from the Park. They come because the Going-to-the-Sun 
Road, a national historic landmark, offers some of the most 
spectacular scenery anywhere in North America.
    The National Park Service and the Federal Highway 
Administration have developed three concepts for preserving the 
road. We think this is a good start, and we'd like to see a 
process begun that further refines these alternatives. The two 
economic impact studies have both concluded that the fast-track 
option, the 4- to 6-year option has the least economic impact 
and the lowest cost of construction, and this is the Park's 
preferred alternative.
    However, it is now time to refine the two action 
alternatives by using the best experts available, including 
financial incentive to complete the work as quickly as possible 
and completing the formal engineering study.
    The findings of two economic studies on this issue indicate 
that the quicker construction is completed the more negative 
impacts are minimized. Therefore, every effort should be made 
to explore techniques that might hasten the reconstruction 
period. Sections of retaining wall might be prefabricated 
offsite, for example, or perhaps some international firms that 
have extensive expertise in high-altitude road work might have 
innovations to offer.
    We'd like to see a bid structure that provides incentives 
for early completion. If we examine the reconstruction of 
Interstate 10 in Los Angeles after the Northridge quake, we can 
see how financial incentives were effectively used. The time of 
completion was substantially reduced by running around-the-
clock shifts. This more aggressive approach might reduce the 
time of the fast-track option or reduce the time on the 
accelerated option to a more acceptable timeframe. If the 
National Park Service and the Federal Highway Administration 
are prohibited from using such incentives for early completion, 
we urge Congress to waive that restriction for this project.
    We would like to also indicate our support for the efforts 
of Congressman Hill and Senator Burns to have a formal 
engineering study produced on the Sun Road. We may find that 
some sections do not need reconstruction.
    In any event, loss of visitation and its resulting impact 
on business losses must be viewed as real costs in preserving 
the Sun Road. Early completion incentives can be justified when 
weighed against the total cost of economic loss and the impact 
on communities. Reducing these negative impacts must be given 
our highest priority.
    We'd like to see an appropriation request include a fully 
funded--fully developed public education program to help offset 
visitor losses. We think that this can help offset--And we 
encourage Congress to fund and implement a plan prior to 
commencement of construction with sufficient investment to 
continue to educate and inform the public.
    As I indicated, I'd like to also see a program to help 
offset--impact those businesses that are most severely 
affected. We'd like to see something that would address those 
businesses as well.
    I'd like to call your attention to a survey that was 
conducted of 550 businesses, area businesses here in the 
Flathead Valley, of which 120 responded to. Sixty percent of 
those businesses also prefer the fast-track reconstruction 
option, with 20 percent favoring the accelerated 
reconstruction, 6 percent for the status quo.
    I'd like to conclude by saying that the Sun Road is a main 
attraction to some of the most beautiful scenery in North 
America, and it is disintegrating. There's no perfect time to 
rebuild a stretch of road that presents some of the most 
difficult conditions imaginable, but given the recent increase 
in funding for the highway bill and the current budget surplus, 
we should act now while the window of opportunity is still 
available. We could choose to delay or study further or do 
nothing at all, but if we do, we risk losing the road 
altogether.
    Mr. Hill. Thank you very much, Joe. Thank you for those 
valuable comments, and I'll be looking forward to asking you 
some more detailed questions about those.
    [The prepared statement of Mr. Unterreiner may be found at 
end of hearing.]
    Mr. Hill. The next witness is Roger Running Crane, who is 
vice-chairman of the Blackfeet Nation.
    Mr. Running Crane, thank you for being here. We look 
forward to your testimony.

  STATEMENT OF ROGER RUNNING CRANE, VICE-CHAIRMAN, BLACKFEET 
                             NATION

    Mr. Running Crane. Good morning. I bring you greetings from 
the Blackfeet Nation and would like to first of all thank the 
Honorable Rick Hill, who sits on the House Resources 
Subcommittee on National Parks and Lands for scheduling this 
hearing and allowing us to provide testimony for the record.
    My name is Roger Running Crane, vice-chairman of the 
Blackfeet Tribal Business Council, which is the governing body 
of the Blackfeet Nation.
    Historically, Glacier National Park was part of the 
original land base of the Blackfeet people and later was 
transferred to the hands of the U.S. Government through a 
treaty in 1896. We still claim treaty rights in the Park that 
include privileges to hunt, fish and gather wood.
    Presently, our western boundary of the Blackfeet 
Reservation is Glacier National Park. I point this out because 
it documents our presence before and after the creation of the 
Park that serves as a showcase for the entire world to enjoy 
its natural beauty.
    With that said, the Blackfeet Nation would simply like to 
offer their human and natural resources in the proposed future 
maintenance and repair of the Going-to-the-Sun Road. These 
resources consist of a qualified work force, unlimited amounts 
of and access to gravel and other road construction materials. 
We have land adjacent to the Park for recreational and 
campground use by the tourists who may wish to choose to visit 
only the east side of Logan Pass when the Going-to-the-Sun Road 
is under construction.
    Finally, the Tribe also offers any other resources in 
assisting the Park Service to make the construction phase an 
experience that we can all benefit from.
    In closing, Congressman Hill, the Tribe is sensitive to the 
economic downside of the tourism industry if the road 
construction is to occur. By not being viable participants in 
that industry for reasons that I will not go into, we simply 
want to maximize the economic opportunities for our people who 
are at the lowest economic rungs of the ladder in this country. 
Any economic stimulus for our people is welcomed, and I'm sure 
the surrounding communities in the Blackfeet Country would 
agree as well, since they, too, reap the benefits of those 
dollars.
    Again, thank you for this opportunity, and we reserve the 
right to send additional documents for the record within a 10-
day time period after this hearing. Thank you.
    Mr. Hill. Thank you, Mr. Running Crane, and that is true. 
The record will be held open for 10 days to make it an official 
part of the record, and, obviously, if folks have other 
comments, they can make those comments to our office, and we 
will do everything we can to get them either in the record at 
this hearing or a subsequent hearing.
    [The prepared statement of Mr. Running Crane may be found 
at end of hearing.]
    Mr. Hill. I apologize to people back there. Evidently, our 
sound system has had some malfunction. Can you still hear back 
there? Can you hear the testimony in the back? OK. We will 
proceed, then, with Mr. Richard Hunt, vice-president of Friends 
of Glacier.
    Thank you, Mr. Hunt, for being here. We look forward to 
your testimony.
    Mr. Hunt. Thank you, Mr. Chairman, panel members and 
interested persons. Thank you for this opportunity to appear 
before you.
    Mr. Hill. You need to turn that mike on. I don't think it's 
on.
    Just wait a moment. Let's see if we can get the volume----
    [Discussion off the record.]
    Mr. Hill. We're ready to go.
    Mr. Hunt, you may proceed.

   STATEMENT OF RICHARD B. HUNT, VICE-PRESIDENT, FRIENDS OF 
                         GLACIER, INC.

    Mr. Hunt. Thank you.
    Friends of Glacier was formed with the purpose of assuring 
access to Glacier National Park and opposing any plans to 
diminish access during the publication of and hearings on the 
draft Newsletters in 1997, which related to the General 
Management Plan for Glacier National Park.
    By 1924 Park officials had promoted a goal to enable people 
to reach the interior of the Park even if they could not afford 
the rates of the Great Northern Railroad and its chalets. In 
1925 the Bureau of Public Roads began to oversee the building 
of the Going-to-the-Sun Road, which traversed Logan Pass and 
connected the east and the west and gave the people the 
opportunity to reach the interior of the Park. In 1933, Park 
officials attained their goal as visitation increased by 44 
percent with the completion of the road.
    This 22 miles of the most difficult stretch of the proposed 
road was completed with primitive equipment by today's 
standards. In the Management Plan developed by Glacier Park 
planners, the preferred alternative fast-track reconstruction 
of the road plans on 4 to 6 years to complete utilizing the 
most modern technology and equipment available, only eight 
miles more than that done from 1925 to 1933. Alpine road 
construction techniques of today should be able to do better.
    However, that is only part of the story. Several other 
shortcomings are presented in the GMP related to the Going-to-
the-Sun Road. Two critical issues were identified by the Park 
planners related to the road: Visitor use on the Going-to-the-
Sun Road and preservation of the Going-to-the-Sun Road.
    One, in the preferred alternative of the first issue, 
several actions to be taken relate to an expanded 
transportation system, modifying and/or adding pullouts, picnic 
areas and short trails, although it is interesting to consider 
adding picnic areas on the Going-to-be-the-Sun Road while 
removing one at the developed area also on the Going-to-the-Sun 
Road.
    There is little in the plan which identifies the impact of 
those actions on the newly completed reconstruction. In our 
view, some linkage should be in the GMP.
    Two, in the preferred alternative of the second issue, 
several criteria were established to develop the preferred, to 
minimize impacts on the visitors and minimize impacts on the 
local economy. The GMP suggests that local business persons 
would have time to develop the mitigation for the impact of 
closing one side of the Park's Going-to-the-Sun Road for 2 to 3 
years, then close the other side for 2 to 3 years. It is the 
Park's criteria. Yet the GMP says little about how the Park 
would assist in such a minimization plan. The GMP also says 
little about measures to be taken to minimize the impact on the 
visitor. These two areas of the General Management Plan are 
deficient in our view.
    One of the most disturbing deficiencies in the GMP is also 
related to one other aspect of this oversight hearing, 
maintenance. Little is said about the long-term need to 
maintain the Going-to-the-Sun Road after it is reconstructed. 
This GMP is to provide guidance to the Park for 20 or so years. 
Yet preservation of the road also means maintenance, and 
maintenance deserves a place in the General Management Plan.
    Friends of Glacier recognizes and applauds plans to improve 
access by adding pullouts, picnic areas, short trails and 
emphasis upon a safe Going-to-the-Sun Road for visitors to 
appreciate one of the premier experiences in the Park, which is 
to traverse the road from east to west and west to east. We 
also recognize and appreciate the Plan's efforts to preserve 
the Park and to preserve this Park as a traditional western 
park.
    Friends of Glacier stands ready to participate in finding 
solutions to some of the shortcomings we see in the GMP. 
Directors and officers of Friends of Glacier attended the 
meeting held in Kalispell by Representative Rick Hill in June 
1998. Many ideas were presented, including the suggestion that 
more time was needed to examine the data and to consider 
forming an advisory group with alpine road construction 
experts, local business persons and interested persons to 
determine effective economical methods of construction, 
timeframe and strategy with the least impact on local, regional 
and international economies as well as other activities which 
would mitigate the effects of this necessary and important 
project.
    Park planners tell us on page 50 of the Draft General 
Management Plan, Environmental Impact Statement, that the 
National Park Service prefers an alternative that conforms to a 
certain set of criteria, and from available information, 
Alternative A, the fast-track reconstruction, 4 to 6 years, 
appears best to satisfy those criteria. However--and I quote--
``If new data and analyses revealed information that would 
better respond to the criteria, a different alternative would 
be selected in the final plan.'' Emphasis added. How would this 
data and analyses be revealed to the Park planners?
    In summary, Friends of Glacier continue to support the 
broadest possible access to Glacier National Park. We ask that 
our testimony will cause the Park planners and this Committee 
to seek ways to improve the connection between the two critical 
issues discussed, visitor use on Going-on-the-Sun Road and 
preservation of Going-to-the-Sun Road.
    We are not suggesting specific actions at this time. As 
indicated, Friends of Glacier stands ready to be a part of any 
method for arriving at solutions to those shortcomings we have 
identified.
    Thank you, Chairman Hill, for the opportunity to present 
our views and our questions.
    Mr. Hill. Thank you, Mr. Hunt, for that valuable input, and 
I look forward to fleshing some of that out.
    [The prepared statement of Mr. Hunt may be found at end of 
hearing.]
    Mr. Hill. Our last panelist will be, last but not least, 
Mr. Will Brooke, who is owner of the St. Mary's KOA Campground.
    Thank you for appearing, Mr. Brooke. You may proceed.

 STATEMENT OF WILL BROOKE, PRESIDENT, GLACIER/WATERTON VISITOR 
                          ASSOCIATION

    Mr. Brooke. Thank you, Mr. Chairman. I can't tell you how 
nice it is to call you Mr. Chairman and Mr. Congressman after 
all these years. I wish Mr. Hanson were here so we could recall 
the days when it wasn't Mr. Chairman but Member of the 
Minority. It's nice to see you as Member of the Majority now.
    First, I want to correct. It's St. Mary. It's not St. 
Mary's. Second, I want to correct. I appear here today as 
president of the Glacier/Waterton Visitor Association. We are a 
collection of businesses throughout the Park and around the 
Park, including Canada, and some of our Members have been 
providing service to the visitors of Glacier for over 65 years 
and know and understand the issues around the Park as well as 
anybody in the country.
    I speak of Roscoe Black and his family at St. Mary, Lisa 
Lundgren and her family at West Glacier. These people 
understand these issues very well and need to be listened to 
carefully. They have the historical memory, if you will, that 
some of us don't have the benefit of.
    The Association wants to be clear that in the first 
instance we commend the Park Service for what they're doing in 
terms of focusing attention on the maintenance, improvement and 
protection of the Going-to-the-Sun Road. It is a critical 
issue, and I would agree with Mr. Mihalic today that the 
easiest thing for him to do and for the Park Service to do 
would have been to let somebody else deal with this. That 
certainly has been the case previously, and I think that the 
Park Service is the victim of deferred maintenance by prior 
administrations, lack of attention by the public to what was 
building up as a result of the deferred maintenance, and 
Congress has had its finger in this problem by removing 
funding, critical funding for some of the maintenance.
    But notwithstanding these problems, I think that the Park 
Service and what they're proposing in the General Management 
Plan specific to the Going-to-the-Sun Road is premature at this 
time. It is at a minimum based on improper procedure and public 
involvement, and at a maximum it may be just plain wrong.
    We hope the Park Service is not wrong. In fact, if the Park 
Service is ultimately correct in its proposed action, we will 
get behind the Park Service and help in every way possible by 
assisting and obtaining necessary funding from Congress, 
working with public relations and information to mitigate the 
perception that the Park is closed and, otherwise, working with 
the Park Service. However, whether the Park Service is correct 
is the key issue as we sit here today.
    And, Mr. Congressman Hill, you put your finger on it, as 
you have the ability to so often do. There's a chicken and egg 
here, a cart before the horse question. The Federal Highways is 
saying, Well, we're not going to do the detailed engineering 
until the Park Service chooses their preferred alternative. How 
in the world can you choose a preferred alternative without 
detailed engineering studies? It doesn't make sense, and it's 
inappropriate to proceed that way.
    The EIS for the General Management Plan has been proceeding 
through the NEPA process for several years now. The section for 
the Going-to-the-Sun in the Draft Management Plan is new. It 
wasn't in the former Management Plan. It came out, and it 
proposes a major significant new Federal action with enormous 
impacts to the environment and the economy.
    You've heard about those impacts, the economic impact from 
the other witnesses, and I'm not going to continue those, but 
you asked the question or you pointed out that you had several 
concerns about how they did the economic studies. Well, I'll 
point out just one point. In the plan it talks about 2,400 jobs 
may be affected or are affected by the Park. Our membership can 
account for 2,000 jobs just through our members, so we know 
that 2,400 jobs is entirely inappropriate and a wrong number 
and a bad number. How they came up with it I don't know, but it 
points up bigger and larger problems, that they're using 
information that is, I guess, not entirely well researched or 
thought out.
    More importantly, going back to what I was saying, we're 
proposing a major Federal action in the General Management 
Plan. The last-minute inclusion in the plan of a major new 
Federal action does not comply with the letter or the spirit of 
NEPA and the EIS process. It has not been properly scoped, we 
believe, and the information and studies and data supporting 
the action are nothing more than generalities, and there's a 
general failure to consider all of the appropriate 
alternatives.
    The General Management Plan is a general guide of how the 
Federal land should be managed, usually for a period of about 
10 years. The proposal for the Sun Road is not consistent with 
this principle. Rather, it is site specific, date specific and 
project specific. We believe the decision to do anything with 
the road of this magnitude necessarily requires and commands a 
separate plan and a separate Environmental Impact Statement.
    There are alternatives that are not in this plan which we 
believe should have at least been considered or explained why 
they were not considered. The Federal Highway Administration 
analyzed at least one other alternative, from what we can tell 
from the information we've gathered, and it appears that there 
might be some merit to that alternative, but the Park Service 
didn't include it in the EIS, nor did they explain why the 
alternative was not considered, and I think it points up a 
larger point with this plan.
    To use a old, worn-out cliche, when you look at the EIS, 
you ask the question, Where is the beef?
    You compared it to looking at impacts on threatened and 
endangered species, so you can bet, if we were doing a timber 
sale or if we were doing some other kind of major Federal 
action that effected threatened and endangered species, we 
would have an enormous Environmental Impact Statement with 
studies that attached to it that went on forever, and 
appropriately so, but when we talk about economic impacts, we 
choose to do generalities. We choose to rely upon studies that 
are questionable at best, and I'll point that out, and I see 
the time is up, and I'll get out.
    The survey that they relied upon, as you pointed out, is 
questionable, and one of things they did was, they surveyed 
people that had been to the Park.
    The tourism business is extremely competitive, and there 
are states and countries spending hundreds of thousands of 
dollars advertising. Come to our state. Come to our area. They 
asked people who had went over the road, Would you come back 
under various scenarios? The appropriate way to do that kind of 
survey is to go back to somebody in Minnesota, somebody in 
Texas, somebody in Michigan, who has maybe requested 
information from the Montana Tourism Bureau, and ask them, you 
know, If the road is closed or partially closed, would you 
still come? I think you're going to get a much different 
answer. They're sampling the wrong population.
    They also continuously point out that 80 percent said they 
would come back. If you read that survey, when you talk about 
closure, you talk about 60 percent coming back, and, 
unfortunately, when you talk about closure of any kind, people 
have the perception of closure.
    The last thing I want to say is that, we're talking about 
possibly starting in the year 2004. A lot of us are making 
long-term financial commitments to capital improvements to 
build our businesses and to make improvements that result in 
lots of jobs and lots of money invested in the local economy. 
We cannot go to our financial institutions and say, Look, We've 
got a possibility of road closure in the year 2004. This thing 
has to be laid out with longer term commitments so that we can 
go back and get long-term financing to do the kind of capital 
improvements that we want to do, and we have to have it far 
enough out in front of us that we can make the appropriate kind 
of planning. This doesn't do it.
    The association requests that the EIS or that section on 
the road be pulled out and a separate EIS done. We think that's 
appropriate, given the magnitude of this kind of decision.
    Mr. Hill. Thank you, Mr. Brooke.
    [The prepared statement of Mr. Brooke may be found at end 
of hearing.]
    Mr. Hill. I have quite a few questions, and let me start 
with Mayor Hall.
    What are the people in Columbia Falls saying when you talk 
to them about this reconstruction effort? What do you hear 
them--What are they saying to you?
    Mr. Hall. Through the tears, they are saying that there's 
no possible way they would be able to recover from the loss 
that would be incurred by this Alternative A.
    We are marginal at best anyway. We are probably the closest 
large population community close to the Park, and the business 
is two and a half to 3 months strong, and the impact that it 
would have on these small businesses would be too much to 
recover from at the end of this reconstruction process. That's 
the main theme.
    Mr. Hill. One of the troubling things, in reading the 
Management Plan with reference to this, is the sense that, you 
have the time from now to the year 2004 to prepare your 
business for the economic impact. How does a businessman----
    And I'd ask anyone else who wants to answer this question. 
As a former business owner, how do you prepare your business 
for being out of business for 2 or 3 or 4 or 5 or 6 years? Do 
you know any way that a business can prepare for that kind of 
an event?
    Mr. Hall. It's a good question, and I don't have an answer 
for it because I don't think there is one. There really isn't 
an answer to that.
    Mr. Hill. You can't prepare?
    Mr. Hall. You can't.
    Mr. Hill. Joe, do you want to comment on that? I mean, 
you've testified that you think that--I hate this word ``Fast 
track'' by the way. I'd just comment that fast track also 
refers to trade authority that's a matter of some controversy.
    I was answering the telephones in my office as people were 
calling in on another issue, and one evening a lady called in. 
It was kind of a feeble voice, and she said, Tell the 
Congressman that he should oppose fast track. The trains are 
already going too fast. When you talk about fast track, some 
people may think the train is going too fast here.
    Anyway, Joe, go ahead.
    Mr. Unterreiner. I guess I see those kinds of arguments as 
the reason why there needs to be some kind of program for 
financial relief offered to the people that are most severely 
affected, and I don't--It doesn't get any easier by drawing it 
out longer, so I see that partially as an argument for getting 
it over as quickly as possible and, hopefully, providing some 
kind of relief in the same way that people who are devastated 
by an earthquake in San Francisco or Los Angeles or a hurricane 
in Florida or people who are provided air conditioners in Texas 
by the Federal Government are benefited. There must be some way 
to provide some kind of relief for those businesses that are 
most severely effected.
    Mr. Hill. What you see happening or what you anticipate 
happening is some effort on the part of Congress for what, some 
sort of a loan program or grant program? What is it you 
contemplate there?
    Mr. Unterreiner. I guess that is why I'd like to see some 
kind of an effort made to see if there is a precedent for 
either National Park Service roads or for any of the Federal 
Highway Administration roads. For example, whether there is a 
precedent out there that exists currently and if there is not, 
I guess I would envision something along the lines of something 
through the Small Business Administration or certainly with the 
CRP program for--In ag they take a look at a business and see 
how much income is generated off of a certain acreage of land.
    There is a general precedent. Whether there exists a 
precedent for Federal Highway Administration roads, I don't 
know, but I think that that's something that should be 
explored.
    Mr. Hill. Do you think there's a way for us to be able to 
accomplish this task without having a dramatic impact on the 
businesses?
    Mr. Unterreiner. Well, I think that there are ways to help 
minimize the impact, and I see one of the major things there is 
providing for funding for public education, and I would like to 
see that be part of the appropriation request, that there be 
some substantial kinds of public education dollars and a fully 
developed program put together prior to the beginning of 
construction actually to accompany the appropriation request, 
and I think that that could go a long way to helping offset 
visitor losses.
    Mr. Hill. There's a general perception, I think, or at 
least I think most of us have the perception, that the people 
believe that when the road is closed the Park is closed, and if 
you can't go on the road completely, then there's no sense in 
visiting the Park. Is that what you're talking about is some 
education effort as part of this to convince people that it's 
still a worthy experience to come to the Park even if there is 
some road closure associated with it?
    Mr. Unterreiner. Yes, and I would see it even broader than 
that, to include other kinds of activities in the gateway 
communities.
    The University of Montana study indicated that 75--between 
75 and 80 percent of the total impact that would be felt by the 
reconstruction options would be felt locally, that is, in the 
gateway communities, and that includes Glacier County. So I 
would like to see funding in place and a fully developed kind 
of public education or marketing program that outlined other 
kinds of activities that would--that could occur, other kinds 
of vacation stops that could occur in all of the gateway 
communities in the Glacier area.
    Mr. Hill. Are the local chambers of commerce prepared to 
put some resources to that effort as well?
    Mr. Unterreiner. Absolutely. All of our meager resources 
might be available.
    Mr. Hill. Any others that would care to comment on these 
series of questions that I have?
    Mr. Brooke. As to your question about, How do businesses 
plan to be closed? I think, you know, it goes back to the 
original question, Have we explored all the alternatives, and 
is that really the only option here? It might be. If it is, I 
can tell you that this business person makes decisions further 
out than 4 years.
    And the other thing that we rely upon when we make the 
decisions is good information. Right now the Park Service, in 
its plan, is talking about a 4- to 6-year closure, 2 to 3 on 
each side. The Federal Highway talks about the need to know--
They have a detailed list of essential requirements that 
agencies must adhere to to meet the estimated time lines and 
costs for these alternatives.
    One of those is the threatened and endangered species 
effect, and the Park Service hasn't dealt with that issue.
    The bottom line is, Is 2 to 3 years on each side realistic 
when you're talking about these essential requirements and 
having to meet those that might affect your time line? So, you 
know, when you go into looking at the possibility of having to 
pull up the bootstraps, you've got to know what you're looking 
at.
    You can't say, Well, it might be 2 years, and it might be 6 
years. You can't say, It might be 80 million, and it might be 
210 million. That doesn't make sense, and I think it points out 
that the Park Service has got to get better information. They 
have to have more focus, and they need to do some of the things 
like you're talking about, engineering studies before they 
select the alternative, not after.
    Mr. Hill. And is your association ready to work with the 
Park Service in addressing the issues you just raised?
    Mr. Brooke. Absolutely. In fact, we wanted to get involved 
in helping to produce another alternative, and we had discussed 
about the notion of approaching Congress for funding to do some 
engineering studies, because we can't come up with the kind of 
funding to do that. The Park Service didn't think that was 
appropriate because they thought it a violation of the Federal 
Advisory Committee Act.
    I disagree with that. I think that we could help come up 
with another alternative. At a minimum we can be involved in 
some kind of advisory panel on this issue.
    Mr. Hill. I want to ask all the panel members to respond to 
this question. You've raised the suggestion, Will, that we 
should have a separate EIS for the Road than the Management 
Plan. Is there some middle ground here?
    One of the arguments against that is that we'll have two 
full-blown EIS's substantially addressing some overlapping 
issues, because the General Management Plan for the Park has to 
have included a contemplation of what's going to happen to the 
Road. I don't think you can implement the General Management 
Plan without some conclusion that the Road is going to be 
reconstructed or not.
    The other aspect of that is this, is that--I mean, I agree 
that we ought to consider the issues associated with the Road 
operated separate from the rest of the Management Plan, but I 
don't know that the right conclusion is a separate EIS. One of 
the arguments against that, frankly, is that, if you have a 
separate EIS on the Road, then it puts us back to base one 
again on the conclusions that Mr. Hunt has raised in his 
testimony, and that is, Should we even rebuild the Road at all, 
or should we replace it with some sort of mass transit?
    I would ask you, No. 1, is there some middle ground? I'd 
ask each of you to address that question, whether or not you 
think there should be a separate full EIS, or do you think that 
the decision with regard to proceeding with the Road could be 
handled under a single EIS but managed separately. Would each 
of you respond to that?
    Mr. Brooke. I think it could be done that way, and you're 
right. It probably, in the long-term, makes more sense. I guess 
the way we came about our decision was, we saw there was this 
desire to get moving with the General Management Plan, but they 
came up with this major new section that proposes a major new 
Federal action----
    Mr. Hill. Right.
    Mr. Brooke. [continuing] during the process.
    Mr. Hill. I mean, it has to be addressed in the EIS. We all 
know that.
    Mr. Brooke. Right. We figured, you know, let the General 
Management Plan proceed forward. We'll pull this issue out, 
look at it separately. I tend to think they are intertwined, 
but based on the information and data they now have in the EIS, 
it's woefully inadequate to make any kind of even comment on 
that part of the plan.
    Mr. Hill. But that's the specifics of the alternative?
    Mr. Brooke. Right.
    Mr. Hill. Do you agree that we need to reconstruct the Road 
and maintain the Road?
    Mr. Brooke. Absolutely.
    Mr. Hill. OK. I'd like each of you to respond to that 
series of questions. I don't remember what they were. You do.
    Mr. Hunt. Do we remember? Oh, yeah. Right.
    I can't advocate on behalf of Friends of Glacier that the 
Park should complete a new EIS on the Going-on-the-Sun Road. I 
don't think that would be appropriate because we do not have 
that kind of information from our 700 mailing list yet that 
that would be appropriate, but as officers and directors, we 
have discussed the issue, and we do not have agreement that it 
should be pulled from the plan or left in.
    Personally, I believe that it would be beneficial to remove 
at least some aspects of it from the plan because I do believe 
that, as they study the reconstruction aspect of the Road, they 
also must study what those additives to the Road would mean in 
terms of the impact, that is, the pullouts, the short trails, 
the picnic areas, the scenic oversights, overviews and so 
forth, and I think all of that needs to be put together before 
they say, This is how we're going to do the Road.
    Mr. Hill. I guess the point here being is that, is it 
possible in your mind that, in the Management Plan--I don't 
want to get into a lot of detail about the Management Plan, but 
you're right. Those are important elements of the General 
Management Plan that are also specific to the Road. The 
conclusion could be drawn in the Management Plan and the EIS 
for the Management Plan that we're going to reconstruct the 
Road and that the reconstructed Road would have those features 
but that we have a parallel track with regard to how we go 
about accomplishing the reconstruction of the Road without 
necessarily requiring a separate full EIS.
    Whether they build it short-term or long-term, they're 
still going to have to find out where they locate gravel pits 
and where they're going to try to locate hot plants and how 
they're going to accomplish the staging, the scheduling of the 
work and how it's going to impact endangered species. That's 
all going to have to be considered, but it would be nice to get 
the conclusion behind us that the right decision is to rebuild 
the Road and to rebuild the Road with the features you just 
described. Would you agree with that?
    Mr. Hunt. Yes, I would agree with that, and I think that 
our members would agree with that too, that they can adopt the 
plan in terms--with those conditions within the plan and by 
fleshing out aspects of the plan which would show how they're 
going to take care of all of those issues, and among the 
endangered species that might be there are those local business 
people, not just in this country, but in Canada we have heard 
reports from the members of the Waterton/Glacier Visitors' 
Association in Canada what kind of an impact it would have. If 
the people don't come to Glacier, how many of them are not 
going to come to Waterton?
    We have to remember, this is the Waterton/Glacier 
International Peace Park, so it's not two things. It's one 
thing.
    How many people would go to Calgary, for instance? I was 
surprised to hear the numbers of people that come to Glacier 
and then say, Oh, let's go to Calgary too.
    So, yes, I would agree that it could be accomplished within 
the framework of the adoption of a plan, but specifically 
indicating you're going to add those elements to it.
    Mr. Hill. Before you pass the microphone, I would just ask 
your group too. Does your group stand ready to participate with 
Glacier National Park officials to try to help advise in trying 
to reach the right conclusion here?
    Mr. Hunt. Our group is ready, as I've indicated, to stand--
to help. We have offered help in the past, and we're willing to 
offer help in the future. Since our primary purpose and our 
goals are re-

lated to access, we feel probably that's the best place for us 
to be used.
    Mr. Hill. And how many members do you have in your group?
    Mr. Hunt. Well, we have 700 people who have been responding 
to questionnaires, and we indicated to them if they responded 
that constituted a membership. There are no dues to belong to 
the Friends of Glacier.
    Mr. Hill. And you stand ready to join with others to help 
educate the public that the Park--we still have a Park even 
though----
    Mr. Hunt. Absolutely. Yeah.
    Mr. Hill. Thank you. Mr. Meznarich, would you care to 
comment?
    Mr. Meznarich. Yes. Thank you. I'll pick up right where 
Richard left off.
    Glacier County, the local development office of Glacier 
County, the local chamber of commerce all would stand ready to 
assist in that process.
    As my testimony stated, we very much need to promote that, 
simply because the Sun Road is closed, portions are closed, 
does not mean the Park is off limits, and I think 
reconstruction is definitely required. We have some serious 
problems there. No, I do not think we need a separate EIS. I 
believe separate management of those issues is appropriate.
    Your earlier question about how a business prepares to be 
closed I think is addressed by the options, and on the east 
side we have the Lewis and Clark Bicentennial option. That's 
something that's very significant. Perhaps the west side is not 
aware of the significance of that prospect.
    We have a member, a resident of Glacier County, who is on 
the Governor's Bicentennial Committee, and he reported to us 
that the United States will spend more money on the Lewis and 
Clark Bicentennial than they spent on the United States 
Bicentennial.
    Those are big dollars, and we're looking forward to having 
that type of an impact, and we're seeing that already six or so 
years prior to the Bicentennial, seeing a great deal more 
interest in those sites, which are in very close proximity to 
Cut Bank.
    Mr. Hill. As you may or may not know, I have formed a Lewis 
and Clark caucus at the House of Representatives for the 
purpose of trying to raise the profile of the Lewis and Clark 
Bicentennial. I would just caution you about the expectation 
that Congress is going to authorize more money for this than 
they did for the nation's Bicentennial, however. I don't know 
that there's anywhere near that kind of consensus.
    We did, of course, move forward with the coin and some 
other things, but we do want to focus the resources of the 
Federal Government on making sure that the recognition of that 
Bicentennial is there.
    Let me ask you this question, though. Presuming--we don't 
know the answer to this question, but if you found that your 
proposed plan had negative impacts on the west side, in other 
words, it may benefit your community, but it worked to the 
disadvantage of the people on the other side, would you still 
strongly advocate it?
    Mr. Meznarich. Glacier County has a long history of 
supporting things that are generally beneficial for the Park, 
and the economic statistics will stand to prove that, that the 
east side is significantly less impacted than the west side. 
The fact that there are communities the size of Kalispell, 
Columbia Falls, with Mayor Hall here being a border community 
to Glacier, is a significant part of that.
    We don't have that in Glacier County. We have small 
spatterings, East Glacier, St. Mary, Browning and then Cut 
Bank, the furthest away from there. Our population base is 
significantly less. The Blackfeet Reservation plays a part in 
that, and perhaps Mr. Running Crane could address that too.
    We don't see the economic impact that the west side does. 
Yet we still fully support that knowing that there might be 
some trickle, we would expect, to benefit Glacier County.
    My proposal to add maintenance to the Looking Glass Road 
would significantly improve opportunities for the west side, 
because those visitors would have a shorter distance to travel 
to get around the lower boundary down to Highway 2 and over to 
the west side during portions of the closure.
    Mr. Hill. Whose responsibility is the Looking Glass Road at 
this point?
    Mr. Meznarich. No one has taken responsibility for that 
road. The National Park Service has, basically, abandoned it, 
then asked, about 2 years ago, for the County and the State and 
the Tribe and various other agencies to step in there and take 
a look at it.
    Mr. Hill. There is no legal responsibility for that road?
    Mr. Meznarich. The research has not indicated any ownership 
obligation.
    Mr. Hill. We have that problem on the Beartooth Highway 
too.
    Has anybody done any engineering analysis, any analysis of 
what it would take to address that road in terms of cost of 
reconstruction or significant maintenance?
    Mr. Meznarich. Significant maintenance has been addressed. 
I couldn't speak specifically about those dollar amounts.
    Mr. Hill. Could you provide that for me for the record, 
whatever you have?
    Mr. Meznarich. Yes, we could.
    Mr. Hill. Could you also take the responsibility to 
determine if the State or the Tribe have done any evaluations 
of that and provide whatever is available in the record and try 
to get it to us?
    Mr. Meznarich. We will provide whatever is available.
    Mr. Hill. Thank you.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. Mr. Hall.
    Mr. Hall. One of your questions was about financial support 
in the advertising aspect and the promotion of things--the 
money loss by the 20-percent decrease to the fund, the bed tax 
fund is going to be significantly lower, and it would be hard-
pressed to come up with finances to help support that.
    One of the reasons, even in my statement that I suggested 
another EIS be done is--It was based kind of on a fear of the 
lack of comprehensive planning in the GMP, and it was a fear 
that maybe that is one issue that wasn't covered. I'm learning 
as we're going here. I'm not in favor of a new EIS. It could 
have a significant hindrance to the project going forward.
    Mr. Hill. But would you agree that maybe there's a middle 
ground here----
    Mr. Hall. Yes.
    Mr. Hill. [continuing] the idea of working with one EIS, 
but trying to have two track here?
    Mr. Hall. Absolutely. Actually, that's the only way I think 
it will work successfully. You know, it should be pulled from 
the GMP partially also because it would give opportunity for 
your suggestion of other engineers having an opportunity to 
look at this project and offer input.
    As I stated in my testimony, at your June meeting there was 
someone there, I believe, from the Federal Department of 
Transportation stating that there is ways to build a wall on 
the Valley floor and transport it to the site.
    So there is alternatives we have not heard anything about, 
so it causes grave concern. We want to hear more. We know there 
is other alternatives.
    Mr. Unterreiner. I think Ms. Jacoby had pointed out that 
really what we have is some concepts about how the road can be 
done. The alternatives haven't been fully engineered, and so I 
think, at this point, they are concepts, and there's a lot more 
work that needs to be done. I kind of view what we have as a 
beginning to refine the alternatives, but probably not as they 
exist kind of final in their current form.
    However, maybe I'm more optimistic than some of the other 
panelists that the concerns that have been expressed here can 
be worked out within the existing document and that there is 
really nothing to be gained by rehashing it all and another 
couple hundred thousand dollar Environmental Impact Statement 
and----
    Mr. Hill. Couple hundred thousand?
    Mr. Unterreiner. Yeah. Or more.
    Mr. Hill. A lot more.
    Mr. Unterreiner. And more time spent on that. I'd like to 
see us work within the existing document.
    Mr. Hill. I'd just make the comment that the preliminary 
estimate of the cost of doing the Environmental Impact 
Statement on the Beartooth Highway, which has some issues 
similar to this, a 30-mile, I think, stretch of highway, 
alpine--I mean, you're all familiar with that--is about $6 
million, just a frightening sum of money, but I'd just point 
out that two EIS's could add dramatically to the cost.
    Mr. Running Crane, would you care to comment on any of 
that?
    Mr. Running Crane. Yes. Being a newly elected council here, 
we have not discussed a separate EIS for the road construction 
at this point in time, but we did have concerns of the 
alternative route, and that would be the Looking Glass Road 
that was discussed here earlier, and, you know, we'd come to 
the conclusion, Who has benefited the most from the Looking 
Glass Road? Nobody wants to claim ownership of the road at this 
point in time, but there is studies of the maintenance of the 
road, and I guess----
    Mr. Hill. Would you provide that for the Committee?
    Mr. Running Crane. I sure will. I will provide the study 
for you on that part there.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. Excuse me. Is it the Tribe's view that Congress 
should address that issue in terms of--in the context of the 
overall Management Plan of the Park or in the context of the 
Going-to-the-Sun Highway?
    Mr. Running Crane. I would say--In my own personal view, I 
should say, yes, the Congress should address this, but that is 
one of the things that is one of our biggest concerns right now 
is the Looking Glass Road, you know, as an alternative route, 
when the closure of the Going-to-the-Sun Road is being 
constructed here, but that is a good, viable road there if we 
can ever get that to operational again and the safety of the 
road at this point in time.
    Mr. Hill. Again, I'm going to--If you'd keep the microphone 
there, I'm going to ask all of you to answer this question, 
too, and then, after this question, I think we'll probably 
break, and I'll give you each an opportunity if you want to add 
anything to the record.
    To what extent are you satisfied or dissatisfied and what 
specific recommendation do you have with respect to that with 
the opportunity you've been given to participate in this 
process today, by that I mean, the structure by which you've 
been allowed to provide advice to the Park Service? Again, I 
want to restrict the comments to the Road, not to the overall 
Management Plan, but are you generally satisfied? Do you think 
that we should try to create some sort of a mechanism or 
formalized mechanism for your participation in this process? 
That's what I'm looking for.
    Mr. Running Crane. As a member of the Blackfeet Tribe and 
the council here, we were pretty much, I guess, looking at the 
economic portion of the construction. Therefore, it would allow 
us as the Blackfeet people to look at opportunities to where we 
could provide services to the Park in there on not only the 
tourism, but also the construction portion of the road, and I 
think that by being here today it gives us that opportunity to 
let you people know what we can provide as a council, as a 
Tribe, and as a people of the Blackfeet Nation to where we 
could benefit economically in there, and by working together 
with the Park Service, I think that we could do a lot of good 
things that would help the tourism and, I guess, would help the 
people in the construction here.
    We look forward to working with the Tribe--I mean, with the 
Park Service in the things that they are doing here, and, you 
know, it gives us a good opportunity to express our views here 
as well. Thank you.
    Mr. Hill. You bet. Thank you for being here. Thank you for 
your valuable input.
    Mr. Unterreiner. We feel like we've had ample opportunity 
to provide input in the past. I think, going forward, we'd like 
to--Particularly on the public education kind of marketing, we 
would like to have some input in that process, particularly in 
the formation of that plan and how that comes together and what 
are the alternatives that are presented to visitors. That's one 
thing we'd like to have input on.
    Additionally, going forward, in the area there seems to be 
kind of a growing consensus, at least among the businesses that 
have responded to us, that the best way to go is to do it in 
the way that has the least impact. Right now that's pointing 
toward this fast-track alternative.
    I think that, in order to even increase the numbers that 
are there on a final selected alternative, there's going to 
have to be a lot of communication on the engineering side. 
Whether that's two separate kind of advisory committees or 
whether that's something more informal, I don't know.
    From my point of view, going forward, on the marketing side 
and on more details on the engineering side and how that 
decision that's ultimately arrived at is--how that decision is 
made, I think it will be important for the business community 
to be kept informed about how that's happening, and if that's 
done, I think that there will be a broad consensus over what 
that alternative is.
    Mr. Hill. Thank you, Joe. Thank you for your input as well.
    Mr. Hall. I felt today has been very constructive, even for 
my own information gathering, and I'm most appreciative of it. 
I'm still not convinced that Alternative A is the best action. 
The people at this table here could and probably should be on a 
citizens' advisory board.
    In the last issue of FCV News magazine, it came out and 
stated that the Federal Highway Administration is mandated to 
involve the public through a citizens' advisory council. 
However, we understand that the National Park Service does not 
favor the formation of a council. I'm hoping that after today 
that maybe something could be done in that effort.
    Mr. Hill. Thank you.
    Mr. Meznarich.
    Mr. Meznarich. I think that's an excellent idea as well, a 
citizens' advisory council. I know I would certainly welcome 
the opportunity to sit on that. I've been generally satisfied 
with the opportunity to present information with regard to the 
highway. It's nice to see a balance here, east side, west side, 
on this panel, and another example of the east side supporting 
the west side in this to the benefit of the overall program is 
the fact that this meeting is on the west side, not on the east 
side. Nonetheless, we're glad you're here.
    Mr. Hill. Well, we only were allowed to schedule one 
location, and so this was it.
    Mr. Hunt. Yes. Thank you.
    As a representative of Friends of Glacier, I was invited to 
participate in the focus meeting on Going-to-the-Sun Road 
earlier, long before the plan was developed, and I was pleased 
with the opportunity to present my thoughts and the thoughts 
that emerged from our group.
    I did not get the feeling in that group, though, that we 
were talking primarily about the reconstruction aspects of the 
road, but we were talking about how those reconstruction 
aspects affected the use, which is the critical issue that I 
believe should be tied more closely to the reconstruction part 
of it.
    So, yes. I'm satisfied that we've had an opportunity to be 
involved. I do believe, along with other panel members here 
today, that a citizens' advisory group would be most useful, 
and there could be many aspects of that going all the way from 
those who have engineering and alpine road construction 
expertise as well as those who might be involved in fostering 
aspects such as the better use of the Looking Glass or Highway 
49, which is one of my favorite views of all of--of looking at 
the Park is to come back through that way, so that we are not, 
I don't believe, emphasizing the other aspects of the Park as 
much as we should in viewing any possibility of closures.
    I believe the Park's plan should include elements that talk 
about all of the--all of the roads that are within the Park's 
boundaries, and that includes the Inside North Fork Road, so 
that it is accessible. There should be--In this educational 
program that's been talked about today, there should be an 
opportunity somehow to get the information to the visitor to 
where these other sites are, where they can go to enjoy and 
experience this wonder of nature. I think that that's where an 
advisory group would be most helpful.
    Now, I know that this is a hearing primarily related to 
Going-to-the-Sun Road, but I do believe that one of the other 
critical issues which has been identified, which is the 
development of the discovery center on the west side, would be 
an important adjunct to helping bring about this information, 
this educational program to the Park, use by the visitor in the 
event that there were any such thing as, the hated word, 
``Closure'' of parts of the Park from one side to the other, 
and if that were in place before the road construction began, 
it would be the perfect opportunity to provide the kind of 
information that would be needed for visitors to really enjoy 
the Park in all of its other aspects and to enjoy the 
relationships that the Park has had with the Blackfeet Tribe, 
with Great Northern Railroad, with the great historic hotels 
that are so important to the Park's character and culture.
    So while I know we're not supposed to talk about all those 
other things, I don't think we can talk about one thing without 
thinking about all of the things. So there's a certain gestalt 
to this plan which needs to be considered, and I believe that a 
discovery center on the west side would be a very valuable help 
in making the reconstruction a more painless process than it is 
going to be otherwise.
    Mr. Hill. That's good input. Thank you. Good idea.
    Mr. Brooke. Well, to beat a dead horse, I'm going to beat 
it some more. Your question was, is there adequate opportunity 
for public involvement?
    On the surface, yes, there's plenty of public meetings, 
public hearings, those kinds of things, but public involvement 
necessarily requires that you have all the information in front 
of you, and that's not there in the EIS. You know, it might be, 
as you say, more efficient and smarter to do some kind of two-
tiered tracking, which I agree with, but we get back to the 
same question of the chicken and the egg.
    I mean, what is the Park Service going to do? We've got 
this timeframe. You know, public comment closes by the end of 
November. The Park Service wants to make a decision in January. 
There's no way you're going to get any kind of intelligent 
information and new data in terms of outside engineering 
between now and then. So you've got to modify a time line 
somewhere along the way here if you keep these tracking 
together.
    Mr. Hill. Obviously, you could--I guess we could talk some 
more about that later, but the question is--and I'd ask all the 
panel members--is there anybody on the panel who disagrees with 
the anticipated outcome that's in the General Management Plan 
with regard to the Road, that is, that the Road will be 
reconstructed and will have the features that we talked about? 
Now, how we get there is another matter, but is there--Do you 
disagree with that as a goal?
    Mr. Brooke. No. I don't disagree with the way you say it, 
and if the plan said that, I probably wouldn't be here today, 
but the plan doesn't say that.
    Mr. Hill. I mean, the plan could say that.
    Mr. Brooke. It could say that. That's right.
    Mr. Hill. You don't have to choose from the alternatives 
that are in the plan now. The Park Service could develop 
another alternative.
    Mr. Brooke. Right. A general alternative.
    Mr. Hill. A general alternative with regard to this and 
complete the EIS and then work on parallel how we're going to 
get there.
    Mr. Brooke. Exactly.
    Mr. Hill. The disagreement seems to be how we're going to 
get there as opposed to where we want to get.
    Mr. Brooke. It's to choose an alternative, from our 
standpoint, that may or may not be the right one, and we want 
to know that when we choose the alternative, whatever that is, 
it's the best guess as everybody can guess as the right one. We 
don't know that.
    Mr. Hill. Sure. I think we all agree with that. What you're 
saying, I think, is that we don't have the kind of detail that 
you think we ought to have and, I think, most people here 
believe to be able to draw a conclusion necessarily about what 
the right track is. There might be a third or fourth or fifth 
track. We don't know that.
    I think the superintendent commented earlier--and I was 
reassured by that--that he's open to other alternatives.
    Mr. Brooke. And I was encouraged by that too, but if you're 
going to say, We're open to other alternatives. What are they? 
You know, we don't have the resources to do that. We don't have 
the expertise. Federal Highways and those kinds of folks do, 
and the burden really has to shift back, and they've got to go 
back and do more homework, in our opinion.
    Mr. Hill. It seems to me maybe Congress needs to give some 
direction with respect to that.
    Mr. Brooke. We would welcome that.
    Mr. Hill. Thank you all for very valuable input. I've 
learned a lot from this panel. I appreciate your all being 
here.
    What we're going to do is take about a 15-minute break. 
During this 15-minute break, those who are here and members of 
the public that want to make public comment about that, I would 
ask that you sign up here with Nancy. Only if you sign up will 
you be permitted to make public comment.
    Again, what I'd like to do is try to get you to confine 
your comments to 2 minutes in a much better fashion than our 
panelists did confining their comments to five, but if you 
could, because, obviously, there could be a large number of 
people that want to make public comment.
    What we'll do from this panel is, we're going to ask the 
superintendent and Ms. Jacoby to come back, and we'll go 
through some more comment and questions with them, and then 
we'll open it up for public comment.
    With that, we'll take about a 15-minute break.
    Thank you very much. It was very informative.
    [Brief recess.]
    Mr. Hill. If we could ask everyone to take their seats and 
if I can ask--We need to get our placards up here again. If I 
could ask our panelists to rejoin us.
    I'll remind our panelists we're still under oath, and I 
thank all of you for staying with us.
    I would just--Dave and Carol, I'd just ask you if you have 
any comments that you want to make in response to the comments 
that our second panelists had about where we're going here, in 
whichever order you prefer.
    Ms. Jacoby. I guess I just have a general comment to offer 
about where we are in the engineering that's been done to date.
    I made the statement earlier that we worked on the concepts 
of what would be--Let me back up. We've identified where the 
needs are on the road as far as the walls, the structural 
condition of the walls and roadway drainage, things like that. 
They've been based on visual inventories, but they're pretty 
detailed and pretty comprehensive for what's out there.
    Then we've looked at what concepts are available being used 
in the industry that could be used in that location to enact 
the repairs, and the source for that information was the DOT's, 
not private industry, per se, but it's still a reflection of 
what's going on.
    We also, as the Federal Highway Administration, and 
specifically Federal Lands, have got extensive experience in 
the alpine area, at least within the continental U.S., because 
of where we work. We work in national forests. We work in 
national parks, and they are the Mt. Rainiers. They are the 
Beartooth Highways. They are the Glaciers. So that's where we 
are.
    A lot of the time lines and the cost estimates that have 
been put in there are based on working in the alpine section. 
They are based on--Or the overriding factor in the scheduling 
and the time required is the staging that will be implemented. 
We have anywhere between an 18-foot and a 22-foot template to 
operate construction equipment, and if it's selected to 
maintain public traffic, that's not a lot of working room.
    So we can do more detailed study. We can include private 
industry to more extent to discuss these things as we move 
forward, but I still see that an overriding input in anybody's 
being able to evaluate what can be done is, we need to know the 
answer to the question, Are we maintaining public traffic, and 
in what fashion are we doing that?
    Mr. Hill. You can understand, though, the issue----
    Ms. Jacoby. Right.
    Mr. Hill. [continuing] that's been raised by the people 
that are going to be directly impacted here, and that is the 
cart and the horse issue again.
    Ms. Jacoby. It is a cart and a horse, and I would say that 
the Federal Highway and the Park Service are committed to 
minimiz-

ing the time that's up there because it's just in everybody's 
best interest to get in and get out of there as fast as we can.
    The Federal Highway does use a lot of innovative 
construction mechanisms, whether it's design build, whether 
it's lane rental, whatever it is. We make time be a factor 
rather than just price. We're doing a lot of stuff in the 
innovative contracting, but, again, that doesn't help you today 
decide what to do. It's stuff that we can implement as we go 
into it.
    Mr. Hill. But I think there's a general perception--You 
know, I spent my career, interestingly, before doing this, in 
the business of bonding construction companies, and I don't 
pretend to have any kind of expertise associated with, you 
know, the complex engineering issues here, but I do have 
considerable experience with what worked and didn't work in the 
administration of contracts and have found that sometimes I 
think you can get more done by--with what you refer to as 
innovative contracting, where you make clear to the 
construction company, who is actively engaged in making 
decisions with regard to design matters, the results you want 
to have.
    Obviously, one of those results is what the road is going 
to look like when it's done, but a significant part of that can 
be, How do you get there? How do you manage traffic? How soon 
do you have to get it done? And those kinds of things. But, 
again, that involves probably making some assumptions early on 
about how you're going to engineer it.
    Ms. Jacoby. Right.
    Mr. Hill. Could you answer--and this is an area I'm unclear 
about. Incidentally, I have here a copy of the needs assessment 
on the walls, and is there some way you could make that, in 
some sort of a summary fashion, available to the public so that 
people--I think there's some view on the part of some that we 
haven't really identified what the problem is, but I think you 
have done a pretty good job of identifying what the problem is, 
specifically to the walls. Is there a way to get that 
information----
    Ms. Jacoby. I can----
    Mr. Mihalic. We can make it----
    Ms. Jacoby. Yeah.
    Mr. Hill. I don't think everybody wants to read this, but 
maybe some summary----
    Ms. Jacoby. There's an executive summary in there, and 
maybe the first step would be to pull that executive summary 
out.
    Mr. Hill. You could have that available to the public, if 
it isn't.
    What portion of the cost of this is in the alpine region in 
your general estimates right now, on the alpine section of the 
road?
    Ms. Jacoby. I'll have to look to the back.
    Do we know that, guys?
    I may have to get that information from--They're broken 
down by walls, but I don't know if it's specifically to 
alpine----
    Mr. Hill. The reason I ask the question is, obviously, one 
of the alternatives is you could use one alternative in the 
alpine areas and a different way of staging the work in the 
other areas.
    Ms. Jacoby. OK. For the fast-track, Alternative A, in the 
GMP, the alpine section is almost $34 million, and the lower 
section of the road is approaching $40 million. So it's almost 
half and half, but not quite.
    Mr. Hill. That's significant. I mean, you could use a fast-
track mechanism in the alpine area and not use that alternative 
in the lower area of maintaining traffic?
    Mr. Mihalic. That's just the walls.
    Mr. Hill. That's just the walls?
    Mr. Mihalic. Yes, sir.
    Ms. Jacoby. No. It's retaining walls, guard walls, 
drainage.
    Mr. Hill. I'd just point out that--I think one of the 
concerns that folks are having that's been expressed here is 
the sense that we're faced with two alternatives when, in fact, 
there could be dozens of alternatives out there, or at least 
maybe several others, that we haven't examined because we 
haven't done the engineering yet.
    Ms. Jacoby. And I would say--Well, I look at that question 
at two levels. Is there another alternative that's out there on 
how to handle the traffic? I don't know that there is, because 
either you're going to maintain traffic, or you're not going to 
maintain traffic, or you're going to phase it some way.
    Alternative A in my mind is kind of a combination of, 
you're not going to maintain traffic on certain pieces, so you 
can expedite construction there, but you're going to maintain 
tourism access to Logan Pass and work that way.
    The more detailed answer that there's been a lot of 
questions on is whether there's other engineering methods to 
reconstruct the walls or to reconstruct the roadbed or to meet 
all these structural needs that the roadway section has, and we 
have not precluded or written any final statement on what the 
engineering method is going to be for any one of those 
reconstruction pieces. What we have looked at is what we think 
are reasonable methods within the industry right now to come up 
with the timeframes and to help define what it might mean to 
the public, but we have not precluded the consideration of 
anything.
    Mr. Hill. The section of road--Part of what drew us to the 
conclusion we are at now is the sense that the experience in 
1995 was so unsatisfactory that we had to come up with 
something different. Is that a fair characterization?
    Ms. Jacoby. I would say that's true.
    Mr. Hill. What portion of that work that we did on that 
occasion involved reconstruction of the retaining walls? Was 
there a lot of retaining wall construction in that section of 
road?
    Mr. Mihalic. I think it was--I think actually retaining 
wall reconstruction on that was very little. The folks behind 
us might know.
    Guard wall. Yeah. It was all guard wall. There was no 
retaining wall, which would be, actually, below the road 
surface, and the guard wall was 5 percent, 10 percent at the 
very most, I would think.
    Voice. To correct you, Dave, we did have the Triple Arches 
section.
    Mr. Mihalic. That's right. There was a section that was 
removed from that Oberland Bend section at Triple Arches. That 
would be an example of the problem that faces us, because with 
that we had to close it for 5 days--I think it was 5 days, and 
we actually exposed about a 100 feet long by 40 feet deep 
section of road, and the only way to do that was literally to 
close----
    Mr. Hill. You don't dare put people over there if you don't 
think the road is secure.
    Mr. Mihalic. No. But on the other hand, during that 
particular time, we had traffic up to Logan Pass and up to as 
far on both sides of that particular section as we could, and 
we did that in the fall, but that was very instructive of what 
we were going to face on all these other walls that are of a 
similar nature.
    Ms. Jacoby. If I could add a comment to that, I don't have 
the information sitting right here, but in doing the work we've 
done to date with the National Park Service, we've gone through 
the different elements of the road reconstruction work, and we 
have made estimates of how many work days would be required for 
all those different elements, based on our knowledge. That's 
how we built the timeframes for the Park Service.
    What we could do is we can provide that summary--I've got 
some of it on this sheet, but I could provide that in a summary 
statement, because, again, we can focus on the walls, but even 
just glancing down this list, I might say that, easily, there 
is 80 days required for some wall work, but there's 24 days of 
pavement construction.
    I know if we look at the time line that we developed for 
the Alternative B where we maintain one lane of road at all 
times, there's 4 to 5 years of construction time in that 
scenario just for paving of the road because we physically 
can't accommodate traffic and have trucks hauling asphalt and 
operate paving equipment. That's a huge chunk of time, because 
the only time we can pave is in the month of September and into 
October.
    Mr. Hill. But you can pave at night. I have a lot of 
experience in the Washington area. They do all their paving at 
night on all the roads around there.
    Ms. Jacoby. And I came from the Washington area, so I'm 
very versed at what we do there, but it's also a working 
statement of whether we're hanging on the side of a mountain 
versus whether we're working on a four-lane parkway at a 55-
mile-an-hour design.
    You get a different quality of work if you do it at night, 
and the bottom line, again, is staging when you're working on 
the side of a mountain. What can you do?
    Mr. Hill. I understand that, although you wouldn't have to 
do paving simultaneous with the building of the wall.
    I guess the point I'd just--Let's see if there's some 
things we can agree on that folks can feel some satisfaction 
with. Would both of you agree it would be valuable--and the 
next question is, Is it necessary for Congress to do this?--If 
we get some outside input here, that we go outside the confines 
of where we are now and try to get some advice from other areas 
that may have some experience with this?
    Ms. Jacoby. We could include that. If we could have, like, 
a day workshop or whatever, we can structure something to 
involve outside industry.
    Mr. Hill. I'm not thinking of a day. I'm actually thinking 
of actually spending some resources to examine whether or not 
there are alternatives here.
    Ms. Jacoby. We can do that. I mean, originally, when you 
said ``A day,'' we were going to do a show-me tour for private 
industry to come in and look at the facility and share 
information we had, and then they could come back and provide 
input to us. So, you know, I have to defer to Dave as far as 
how that would be structured within the Park Service planning 
process because right now it is a Park Service planning 
process.
    Mr. Mihalic. Mr. Chairman, I think that, actually, what 
you're speaking about now is at the cause of a lot of 
frustration amongst the public. We could do that if we had an 
authorized road and a repair program for that road. That would, 
obviously, be the first step would be to get that information, 
and going out to somebody else other than our partners would 
certainly be a way to do it. In fact, I think, rather than 
looking at what they've done in the past as limiting to the 
question is really an indication of what Federal Highways has 
tried to do even to this point, and I can't help but think that 
they would want to get the best solution during the design 
stage.
    I think that the General Management Plan document tries to 
set all this stuff up to accomplish this. We say that we want 
an alternative that is the best alternative, and that's what 
we're trying to do.
    One of the earlier witnesses commented that this--that 
there were ways to accomplish this that were--like were done in 
an earthquake or somewhere else, and, quite honestly, what 
we're trying to do in this regard is figure out, How can we 
solve this without having to have the natural disaster to put 
the resources to it?
    We got to this point through this piecemeal approach of 
only having a couple of million dollars a year to look at all 
of this, and every time we would look at one aspect of the Sun 
Road, we would see all these other problems, and so having a 
comprehensive study from whatever source, whether it's from 
within government or from without, to arrive at the best 
solution I think would go well to allaying our own frustration, 
and, certainly, if that were to happen, I think the public's 
frustration would be met as well.
    One of the things that I'm really----
    Mr. Hill. Can I interrupt you 1 minute?
    Mr. Mihalic. Certainly. Please.
    Mr. Hill. Rather than necessarily saying that we authorize 
the road, we could seek Congressional authorization for the 
study. Obviously, that anticipates the fact we're going to 
build a road, but I don't want to withhold moving forward with 
the engineering study until I get Congress to approve $100 
million authorization for the road. I mean, it would be easier 
for me to get authorization to proceed with the study in 
anticipation that we're going to improve the road, you 
understand, for obvious reasons. So do we kind of have an 
agreement that that would be a good thing to do?
    Mr. Mihalic. Absolutely. In fact, I think that's, in 
essence, what the General Management Plan is attempting to do 
is to get the broad public support necessary to go forward with 
a road reconstruction program. I think what we heard, at least 
what I think we've heard this morning, is that there are a lot 
of questions, and rightfully so, by a lot of different folks on 
just how we would do that and what the impacts of that would 
be.
    And, unfortunately, the way our system is set up, we can't 
get into the how we would do that and what the impacts would be 
to the depth that everybody would be comfortable in until we 
can have that broad direction on what we're going to do.
    Mr. Hill. OK. So be more specific, then. I'm big on action 
plans. What do we do from here, and are we in agreement on 
where we want to go from here? Is it possible--I guess I'd ask 
you whether you could support this or you think the Park 
Service could, and if you can't answer it now, I'd like you to 
answer it later. Can we do this two-track approach? I mean, can 
we move forward with the inclusion of the General Management 
Plan, concluding that we're going to reconstruct the road, but 
leaving open the details in terms of how we're going to 
accomplish that? Is that a possible alternative? That's 
possible, now.
    Mr. Mihalic. I'm smiling, Mr. Chairman, only because people 
are going to be thinking you and I have been talking in the 
hallway.
    If we were to finalize the General Management Plan the way 
it is now, it puts the administration in the fact of saying--of 
going forward to the legislative branch and saying, This is 
what we want to do. We want to reconstruct this road. So that's 
the first thing.
    The second thing is that, any implementation plan to 
implement the GMP, which the administration would either have 
to ask for or they'd have to be directed to do to implement the 
GMP, would go to the level of detail we've all been talking 
about here. If, in fact--That's why we have in the GMP, as I 
think it was Mr. Hunt who quoted it, if there's new data, we 
would get a new alternative. Under the policies of the Park 
Service for that General Management Plan, it would be to amend 
it, if amending were necessary.
    We've tried to draft the GMP so that we might not even have 
to amend it, but just to say, OK. We've found a better 
solution. We've found a new and better way to do this. It still 
meets the reconstruction focus of the General Management Plan 
with respect to the road, and that's the way we're going to do 
it, and I think that could be accomplished.
    Mr. Hill. That would be a different alternative, though? It 
would be different than the choice of alternatives that are 
there now?
    Mr. Mihalic. That's correct. Than the choice of 
alternatives that are there now.
    Mr. Hill. I would sure urge you to look at that.
    Mr. Mihalic. And so I think, to be quite honest with you, 
any implementation plan could really fit very well with this 
General Management Plan. The General Management Plan even says, 
if we have to do an additional EIS, we could do that, and it 
specifically mentions the reconstruction of the Sun Road. The 
details of that might require an EIS. So we've even tried to 
build that into the GMP.
    Mr. Hill. In the interim, certainly Congress could 
authorize the engineering study and seek some outside input? I 
mean, that could be a third parallel track?
    Mr. Mihalic. That would actually be a good bridge to the 
two processes because we'll never get to the implementation 
study and the depth of--I think the depth of the questions that 
were posed here this morning or the--certainly some of the 
concerns until it's an approved project. Right now it's not 
even an approved project.
    Mr. Hill. You said earlier, I think, that you don't have 
the authority to go beyond this in terms of the economic 
analysis?
    Mr. Mihalic. Not really, although we did offer some funding 
to--Not very much. Just, I think, $30,000 to the State when 
they were looking at their particular study, but we don't 
really have a lot of wherewithal to do anything except for the 
funding that I think is in the T21 bill for transportation 
planning.
    Mr. Hill. But if Congress was going to do something to 
authorize some engineering analysis, it could simultaneously 
authorize some economic analysis?
    Mr. Mihalic. Absolutely.
    Mr. Hill. Again, my concern here is to focus on the 
mitigation aspects of this. I'm not interested in having to go 
out and compile a whole bunch more data just to have a bunch 
more data. To me the focus should be, first of all, how do we 
link the engineering with the economics? Second, let's put the 
focus on mitigation in terms of the economics. What can we do? 
So those could be a--occur simultaneously is what we're saying?
    Mr. Mihalic. Absolutely. In fact, I think that would be the 
type of thing that could certainly speed the existing process 
as it exists.
    Mr. Hill. Since I have you in such a, Yes, mood, let me ask 
the fourth question, then, and that is, how can we formalize 
the involvement of citizens in this process?
    Mr. Mihalic. You know, we've really tried to get as much 
citizen input as we can, and we've done that throughout this 
process. I think the reflection of citizen input is shown in 
how the plan has developed over the last 3 years. In fact, as 
one of the witnesses mentioned, the plan is open to the public 
right now for public comment, and if the Committee wants, we 
can include this hearing into that formal process, and we would 
continue to do that.
    I think one of the witnesses mentioned that we had focus 
groups. We've had open houses. We'll have public hearings this 
month and next month on this plan, on all different aspects of 
the plan, and so our concern is that, first of all, any formal 
advisory group might keep some segments of the public out and 
that it would be a needless expenditure of additional funding, 
which we don't have, and might cause us to have to actually 
take a few steps back and not take advantage of all of the 
public input that's gone on before.
    So from what I'm aware of, a formal advisory committee 
wouldn't be something that I don't think we--the National Park 
Service could support, but the fact is that, that's not to mean 
that we wouldn't work with any advisory group that was formed 
in any other way, whether it was done by, you know, the 
chambers of commerce or by the State of Montana, by some 
outside engineering firm who was actually looking for new 
engineering.
    Mr. Hill. It seems to me, Dave, that there are two things 
that concern me as we move forward here. We've spent a lot of 
time talking about the economics here, and to a great extent 
it's because of the concerns about that that we are here, but 
the experience that we just had with the campground and the 
objections that were raised in the environmental community over 
that would seem to me to tell us that we ought to be talking 
about, right now, a way for a little more formalized 
involvement of the conservation community and the business 
community on the environmental and economic aspects of this so 
that we don't get down the road and then end up with a class-
action lawsuit against us from the business community or have 
litigation against us from the conservation community that, you 
know, delays it 10 years. I mean, you know what could happen.
    So I know that the official position of the Park Service at 
this point is, you don't want a citizens' advisory committee, 
and I can understand why, because, really, that should have 
been--If you were going to do it, it would have been formulated 
during the Scobey process before you got to the point you are 
right now with the Draft Management Plan.
    Is there a way that we can focus on these two aspects of 
that, that is, citizens' involvement on the environmental and 
citizens' involvement on the economic mitigation? That's the 
part that I'm concerned about. How are we going to mitigate the 
environmental impacts? How are we going to mitigate the 
economic impacts? To what degree can we get the interested 
communities involved in those two things in a formalized way?
    The reason for that is, it, obviously, causes you to have 
to listen to them, and it gives them some standing both with 
you and with the community that their opinions matter. As you 
know, the public comment process, you know, is not a public 
opinion process. You don't make the decision on the basis of 
the weight of the public opinion. It may influence you, but 
it--I'd like to see a more formalized--I'm not going to pin you 
down anymore.
    Mr. Mihalic. Obviously, Mr. Chairman, we would work with 
any group that were formed, whether it was informal or formal. 
One thing we might be able to do, obviously, if Congress 
directed us to do so in terms of having, you know, more 
formalized public input to consider during any kind of planning 
process or as we do the implementation plans would be to simply 
have open public forums or have open public meetings.
    As you know, and just for the folks so that they'll 
understand, the National Park Service concern is having a 
limited group of named individuals to a specific committee 
which then become powerful in their own right, and that doesn't 
consider the opinions or the weight of comment from the general 
public and from all those other people who might not actually 
have a seat at that table, which is our only concern, I think, 
to be quite honest with you.
    If there is a way for us to do that in some sort of 
semiformal or less formal manner, I think that that's what we'd 
prefer. Obviously, if we're directed to do it in a more formal 
way, I'm sure we would be very responsive.
    Mr. Hill. Keep in mind, when you're talking about 
mitigation, you're pretty focused in terms of what you're 
trying to do.
    Just to put that in perspective, one of the issues that you 
heard commented here is comments about the road being closed, 
and we've had conversation before about how sensitive the 
public is to comments that the road is closed. The Park is 
closed. If there's going to be an effort--It would be my 
thought that, if there's going to be an effort to try to 
mitigate this, it will take a cooperative effort on the part of 
the communities and the chambers of commerce and the State of 
Montana and a whole host of different people talking about, How 
do you communicate to the public in a way that encourages 
people to still come and see the Park? How do you accom-

modate that within the Park itself and concessionaires within 
the Park?
    I mean, all of that could work to mitigate the impacts of 
this that has nothing to do with the construction.
    Mr. Mihalic. Absolutely. That's, again, one reason why we'd 
hate to see the whole General Management Plan held up just by 
this one thing.
    Mr. Hill. I agree.
    Mr. Mihalic. Someone mentioned a visitor center on the west 
side. That could go to a great extent to help with respect to 
things in the off-season, the issues of the hotels and the 
concessionaires. Until we're able to get a building physically 
able to be used in other than the summer, whether that means 
winterizing or not, we're not going to be able to use it in 
those off seasons until we have the infrastructure and the 
septic systems or sewage systems or water systems winterized in 
such a manner that we can use those in other than just the 
summertime.
    So there are a lot of things that I think we could do and 
we'd be very willing to do. As I said earlier, I think that, if 
we work together to figure out how best to do this, we are very 
ready to work with everybody involved to do that. Right now 
it's really the system that prevents us from really tackling 
this head-on because it's not part of an approved and funded 
project, and if it's not an approved and funded project, it's 
very difficult for me to take funds that Congress has directed 
to me to expend elsewhere and apply them to an unauthorized 
project.
    Mr. Hill. Although you have a lot of flexibility with those 
fee increases and focus those moneys in a variety of different 
ways.
    Mr. Mihalic. If--Yes, we do, but only due to the leadership 
of Chairman Hanson and your Committee.
    Mr. Hill. Thank you very much.
    Ms. Jacoby, do you have any other comments about any of 
this?
    Ms. Jacoby. Just a general statement that we're willing to 
work with the Park Service. We've done a lot of projects, and I 
can't say I've been involved in any projects that really had a 
formal citizens' advisory committee, but I've been involved in 
a lot of projects that had open communication with the public 
as we worked through final design, and we had a lot of good 
information, and we were able to plan when we were going to go 
to contract and make decisions enough in advance so that the 
local business community could prepare to the extent they 
could.
    Mr. Hill. OK. Thank you, both. Any other comments you want 
to make?
    Mr. Mihalic. I might--If I could take just a moment and 
speak to the Highway 49 issue, if you'd like, there's actually 
quite a public record on that, and with all due respect to the 
commissioner from Glacier County, it is Montana Highway 49. It 
was not constructed by the National Park Service. It was 
constructed by the Great Northern Railway. It's been an orphan 
road very much like the Beartooth in a sense.
    Mr. Hill. Is it still an orphan road?
    Mr. Mihalic. It is a State of Montana highway. The Park 
Service maintained it because no one else would, up until the 
1940's, when our lawyers told us we had no authority to expend 
Federal funds, and we worked out an agreement over time with 
the State of Montana for them to take it over, which they did.
    It took several decades to actually pass that to the State 
of Montana, and I think that the real solution on Highway 49, 
if it's the National Park Service that's to expend money on 
there, is it has to be an authorized part of the National Park 
System. Right now we simply can't go out and spend that money.
    Mr. Hill. You're not soliciting that designation that 
you're aware of?
    Mr. Mihalic. I don't believe that's within my authority, 
sir.
    Mr. Hill. I know. We addressed that, as you know, with 
Beartooth, which is truly an orphan road.
    Mr. Mihalic. To be quite honest with you, Highway 49 is in 
very similar circumstances in that it's on the reservation. 
It's in Glacier County. It's within the state of Montana, and 
it's near Glacier National Park, but other than the State of 
Montana, there's no real clear direction, and, in fact, I think 
the State of Montana removed it from their list of State 
highways that were eligible for the State aid program. So it 
really is out there in----
    Mr. Hill. Provide us the history, and then we'll look at--
--
    Mr. Mihalic. We could provide you with a lot of that 
history.
    Mr. Hill. Is that part of the solution here? Would 
reconstruction of that road make a difference in terms of----
    Mr. Mihalic. I think it actually would, to be quite honest 
with you, Mr. Chairman, because it would go far for the focus 
on the east side in terms of keeping visitors within this part 
of Montana. I think some of the ideas that the Glacier County 
commissioner testified to with respect to the Lewis and Clark 
Bicentennial--It's been interesting. In public meetings over 
the last few weeks, some folks have suggested that, in fact, 
the best time to reconstruct the Sun Road would be right in the 
middle of the Bicentennial rather than avoiding it, but I think 
that until you start thinking of these sorts of things and 
trying to think outside the box and looking at all these 
different parameters, you don't arrive at those different 
alternatives and those best solutions.
    Mr. Hill. Even if it was determined that that was the 
appropriate thing, there's some pretty serious challenges to 
get there by then?
    Mr. Mihalic. Absolutely.
    Mr. Hill. One last comment I want to just make. I neglected 
this. I was looking at the summary, of the exit survey summary 
by Peccia Engineering for the survey, and this is one of the 
things that kind of alarmed me a little bit, and that is that 
the general assumption with regard to the economic impacts has 
been, I think, that it be about a 20-percent reduction in 
visitorship as a consequence of the reconstruction of the road, 
and yet, if you look at the Peccia study, Question 8, the 
question is, If Logan Pass was closed due to road construction, 
would you still visit the Park?
    These are people that came through the Park. Thirty four 
percent said, No, and almost 4 percent said, Unsure, which is 
about 38 percent. That's a substantial--I mean, if there's $100 
million impact with 20 percent, it's going to be a lot more 
than $100 million impact if it's 40 percent.
    That was one of the concerns I have. Even aside from that, 
even aside from that, I have a real serious question of whether 
or not surveying 1,000 people exiting the Park is any sort of 
scientific basis from which to draw that kind of a conclusion 
anyway.
    The real question is that, somebody sitting in Bismarck, 
North Dakota contemplating where they're going to spend their 
vacation and they find out that the road is going to be closed, 
would they still come? I don't know the answer to that, and I 
don't think this gives us the answer to that.
    So if this underlying assumption upon which all the 
analysis is based is wrong, then, you know, we don't know.
    There's another side of this, and that is, the construction 
is going to bring in employment, and people are going to have 
to have temporary housing and eat meals. There's that aspect of 
all this as well that could have an offsetting impact.
    I don't know what all that is, and I don't know to what 
degree it's your responsibility to do that, but I think it is 
part of--ought to be part of the final decision as to just what 
those impacts are going to be.
    Mr. Mihalic. I agree with you, and, actually, it's the very 
next question which says, Question 9, that, If there was 
roadwork and you could still get to Logan Pass--that's where 
the 80-percent figure comes from--would you come? Those two 
questions had great impact in why we structured some of the 
staging that Ms. Jacoby spoke about, part of the road on one 
side having construction, part of the road on the other side 
having construction, but always maintaining traffic to Logan 
Pass, particularly because of those two questions.
    So I agree with you very much that these studies have 
tremendous impact, and it behooves us to ensure that they're as 
accurate as possible.
    At a chamber of commerce luncheon the other day, Dr. 
Nickerson from the State of Montana--University of Montana 
Tourism Institute was asked the question about how confident 
was she in just surveying 1,000 people, and she seemed to feel 
that you could survey 10,000 people, and it really wouldn't 
change it all that much.
    I think the biggest thing is, if we're going to put as much 
concert or--as much into questions such as those two questions, 
it behooves us to have the best data we can, and if that--If 
the questions are so important that we should go do it again 
with further study as we go into the implementation phase, I'd 
say that that's exactly what we should do.
    Mr. Hill. My current profession does cause us to have an 
interest in polls sometimes, and I would just comment that, you 
know, her statement is both accurate and inaccurate. If you 
were to poll 10,000 people in the same circumstance, you'd 
probably get a similar result as polling 1,000. The question 
is, Did you poll the right people in the right circumstance?
    Mr. Mihalic. That's true.
    Mr. Hill. Since we're referring to additional questions, 
then I'll refer you to Question 10, which says, If road 
construction prevented direct access to Logan Pass, would you 
take a 2-hour detour around the southern boundary of the Park 
to visit the other side of the Park? Thirty six percent said, 
No, and almost 5 percent said, Not sure.
    Mr. Mihalic. That's correct.
    Mr. Hill. About 60 percent of the people who were surveyed 
exited on the west side of the Park. I don't know where they 
entered, but I guess the concern that I would have is that, all 
those point to a likely, more substantial impact than the 
impact that was used for the assumptions, and I don't know 
whether it's good or not good.
    Mr. Mihalic. No.
    Mr. Hill. That's why I just think we need to spend more 
time on it.
    Mr. Mihalic. I agree.
    Mr. Hill. With that, I want to thank you very, very much. 
Going to open this up for some public comment. I think we have 
seven people. I urge you to stay and listen to the other 
comments. Thank you very much. This has been a valuable 
meeting. Thank you.
    Mr. Mihalic. Thank you, Mr. Chairman.
    Mr. Hill. We have a microphone back here for people who 
want to make public comment. Our first person is George Darrow 
from Bigfork.
    George, again, I would urge you, if at all possible, to try 
to confine your comments to about 2 minutes. If you want to 
enter written comments to the record now or later, the record 
will be open for 10 days.
    Mr. Darrow. Thank you, Mr. Chairman.
    Mr. Hill. And we're going to use the lights. The green 
light is you can speak, and when it goes to yellow, you've got 
30 seconds left, and when it goes to red, you're supposed to be 
done, but you can tell nobody else is paying any attention to 
that. Go ahead.

                   STATEMENT OF GEORGE DARROW

    Mr. Darrow. Thank you, Mr. Chairman.
    My name is George Darrow. I'm a businessman in Bigfork, 
which is some 45 minutes to an hour away from the west entrance 
of Glacier Park, and I'm conversant with the tourism business 
in the area, and I understand that Glacier Park is the core 
magnet for visitation in northwest Montana and that the Going-
to-the-Sun Highway is the very heart of that, but, certainly, 
it isn't the only attraction that is here to enhance vacation 
experiences for visitors.
    I want to applaud your efforts in championing this effort 
to bring it to the attention of your colleagues in Congress and 
to focus public attention on it generally, but Glacier is 
actually the core attraction of a very large reaction complex 
that straddles the Continental Divide and runs from northern 
Montana up into Alberta.
    And among the opportunities for mitigating construction 
going beyond the corridor, a couple have already been 
mentioned. One would be the visitor center at the Apgar 
junction there, and that would certainly offer an opportunity 
that would be comparable to the St. Mary visitor's center for 
people approaching from the west.
    The other option is to call attention to the attractions 
that are available on U.S. 2, and rather than calling it a 
detour, it is a scenic highway. It is not available to the 
management of Glacier Park, but it is an option if Congress 
could somehow bring about the co-

ordinated effort between the Forest Service and the Park. That 
highway has--if it were anyplace else than northwest Montana, 
would be a national scenic Parkway, and it has history of Lewis 
and Clark. It has the history of the discovery of Marias Pass. 
It has the history of the construction of the Great Northern 
Railroad. It is, also, the Theodore Roosevelt Memorial Highway.
    The road itself has ample turnouts. If it had some 
interpretation, if it had some marketing, if it had the 
approval of Congress, the authorization for cooperation between 
the Park and the Forest Service, I think that could go a long 
way to maintain the visitor experience in this area and help to 
mitigate the problems that we're concerned with.
    Thank you.
    Mr. Hill. Thank you very much, George.
    Is it Rahn Armbruster? Is Rahn correct?
    Mr. Armbruster. Rahn is correct.

                  STATEMENT OF RAHN ARMBRUSTER

    Mr. Armbruster. My name is Rahn Armbruster. I'm a 
conceptual designer, and I reside in Cut Bank, Montana.
    I come here today to ask that a different route be 
considered as a solution to the reconstruction of Going-to-the-
Sun Highway. The reason why I ask this request is from 
observations which I have made.
    At a meeting hosted by Glacier Park, Incorporated, a Park 
administrator explained the National Park Service's 
responsibility concerning Going-to-the-Sun Highway is to 
preserve the experience. He further explained that each of us 
has the right to the same experience that our parents had and 
that our grandparents had as well. He also shared his 
frustration in the process of bringing necessary change to the 
Park.
    Can I ask what the foundation is that has provided the 
criteria for the design of the reconstruction of the Going-to-
the-Sun Highway? Is it preservation guided by tradition? Can I 
ask you what affect preservation has on an environment that is 
under constant change, constant evolution? And what role have 
we taken in preserving the very namesake of this Park? Perhaps 
preservation is not our purpose.
    Have we confused preservation with protection? And what 
affect does tradition have on the nature of the Park? How does 
a traditional boundary between two countries who have never 
been at war affect this Park? Would criteria from the very 
source of why this Park was created provide true guidance for 
this highway's reconstruction?
    I believe that in returning to its origin we will find the 
common thread which has brought us here together today, and in 
returning to the origin of the National Park System, I believe 
we will return to the very origin of our nation, not its 
Constitution, but its Declaration of Independence.
    Is observation of nature the cohesive simplicity that is 
the common ground that connects all peoples of that nation? And 
through following their hearts and giving themselves what they 
truly needed, our forefathers gave themselves the freedom 
necessary for their own evolution.
    Does observation of nature lie at the very heart of why 
this road was originally constructed? Would observation of 
nature guided by the heart provide truer criteria for the 
reconstruction of this highway? Through allowing our heart to 
guide us, will the need for protecting this Park and its 
inhabitants diminish with time?
    To the east of Glacier Park lies the sculpture studio of 
Bob Scriver, and through observation you will note the 
evolution of his work over time, his early works being that of 
taxidermy, evolving as Bob followed his heart to sculpture, 
where he captures the beauty and spirit of the animal without 
destroying it.
    I believe something very special occurs when we allow 
ourselves to be guided by our heart. We open our minds, 
possibilities which are firmly rooted in love and understanding 
and respect, and love never makes anything less or leaves 
anything the same. Love always makes more through its actions.
    I believe it is our mind which allows us to see only the 
probabilities, and what difference would there be in the 
reconstruction of this highway if observation of nature guided 
by the heart were the criteria for its design? Would our heart 
illuminate possible solutions for its reconstruction that our 
mind cannot see, that would allow for continual flow of 
observers over this mountain, giving us something we truly 
need?
    Can the heart guide us to a solution that would truly 
reflect the beauty of Glacier, of nature itself and the beauty 
of us as humans? Can our heart guide us to the design that 
would allow a mountain to be a mountain where she needs to be, 
and isn't this what our National Park System is all about, 
allowing nature to be itself?
    Could a road be designed so that it, too, reflects who we 
are as humans? Through observation of our nature, are we not 
both a physical being and a spiritual being? And is our 
spirituality somehow connected to the depths of our 
observations?
    Mr. Hill. Mr. Armbruster, could you conclude this? 
Certainly, we'll take that for the full record, but we've got 
about three times the allowed limit, and everyone will want to 
do that.
    Mr. Armbruster. Should I quit now?
    Mr. Hill. If you want to just----
    Mr. Armbruster. I've got a couple paragraphs left.
    Mr. Hill. All right. Go ahead.
    Mr. Armbruster. And what could be learned through the depth 
and observation of nature of such a road? If we could see the 
beauty in a road which allows a mountain to be a mountain, 
could a nation also see the beauty in allowing its peoples the 
freedom to be human? Could a nation also see the beauty and 
returning to its source for guidance into the future?
    What risk do we take in returning to our origin to seek 
guidance for our future? Do we fear that we won't find truth in 
our very foundation?
    I believe that when we allow an open mind to guide us back 
to our source we will make the return without judgment, and in 
doing so we will see the beauty and love of which our 
foundation is made. We will find our heart. We will discover 
the cohesive simplicity which connects us all together on 
earth, and somehow, when we return to our heart, our origin 
with an open mind, something very wonderful happens. We open a 
door, and as the lyric in the love scene from the motion 
picture Titanic states, Once more we open the door, and the 
heart goes on.
    Thank you for your time.
    Mr. Hill. Thank you. Thank you for being here.
    Roscoe Black. I urge you to try to stay close to 2 minutes, 
please.

                   STATEMENT OF ROSCOE BLACK

    Mr. Black. You mean I just can't carry on and carry on?
    I'm Roscoe Black, owner of St. Mary Lodge on the east 
entrance to Glacier National Park where Going-to-the-Sun 
Highway meets Highway 89. Of course, we're going to be one of 
the most heavily impacted businesses if and when this 
reconstruction of Going-to-the-Sun Highway occurs.
    Mr. Chairman, I would like to thank you very much for 
taking the lead in this important issue, and most of the items 
that I was going to talk about have been thrashed and 
rethrashed and brought to the forefront.
    I think that, from my personal aspect, basically, what I 
was looking for from this meeting was to have the aspect on 
reconstruction of Going-to-the-Sun Highway be a broad brush 
statement saying, Reconstruction of Going-to-the-Sun Highway 
will occur within this Management Plan, but the specifics on 
how it is to be done and where and how the funding, et cetera, 
will happen will come after additional studies have been done, 
and I think that Mr. Mihalic virtually agreed that that's the 
direction that we're going to be heading, kind of a double 
track here, and that we are not going to be confined to the 
time line of the Management Plan to make a decision on whether 
or not we're going to close this thing for 6 years or we're 
going to have continuous traffic or what are going to be the 
eventual determinations.
    If we can take that out of the time line, I think a great 
number of the people who are very concerned about this issue 
can breathe a lot easier, because we're not going to have to, 
within a 90-day period, determine the longevity of our 
businesses.
    Mr. Hill. Thank you very much, Mr. Black. I think that 
that's what we have agreement on or at least are moving toward.
    Our next spokesman will be Bob Retz.

                     STATEMENT OF BOB RETZ

    Mr. Retz. Thank you, Congressman Hill.
    My name is Bob Retz, and my wife and I own the North Forty 
Resort in Whitefish, and I'm also in the securities business 
and have been for most of my working life. I'd like to say, 
since this problem with the road closure surfaced 6 months ago 
or whatever--it's been close to the recent volatility of the 
stock market--I feel like I'm on the endangered species list 
that we've been talking about here all afternoon.
    I'd like to make a few brief comments about the perspective 
of a small businessman running a resort in Whitefish. For those 
that don't know, we have 22 log cabins, and I would say 70 
percent of our business comes during June, July, August and 
September, and by far most of our guests are out-of-state 
guests. Even though, if they stay for a week, they may only go 
up to the Park one of the days and do everything else that the 
Flathead Valley has to offer during the remainder of their 
stay, without question the Park is the draw that brings them 
into the state of Montana. At least, you know, that is our 
experience.
    And already there has been--We have been receiving calls 
where people just hear a bit of information about, you know, Is 
the Park open? I hear it's going to close. Last year, when we 
had a late opening because of the heavy snows, we also received 
a lot of those calls, people that had heard and wanted to 
cancel their reservations.
    I mean, this is a very important problem, and I think the 
analogy of an earthquake is very valid. You know, in this case 
we know the earthquake is perhaps 4 years away, but it's still 
coming, and everybody says, You've got a lot of time to prepare 
for it. You hit the nail on the head. How do you prepare for 
it?
    One of things I've been thinking about since the long bond 
hit 507 this morning of trying to refinance my debt, the 
problem is, How do you go to a financial institution with any 
kind of economic projection that would make them comfortable to 
want to refinance debt when you don't know how to make those 
projections and the future is so uncertain?
    So the thrust of my comment is, what we talked about here 
very briefly earlier, if there's any kind of Federal loan money 
that could be made available to people that could refinance, or 
even some low interest rate, short-term transition money that 
would help people through the 2 or 3 years that their side of 
the Park is going to be closed.
    Thank you.
    Mr. Hill. Thank you very much, Bob.
    Onno Wieringa. Did I pronounce that right?
    Mr. Wieringa. That's pretty good.
    Mr. Hill. Thank you.

                   STATEMENT OF ONNO WIERINGA

    Mr. Wieringa. Thank you, Mr. Chairman.
    Onno Wieringa from Glacier Raft Company in West Glacier, 
Montana.
    This has been a great process. I applaud you for your 
efforts. When I read the EIS, I was confused. I was trying to 
decide what it was trying to do, and Superintendent Mihalic 
this morning said, We've determined that the essence of the 
road is going to remain the same; i.e., there's no tramways. 
We're going to maintain it as a roadway for vehicles, doing 
about what they're doing now.
    I thought that was adequate for what the General Management 
Plan should be trying to do. That's a big deal, to not decide 
that they were going to turn it in to any number of different 
things with it. That's kind of the scope of how a lot of other 
things in the Park--in the plan came across.
    Then, maybe additionally, it should say, And we've 
determined that there's some real problems with the road, and 
it's going to need some major reconstruction and some serious 
maintenance soon, and here is some of the mitigating measures 
that we think need to happen that go along with those, and 
somebody better get busy and start studying how to get that 
done and leave it at about that.
    You know, as Dave--As Will pointed out, it went beyond that 
in deciding when it was going to be closed and for how long 
without having the stuff to back it up.
    I think it's all good. It just went too far for what the 
General Management Plan needed to do.
    Mr. Hill. Thank you. Thank you very much.
    We'll try one more time with a name. Betty Rudisill. She 
had to leave, I guess.
    John--Is it Helton or Melton?
    Mr. Helton. Helton.
    Mr. Hill. Helton. It's hard enough to pronounce them when 
they're printed clearly, John.

                    STATEMENT OF JOHN HELTON

    Mr. Helton. Good afternoon. My name is John Helton. I'm the 
manager of Alpine Homestead outside of Martin City. We have a 
small ranch, and we have four guest cabins that we rent out. 
I21With my position I have the privilege and am lucky to get up 
on the road quite a bit with guests and friends, and I just 
would like to stress that the road is in bad shape. It's 
sloughing off. You can see the asphalt going sideways in 
places. It does need to be closed.
    Having looked at the EIS a little bit and just looking at 
the economics of how it's going to effect the road closures, as 
a corporation, we support the closing of each side of the pass 
or one side and then the other in keeping Logan Pass open. I 
think that would probably have the least amount of impact for 
businesses by having to keep the pass open, but also, as Mayor 
Hall earlier pointed out, there's other roads that do need to 
be improved, the Looking Glass Road and even the road to the 
North Fork. The one border crossing there with Canada is closed 
right now, and that could be reopened as well, even just 
temporarily.
    Again, I think the roadway does need to be fixed up, and 
sooner rather than later. Mother Nature is going to take care 
of the problem for us. There's been talk about lawsuits, the 
idea that, you know, businesses are going to have lawsuits. I 
imagine the lawsuits will be generated by folks that are be 
driving the roadway when the roadway falls off. I would say we 
need get going on this sooner than later.
    Thank you.
    Mr. Hill. Thank you very much.
    [The prepared statement of Mr. Helton may be found at end 
of hearing.]
    That concludes the hearing. I want to, again, thank all the 
panelists for their participation and their involvement. I 
think this has been very constructive for me. I think we're 
leaving here with some action agenda that we need to go to work 
on. I thank the public for its participation, and with that, 
this will close the hearing of the Parks and Public Lands 
Subcommittee of the Resources Committee.
    [Whereupon, the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
  Statement of David Mihalic, Superintendent, Glacier National Park, 
                       Department of the Interior

    Mr. Chairman, members of the Subcommittee, it is my 
pleasure to welcome you to Kalispell, gateway to Glacier 
National Park. Thank you for the opportunity to address the 
subject of maintenance and repairs to the Going-to-the-Sun 
Road. We applaud your interest in seeking ways to maintain the 
values preserved by our national parks, which are so important 
to all Americans and also critical to local communities near 
the parks.
    Glacier National Park covers just over 1 million acres in 
northwestern Montana. Approximately 2 million visitors a year 
come to Glacier, the majority in June through August. 
Conservative economic models indicate that use of Glacier 
National Park generates about $160 million a year to the state 
of Montana and provides some 2,400 jobs.
    A general management plan guides the administration of each 
unit of the National Park System. Glacier's last master plan 
was completed in 1977. A draft general management plan is now 
before the public for review. Our first public ``scoping 
meetings'' were held in the spring of 1995. Since then we have 
had a number of opportunities to listen to the public, those 
both near and far, so we can incorporate their comments into 
our planning.
    One of the most controversial issues is how to rehabilitate 
the world famous Going-to-the-Sun Road. This national landmark 
has been widely recognized as perhaps the most scenic road in 
North America. Its development in the 1920's and 1930's made 
possible experience of the park enjoyed by most visitors since 
then. Previously, the magnificent scenery of Glacier was only 
seen by those who could afford the time and expense of rail 
travel and weeks on horseback.
    Horse-drawn scrapers and steam shovels were used to build 
the Going-to-the-Sun Road. It was carved out of the side of the 
Garden Wall by dynamite, pry bars, and sweat. The route, which 
was chosen by the Director of the National Park Service, had 
only one switchback--the Loop--in order to maximize the scenic 
views from the road. For most people visiting the park, driving 
the road is the focal point of their visit.
    The deterioration of the Sun Road was recognized by the 
Service over a decade ago. With the passage of the Intermodal 
Surface Transportation and Efficiency Act, funds were made 
available to the National Park Service for park road 
construction across the nation. Glacier and the needs of the 
Sun Road competed with other national park needs across the 
country. Work was done by the Federal Highway Administration 
(FHWA) along Lake McDonald and the St. Mary sections beginning 
in 1989. Today we are continuing work on the western side of 
the Continental Divide in the vicinity of Avalanche. The only 
work scheduled in the next few years is on some of the most 
critical repair needs on the retaining walls in the alpine 
section of the Sun Road and a slumping section of the Many 
Glacier Road. These sites are sections of the road where it is 
easier to maintain visitor trafficc during construction, even 
though delays still result. There is no approved program 
allocation beyond the year 2000.
    The Park Service knows that we have to tackle the 
substantial backlog of the critical needs in the high, alpine 
zone of the park road. This zone has a very short working 
season and presents many construction challenges. It is not 
easy--and it is expensive--to rebuild a road so that it will 
remain safe and serviceable in the face of traffic and 
environmental stresses on the highest stretches, especially, of 
this road.
    In 1995 and 1996 we worked on less than a half-mile of road 
in the Logan Pass area. For those who remember, it was a 
nightmare, both for the contractor and the public. Some of the 
delays seemed interminable. We tried many things and learned a 
tremendous amount from that experience. For example, we tried 
night work, lane closures, and scheduling major work in the 
fall--all the steps that quickly come to mind. Mostly we 
learned that working on this high, narrow, carved-from-a-cliff 
national landmark cannot be done without conflicts and impacts 
when the construction season and the visitor season are almost 
one and the same. We learned that actual construction times 
could triple the times in our original schedule. We have had to 
reevaluate how quickly we could rebuild sections of the road 
that we expected to rebuild in two years.
    As a result, the Service and the FHWA put our most 
experienced engineers and transportation planners to work on 
how best to continue to repair the road and minimize the impact 
to visitors. We are using the general management plan process 
to seek public input. We quickly learned three things. First, 
doing the work conventionally with the funding we could 
normally expect from the Park Roads and Parkways Program would 
take decades to complete. Second, being able to maintain traf-

fic flow--which really means insuring visitors to Glacier would 
be able to continue to traverse the park--is a tremendous 
complicating factor. Finally, the costs of different 
alternatives vary radically, from approximately $70 million to 
$210 million.
    We have been very concerned since the beginning about the 
potential for tremendous economic impact. We know that the road 
work might impact the whole state, especially as Montana 
prepares for the Lewis and Clark Bicentennial. We also know 
that are different economic interests at stake, whether one is 
located east of the Divide or in the Flathead, is in a retail 
or service industry, or in a gateway community or visiting 
Glacier.
    The National Park Service arranged for studies of the 
economic impacts on local Glacier dependent businesses and the 
broader travel industry. Those studies indicated that the 
economic pain only gets worse the longer the work drags on. 
Since then, the University of Montana has conducted independent 
studies arriving at similar conclusions.
    To quote our draft general management plan, the National 
Park Service prefers an alternative that preserves the historic 
character of the road, completes the repairs before the road 
fails, minimizes impacts on natural resources, visitors and the 
local economy, and minimizes costs. Based on the best available 
information, Alternative A [fast-track reconstruction of 4-6 
years] ``appears to best satisfy those criteria." (GMP 
Overview, p.49 1998.)
    Mr. Chairman, I wish I could sit before you today and tell 
you we have a plan, and the money to carry it out--to rebuild 
the road without disrupting anything. But I cannot. The 
National Park Service does not have the fiscal resources that 
come anywhere near matching the road needs of our national 
parks. For every tax dollar spent in Glacier on the Going-to-
the-Sun Road there are three dollars of need in other national 
parks that will go unmet.
    For me to be fiscally responsible, I must recommend the 
alternative that best expends our nation's public funds in a 
manner that is in the best interests of all citizens in keeping 
with the National Park Service mission. We have proposed what 
we believe to be the best solution given the parameters and 
knowledge we have to date. Believe me, if there is a better 
solution, I will be the first to embrace it! We do not want to 
see the road closed from the public any more than absolutely 
necessary. But we also do not want to see some catastrophic 
road failure cause a total road closure that could have even 
greater economic consequences.
    I also pledge to you that we see this as an opportunity to 
work closely with the surrounding communities and the state of 
Montana. During the time we are developing detailed design 
plans for the reconstruction, we will work with the communities 
and the state to mitigate as much as possible the effects on 
the local and state economies during the period that the road 
is under construction. In fact, I hope we can use the challenge 
we all face with the road construction to forge the most 
successful cooperation yet among the park, the state and the 
affected communities, to better serve our visitors.
    Mr. Chairman, thank you for your leadership in bringing 
these issues to the forefront. Glacier National Park is one of 
world's treasures. The Going-to-the-Sun Road is perhaps the 
most spectacular roadway in the national park system. Our 
agency's mission is to preserve these treasures for future 
generations and also use them for the benefit of the present. 
We embrace that challenge and realize our obligation to also 
seek solutions that are the best for all and serves our public 
trust. I assure you that is our goal.
    That concludes my formal remarks, Mr. Chairman. I would be 
happy to respond to any questions that you may have.
                                ------                                


  Statement of Carol H. Jacoby, Division Engineer for Western Federal 
        Lands, Highway Division, Federal Highway Administration

    Mr. Chairman and Members of the Subcommittee:
    I am Carol Jacoby, Division Engineer, Western Federal Lands 
Highway Division (WFLHD), Federal Highway Administration 
(FHWA), Vancouver, Washington. I would like to thank you for 
the opportunity to testify before this field hearing on issues 
related to the future maintenance and repair of the Going-to-
the-Sun Road in Glacier National Park, Montana.
    The National Park Service (NPS) is the Federal Agency with 
oversight and management responsibilities for Glacier National 
Park. The NPS is in the process of updating its General 
Management Plan which includes strategies to improve the 
condition of the Going-to-the-Sun Road.
    The WFLHD has been assisting the NPS in assessing roadway 
and transportation needs at Glacier National Park. The FHWA's 
assistance has been at the request of the NPS, and is not an 
independent initiative. This assistance is being provided in 
accordance with the 1983 Interagency Agreement between the NPS 
and FHWA.
    The WFLHD's assistance began in 1984 with a study to 
rehabilitate the Going-to-the-Sun Road. This study identified 
the condition and operational characteristics of the roads in 
Glacier National Park as well as reconstruction and improvement 
alternatives for the continued safe use of these Park roads. 
The WFLHD has updated the findings in the 1984 study and has 
conducted other studies to assist the Park in identifying 
alternatives to expedite rehabilitating the Going-to-the-Sun 
Road which will minimize disruption to the traveling public 
visiting the Park.
    Since the 1980s, improvements have been initiated on this 
historic Park road. The work within Glacier National Park has 
been challenging due to difficult terrain; the importance of 
preserving park values, which impact how and when the 
reconstruction projects occur; and the need to accommodate the 
traveling public while performing work.
    In summary, the WFLHD is committed to assisting the NPS in 
developing and refining alternatives in the General Management 
Plan to expedite rehabilitating Going-to-the-Sun Road and 
simultaneously minimize impacts on the traveling public 
visiting the Park and adjacent edge communities. We appreciate 
the opportunity to provide comments at this important field 
hearing.
                                ------                                


Letter from Hon. Conrad Burns, a Senator in Congress from the State of 
                       Montana to Hon. Rick Hill

                              United States Senate,
                                            Washington, DC,
                                                September 21, 1998.
The Hon. Rick Hill,
1037 Longworth House Office Building
Washington, DC.
Congressman Hill:
    I want to congratulate you for your attention to Glacier National 
Park and the Going-to-the-Sun Road.
    It seems there are few easy answers to the infrastructure needs at 
Glacier. Whatever course we take with the Going-to-the-Sun Road--
whether it be shorter-term action, longer-term action or even 
inaction--it will have great implications for the park and for the 
families and communities that depend upon the park for their survival. 
That's why it is extremely vital that we have all of the information 
and opportunities for public input that we can afford.
    Glacier National Park is truly one of our national treasures. We 
must do everything in our power, in accordance with our stewardship of 
the Park System, to preserve it and also to help provide for the 
demands of continued visitation. In light of this, today's hearing is 
an important one, and you are to be applauded for your efforts.
            Sincerely,
                                         Hon. Conrad Burns,
                                             United States Senator.
                                 ______
                                 
 Statement of Gary D. Hall, Mayor and Owner, Columbia Falls, Park View 
                          Inn Bed & Breakfast
    I begin this five minute disertation by thanking Representative 
Hill for his leadership and concern for this most important event in 
Montana's history. On behalf of small businesses of the Flathead Valley 
we truly thank you. We, as you know are a minority and it is real mce 
to know that we are being considered and given a voice at this most 
crucial time.
    I don't believe that GNP is out to hurt small business but I do 
believe there are some inequities in alternative A, road closures. I 
applaud the efforts put forth by GNP by the reports put forth and the 
willingness to listen to the community So I would ask that you listen 
real carefully today to all that is brought before you.
    The Federal Highway Administration proposed a 15 year 
reconstruction plan with partial closures and several untried measures 
to allow visitor use and GNP did not offer this to us, why. At 
Representative Hill's last meeting in Kalispell a man from the Dept. of 
Transportation told us how rock walls can be built on the vally floor 
and be lifted in place which can save many days and many dollars.
    Another concern is that there has not been a formal engineering 
study on the road and that should be a concern for all of us, we must 
know all the facts before pushing hundreds of businesses to extinction.
    We have made everyone aware that up to this point there is not a 
citizens advisory board in place and we must insist on having that in 
place before we move any further.
    The economic study that was done at the University of Montana was 
good but one of my concerns is the talk of promoting people to come and 
plan their vacation around observing the construction. No matter how 
you look at it or present it, it's a bad deal. I know that if I am 
going to spend an average of $206 per person per day in the park, why 
in the world would I want to spend it doing that. It would be a 
marketing miracle to pull that one off and one we shouldn't risk. 
People who don't own a business, or whose hopes and dreams aren't 
hinging on whether the road closes or not will get their say today, and 
tomorrow, but please, hear our cry and don't shut us out.
    I also believe that the public deserves a full and separate 
enviromental and economic review of the options. Also it seems that we 
may be putting the cart before the horse. We are beginning this process 
without committed funding. Are we going to close the park for 
reconstruction and then try to get the funding, I would sincerely hope 
not.
    There has been talk of the importance of communication and 
marketing. GNP needs to communicate to people now and forever that 
Logan Pass is and will always be open, no matter what the scenario we 
come to. Once again we must take the word closure out of our 
vocabulary, literaly. Also by the information given to the media and 
the press to this point about the road being shut down for 
reconstruction we have had a minimum decline in tourism to the state of 
20 percent. We cannot expect the general public to understand all that 
is going on at this end.
    I also find it disturbing that the road reconstruction plans ended 
up in the general management plan in March. I would ask that it be 
removed. NEPA (National Enviromental Policy Act) demands that any major 
construction of this nature must have its own EIS (Enviromental Impact 
Statement). The construction of Going to the Sun should be removed from 
the General Management Plan.
    No one has mentioned the fact that the accomodations tax that is 
collected will not be there if we lose the anticipated $65 to $125 
million that would be lost if we were to follow through with 
alternative A, 2 year closure on each side.
    In closing I offer these personal views. 1. Do not settle for 
anything being done unless one lane of the road be left open. If a 
tunnel has to be fixed then at that time let tourists know the way to 
access Logan Pass is to go around to the other side but don't advertise 
the C word. 2. Do everything possible to keep the $160 million income 
and 2400 jobs going strong. 3. A suggestion by a local business 
directly effected by the proposal is to extend the Many Glacier Road to 
the North Fork Road, which would create a loop. This would allow repair 
to the road to happen at any time, even emergency closures by 
accidents, rock slides etc. It would also make opportunity for 
campsites off the North Fork Road from Cames Creek to Columbia Falls 
thus taking pressure off the park. 4. Lastly, and I hate to end on this 
note but to let you know how serious local businesses are to being sure 
that they are protected, there is in place $6000 from only 2 businesses 
so far that will be applied to a class action lawsuit if necessary to 
protect our businesses and our futures.
    Again thank you very very much for allowing me to express these 
grave concerns as an elected official along with the views of other 
local business people directly affected by the road closure proposal. 
Respectfully submitted.
                                 ______
                                 
    Statement of Lowell W. Meznarich, Glacier County Commissioner, 
                  representing Glacier County, Montana
    Representative Hansen and honorable members of the Subcommittee.
    My name is Lowell Meznarich and I am an elected commissioner 
representing Glacier County. All of Glacier National Park which is east 
of the continental divide is in my county. Given that fact, all issues 
which affect Glacier National Park are important to Glacier County. My 
fellow commissioners and I have cautiously monitored the discussions 
regarding the future maintenance and repair of the Going-to-the-Sun 
Road in Glacier National Park. Simultaneously, we have questioned our 
local population to obtain their input on the matter at hand. I am 
pleased to have this opportunity to offer our collective thoughts.
    No local issue in the past five years has seen greater scrutiny 
than the options given to repair the Going-to-the-Sun Road. All of the 
options will be harmful to the tourism industry in Northwestern 
Montana. There is a solution however. One of the options coupled with 
several other enhancements has the potential to get the work done 
effectively while also providing a unique opportunity to assist the 
East side of the Park in reducing its tourism loss. I am strongly in 
favor of closing one side of the Road at a time, leaving the other open 
up to the Visitors' Center at Logan Pass and reducing the impact on the 
economy by taking advantage of a upcoming significant event.
    Item Number 1 The closure of the East side of the Road should 
coincide with the observance of the Bicentennial of the Lewis and Clark 
Expedition. The large increase in visitors for the bicentennial will 
help a great deal with the expected reduction in visitors to Glacier 
National Park because of the road work and closure. Planning to have 
these two events at the same time will be a tremendous benefit to 
Glacier County. The years 2004 through 2006 would be ideal for the East 
side closure. This is important since within 25 miles of Cut Bank, the 
Glacier County seat, are two of the most significant sites along the 
Lewis and Clark trail.
    The first, Camp Disappointment is where Meriweather Lewis with 
three of his party discovered that the Missouri River drainage did not 
cover as much territory to the north as originally hoped. The dreary 
overcast day not only added to their disappointment, it also obscured 
the Rocky Mountains which were just to the west.
    Had the day been clear, Lewis would have plainly seen the opening 
to Marias Pass, the lowest elevation pass through the Rocky Mountains. 
Lewis was within easy sight of one of his most significant potential 
discoveries, but he would never know. The possibilities of that missed 
discovery have been romanticized for years.
    The Fight Site is the location of the following days camp. At this 
site, Lewis encountered and camped with a group of Blackfeet Indians. 
The following morning was the only armed conflict of the entire 
expedition. The fight over horses and weapons resulted in the death of 
two of the Blackfeet party and a close call for Lewis who wrote, 
``Being bareheaded at the time, I plainly felt the ball pass over my 
head.'' This encounter took place near the banks of the Two Medicine 
River in an area which historians consider the most primitive and least 
changed in the nearly two hundred years since the explorers journey. 
Use of this site will also provide an additional introduction to the 
Blackfeet Indian culture which is another of the great treasurers of 
our region.
    The residents of Glacier County are quickly learning that the 
upcoming Bicentennial is gaining national and international attention. 
Already, Glacier County residents have taken the first few sparks of 
interest, added their entrepreneurial spirit and developed creative 
business ventures to cash in on the expected rush of adventuresome 
tourists. With the expected increase in visitors to our area, I believe 
we can significantly reduce the negative economic impact of the closure 
of the East side of the Road. A carefully crafted promotion would be 
very beneficial to Glacier County.
    Item Number 2 Regarding the Lewis and Clark trail sites, we need 
assistance to improve access opportunities to the sites themselves. 
Traveling to each site presently requires driving on undeveloped roads 
followed by a walk of up to one mile. The roads are one lane only and 
are often not more than a slightly worn path through the natural grass. 
The walk is over easy terrain, but the path is not clearly visible in 
many areas. Any improvements should maintain the present condition of 
the sites and not detract from the natural state each site presently 
enjoys. As such, many portions of the road and trail will merely need 
simple markings to keep the traveler on the proper path. Other areas 
may need compaction work and/or a light gravel application. Much like 
work in Glacier National Park, any improvements to these sites must 
preserve and protect the area. Little has changed since Lewis appeared 
at these sites. We need to keep it that way since that is precisely why 
these sites appeal to a significant number of Americans. These 
improvements could be accomplished with a very small amount of funding.
    Both sites are located on and accessible only through private land. 
I believe we must immediately pursue public acquisition of the sites 
and access. If that is not possible, in the least we must have 
agreements in place which allow for public maintenance and access when 
appropriate.
    While access is important, the American people in general and the 
local residents in particular will want to also limit access to the 
sites. This is necessary to protect the visitor from hazardous driving 
and walking conditions caused by weather or darkness. It is also 
important in protecting the sites themselves and to protect the road 
and walking trail from damage. It is also important to control the 
number of vehicles and visitors on the road and walking path at any 
time. The areas are generally fragile terrain, so control is absolutely 
necessary.
    Item Number 3 Glacier National Park must do everything in its power 
to trumpet what is available to the visitor and to downplay the Going-
to-the-Sun Road closure. We don't need the headline to scream that the 
Road is closed. Instead, leading up to and during the East side 
closure, national and international promotions should extol the 
uncommon beauty of our many East side areas like Two Medicine, St. 
Marys, Many Glaciers and even Canada's Waterton National Park. 
Promoting jointly with Waterton should become a priority. The 
opportunities to experience the Lewis and Clark sites should also be a 
significant part of this promotion.
    Item Number 4 Get the job done! The recent Logan Pass area 
improvement project is exactly what we don't want. That project took 
too much time, went significantly beyond its expected time line and 
greatly frustrated the Park visitors. The projected time lines for the 
Going-to-the-Sun Road are already dangerously long when considering the 
economic health of the local business people who rely on tourism for 
their livelihood and also for the people who rely on those businesses 
for employment. The construction contracts should place significant 
demands for timely completion including, as appropriate, stiff monetary 
penalties if the work is unduly prolonged.
    Item Number 5 Glacier National Park must accept primary 
responsibility for repair and maintenance of Highway 49 which is known 
as the Looking Glass Road. This road is the north south link between 
East Glacier Park, Two Medicine and St. Marys. The road was originally 
constructed by the National Park Service and for years was maintained 
by them. Since it is outside the park boundary, the Park Service has 
chosen to allow the road to deteriorate. At present, the Looking Glass 
Road is generally open on the same calendar used by Glacier National 
Park. The road is not maintained during the winter. Like Going-to-the-
Sun Road, the Looking Glass offers a unique view of Glacier National 
Park, which is just to the west of the road. The road itself winds 
along the slopes of the mountainous terrain and is extremely popular 
with our local out door enthusiasts. Traveling the Looking Glass Road 
greatly shortens the distance around the southern border of Glacier 
National Park when traveling from St. Marys to West Glacier. It will 
clearly become the route of choice for the visitors who want to see 
both the East and West side of the Park during the road repair 
closures.
    In summary, I support the closure of one side of the road at a time 
with several enhancements: the East side closure occurs within the 
years 2004 to 2006 to coincide with the greatest interest in the Lewis 
and Clark Bicentennial; access and control to the Lewis and Clark sites 
are improved; the Park Service promotes what there is to offer, 
downplaying the road closure; the job gets done in a timely manner; and 
the Park Service maintains the Looking Glass Road. With these five 
easily attainable enhancements, I am confident the Park Service will 
find general support for the road repair project.

                           FOLLOW-UP ADDRESS:
TOPICAL OUTLINE:
    Suggested solution--Close half of the Going-to-the-Sun Road at a 
time and reduce the economic impact through several means.
    1. Time the East side closure with the observance of the Lewis and 
Clark Expedition Bicentennial years 2004 through 2006.
    2. Improve and control access to the Lewis and Clark sites in the 
area.
    3. Promote the Park and the area, including the Lewis and Clark 
sites, and downplay the road closure. Promote jointly with Canada's 
Waterton National Park.
    4. Get the road repair done in a timely manner.
    5. Maintain the Looking Glass Road to provide visitors with better 
access to all areas of the Park.
                                 ______
                                 
Statement of Roger Running Crane, Vice-Chair, Blackfeet Tribal Business 
              Council, Blackfeet Nation, Browning, Montana
    Good morning or good afternoon . . . I bring you greetings from the 
Blackfeet Nation and would like to first of all, thank the Honorable 
Rick Hill who sits on the House Resources Subcommittee on National 
Parks and Lands for scheduling this hearing and allowing us to provide 
testimony for the record.
    My name is Roger Running Crane, Vice-chairman of the Blackfeet 
Tribal Business Council, which is the governing body of the Blackfeet 
Nation.
    Historically, Glacier National Park was part of the original land 
base of the Blackfeet people and was later transferred to the hands of 
the United States Government through a treaty in 1896. We still claim 
treaty rights in the park that include privileges to hunt, fish, and 
gather wood. Presently, our western boundary of the Blackfeet 
Reservation is Glacier National Park. I point this out because it docu-

ments our presence before and after the creation of the park that 
serves as a showcase for the entire world to enjoy its natural beauty.
    With that said, The Blackfeet Nation would simply like to offer 
their human and natural resources in the proposed future maintenance 
and repair of the Going-to-the-Sun Road.
    These resources consist of a qualified work force, unlimited 
amounts of and access to gravel and other road construction materials. 
We have land adjacent for recreational and campground use by the 
tourists who may wish to choose to visit only the east side of Logan 
Pass when the Going-to-the-Sun Road is under construction. Finally, the 
tribe also offers any other resources in assisting the Park Service to 
make the construction phase an experience that we can all benefit from.
    In closing, Congressman Hill, the tribe is sensitive to the 
economic downside of the tourism industry if the road construction is 
to occur. By not being viable participants in that industry for reasons 
that I will not go into, we simply want to maximize the economic 
opportunities for our people who are at the lowest economic rungs of 
the ladder in this country. Any economic stimulus for our people is 
welcomed and I'm sure the surrounding communities in Blackfeet Country 
would agree as well since they too reap the benefits of those dollars. 
Again, thank you for this opportunity and we reserve the right to send 
additffonal documents for the record within the 10-day time period 
after this hearing.
                                 ______
                                 
 Statement of Richard B. Hunt, Vice president, representing Friends of 
                    Glacier, Inc. Kalispell, Montana
    Mr. Chairman, Members of the Committee, Panel Members, and 
interested persons, thank you for this opportunity to appear before you 
today representing Friends of Glacier.
    Friends of Glacier was formed with the purpose of assuring access 
to the Glacier National Park and opposing any plans to diminish access 
during the publication of and hearings on the draft Newsletters in 1997 
which related to the General Management Plan (GMP) for Glacier National 
Park.
    By 1924, Park officials had promoted a goal to ``enable people to 
reach the interior of the Park even if they could not afford the rates 
of the Great Northern Railroad and its chalets.'' In 1925 the Bureau of 
Public Roads began to oversee the building of the Going-to-the-Sun Road 
(GTTSR) which traversed Logan Pass and connected the east and the west 
and gave people the opportunity to reach the interior of the Park. In 
1933 Park officials attained their goal as visitation increased by 44 
percent with the completion of the Road.
    This marvel of engineering and construction, which literally carved 
a road from the sides of mountains, completed 22 miles of the most 
difficult stretch of the proposed road with primitive equipment by 
today's standards. In the current management plan developed by Glacier 
Park planners, the preferred alternative fast-track reconstruction of 
the Road plans on 4 to 6 years to complete, with the most modern 
technology and equipment and working on the base road already present, 
only 8 miles more than that done from 1925 to 1933. Alpine road 
construction techniques of today should be able to do better!
    However, that is only part of the story. Several other shortcomings 
are present in the GMP related to the GTTSR. Two critical issues were 
identified by the Park planners related to the Road: ``Visitor Use on 
the Going-to-the-Sun Road'' and ``Preservation of the Road.''
    (1) In the preferred alternative of the first issue, several 
actions to be taken relate to an expanded transportation system, 
modifying and/or adding pullouts, picnic areas, and short trails 
[although it is interesting to consider adding picnic areas on the 
GTTSR while removing one at the Avalanche Creek Developed Area also on 
the GTTSR]. There is little in the plan which identifies the impact of 
those ``actions'' on the newly completed ``reconstruction.'' In our 
view some linkage should be in the GMP.
    (2) In the preferred alternative of the second issue, several 
criteria were established to develop the ``preferred,'' minimize 
impacts on visitors, and minimize impacts on the local economy. The GMP 
suggests that local business persons would have time to develop the 
mitigation for the impact of closing one side of the Park's GTTSR for 2 
to 3 years, then close the other side for 2 to 3 years; it is the 
Park's criteria yet the GMP says little about how the Park would assist 
in such minimization plan. The GMP also says little about measures to 
be taken to minimize the impact on the visitor. These two areas of the 
General Management Plan are deficient, in our view.
    One of the most disturbing deficiencies in the GMP is also related 
to one other aspect of this ``oversight hearing:'' maintenance. Little 
is said about long term need to maintain the Going-to-the-Sun Road 
after it is reconstructed. This GMP is to provide guidance to the Park 
for 20 or so years; yet preservation of the Road also means 
maintenance, and maintenance deserves a place in the General Management 
Plan.
    Friends of Glacier recognizes and applauds plans to improve access 
by adding pullouts, picnic areas, short trails and emphasis upon a safe 
GTTSR for visitors to appreciate one of the ``premier experiences'' in 
the Park, which is to traverse the Road from east to west and west to 
east. We also recognize and appreciate the plan's efforts to preserve 
the Park and preserve this Park as a traditional western park.
    Friends of Glacier stands ready to participate in finding solutions 
to some of the short comings we see in the GMP. Directors and officers 
of Friends of Glacier attended the meeting held in Kalispell by 
Representative Rick Hill in June 1998. Many ideas were presented 
including the suggestion that more time was needed to examine the data 
and to consider forming an advisory group with alpine road construction 
experts, local business persons, and interested citizens to determine 
the effective, economical methods of construction, time frame and 
strategy with the least impact on local, regional, and international 
economies as well as other activities which would mitigate the effects 
of this necessary and important project.
    Park planners tell us on page 50 of the Draft General Management 
Plan, Environmental Impact Statement that ``The National Park Service 
prefers an alternative that would preserve the historic character and 
significance of the road, complete the needed repairs before the road 
failed, minimize impacts on natural resources, visitors, the local 
economy, and minimize the cost of reconstruction. Based on the best 
available information, alternative A appears to best satisfy (sic) 
those criteria because it is the most fiscally responsible and would 
result in the least impact to the local and state economy over the long 
term. If new data and analyses revealed information that would better 
respond to the criteria, a different alternative would be selected in 
the final plan (emphasis added).'' How would that data and analyses be 
``revealed'' to the Park Planners?
    In summary, Friends of Glacier continues to support the broadest 
possible access to Glacier National Park. We ask that our testimony 
will cause the Park planners and this Committee to seek ways to improve 
the connection between the two critical issues discussed: ``Visitor Use 
on the Going-to-the-Sun Road'' and ``Preservation of the Going-to-the-
Sun Road.'' We are not suggesting specific actions at this time.
    As indicated, Friends of Glacier stands ready to be a part of any 
method for arriving at solutions to those short comings we have 
identified.
    Thank you, Chairman Hansen for the opportunity to present our views 
and questions.

                            CURRICULUM VITAE
                            RICHARD B. HUNT
Employment Background

January 1986
    Retired from the Santa Rosa City Schools, Santa Rosa, California
1966-1986
    Director of Compensatory Education/Consolidated Application [All 
state and Federal education programs except Special Education and 
Vocational Education, Santa Rosa City Schools, Santa Rosa, California]

    [Adjunct Responsibilities]

1980-83
    Chairman, Executive Board, Wine Country Consortium (Napa, Novato, 
Santa Rosa School Districts) for School Plan Review and School Program 
Review Activities

1964-65
    Counselor, Herbert Slater Junior High School (Part time) Grades 7-
9, Santa Rosa City Schools

1964-65
    Chairman, English Department, Herbert Slater Junior High School, 
Santa Rosa City Schools

1965
    Director of Summer Reading Program, Grades 7-12. Santa Rosa City 
Schools, Santa Rosa, California

1955-65
    Teacher of English and Journalism, Grades 7-9, Herbert Slater 
Junior High School, Santa Rosa, California

Education

1951
    Graduated University of San Francisco, B.S. in Arts with Major in 
English, Minor in History and Philosophy

1955
    Awarded General Secondary Credential from San Francisco State for 
Grades 7 through 14

1959
    Earned M.A. in Secondary Education from San Francisco State

1965
    Earned General Pupil Personnel Credential from Sonoma State for 
Grades K through 12

1969
    Earned Standard Supervision Credential for Grades 7 through 14

1981
    Issued Service Credential--Life Authorization, R-54 (General 
Administrative for Grades K through 12)

[N.B. All credentials earned or issued are for the State of California]

Special Skills

Consultant
    National Assessment of Educational Progress, Denver--for Reading
    American Institute for Research, Palo Alto--for Reading

1970-75
    Sonoma County Office of Education--Program Planning
    Marin County Office of Education--Program Planning and Program 
Review

1975-78
    California State Department of Education--Participated in Program 
Review Activities

1985-86
    California State Department of Education--Participated in Program 
Review Activities

1981
    Sonoma State University--Assessed Master Degree Program for Reading

1982
    Western Association of Schools and Colleges--Reviewed Castro Valley 
High School as School Improvement Interface Team Member

1985-86
    California State Department of Education--Served as a Program 
Review Trainer

1998
    Flathead Land Trust--Served as Facilitator at Board Retreat

1998
    Kalispell City-County Planning Board and Zoning Commission--Served 
as Facilitator for Development of Consensus Document for Draft of 
Kalispell City-County Master Plan

Community Activities

1970-73
1982-84
    President, Sonoma County Council for Community Services, Santa 
Rosa, California

1973-76
    Served on Community Relations Commission, Santa Rosa City Council--
one year as Chair

1982-86
    Member Human Services Commission, Planning Subcommittee, Sonoma 
County, California

1987
    Member, Citizens Personnel Committee, District 8, West Glacier 
Board of Trustees, West Glacier, Mt.
    Member, Citizens Building Committee, District 8, West Glacier Board 
of Trustees, West Glacier, Mt.

1989-94
    Director, Glacier Natural History Association

1991-92
    President, Glacier Natural History Association West Glacier, Mt.

1996-Present
    Member, Board of Directors, Flathead Community Concert Association, 
Kalispell, Mt.

1996-Present
    Member, Director, Vice-President, Friends of Glacier, P.O. Box 
5001, Kalispell, Mt 59903-5001

1997
    Member, Going-to-the-Sun Road Focus Group

Military

1944-46
    Served in the U. S. Navy--Honorable Discharge
                                 ______
                                 
    Statement of Will Brooke, President, Glacier-Waterton Visitors 
                              Association
    For the record, my name is Will Brooke and I appear here today as 
President of the Glacier-Waterton Visitors Association which is 
comprised of business owners throughout the Glacier and Waterton Park 
area. We have members from Kalispell, Hungry Horse, West Glacier, 
Columbia Falls, Cut Bank, East Glacier, St. Mary, Montana as well as 
Waterton, Canada, to name a few of the affected areas in the Glacier-
Waterton area. Some of our members, such as Roscoe Black and his family 
at St. Mary and Lisa Lundgren and her family at West Glacier, have been 
providing service to Park Visitors for over sixty-five years. Members 
such as these know and understand the issues and history surrounding 
the Park as well as anyone in the country.
    I also appear here as a business owner who will be directly 
impacted by any decision resulting from the Glacier Park General 
Management Plan and EIS. My wife and I own and operate the St. Mary-
Glacier Park KOA Kampground on the Blackfeet Indian Reservation outside 
St. Mary, Montana.
    Thank you for the opportunity provide testimony on the Glacier Park 
General Management Plan and EIS. I appreciate the extraordinary efforts 
the Committee has taken to conduct this oversight hearing in Montana. I 
know that you have invested considerable staff time, travel budget, and 
your own time to travel from Washington DC to conduct this hearing. I 
want to especially commend Chairman Hansen and Congressman Hill for 
having the foresight to understand the consequences this General 
Management Plan will have on our lives here in Montana as well as the 
Northwest.
    While I know the object of this hearing is to obtain comments on 
the draft General Management Plan, my testimony will focus today only 
on a few aspects of the Plan, specifically the Going-to-the Sun Road 
and that portion of the plan dealing with the the preservation of the 
historic hotels.
    I want to commend the National Park Service for focusing attention 
on the issue of how we are going to deal with maintenance, improvement, 
and preservation of the Going-to-the-Sun Road. The public, the public 
officials we elect, and the government employees who work for the 
public must make a long term commitment to protect this international 
treasure. The present administration at Glacier National Park has been 
the victim of deferred maintenance by prior administrators and 
inconsistent Federal funding. Congress has also had its hand in this 
problem by removing requested funds from Federal highway dollars 
targeted for Going-to-the-Sun Road
    Notwithstanding these problems, the Park Service's approach to this 
problem is--at a minimum based on improper procedure and public 
involvment and--at a maximum just plain wrong.
    We hope the Park Service is not wrong. In fact, if the Park Service 
is ultimately correct in its proposed action, we will get behind the 
Park Service and help in every way possible by assisting in obtaining 
necessary funding from Congress, working on public relations and 
information to mitigate the perception that the Park is closed, and 
otherwise working with the Park Service.
    However, whether the Park Service is correct in its proposed action 
for the Road is the key issue as I testify here today. We do not know 
the answer, nor do we believe any person, including the Park Service or 
the Federal Highway Administration knows the answer based on the 
information gathered and analyzed thus far.
    The EIS for the General Management Plan has been proceeding through 
the NEPA process for years. In the most recent draft Management Plan 
that was released in late August, the Park Service attached a new 
section to address reconstruction and rehabilitation of the Going-to-
the-Sun Road. This section proposes a major, significant new Federal 
action with enormous impacts to the environment and the economy. You 
have or will hear from other witnesses about the economic impact this 
decision will have on our state. They are significant. And those 
numbers are based on an optimistic timeline which may not be realistic 
after reviewing some of the Federal Highway information.
    This last minute inclusion in the Plan of a major new Federal 
action does not comply with the letter or the spirit of the NEPA and 
EIS process. It has not been properly scoped, the information, studies, 
and data supporting the action are nothing more than generalities, and 
there is a general failure to consider all of the appropriate 
alternatives.
    A General Management Plan is a general guide of how the Federal 
land will be managed for a period of time--usually about 10 years. The 
proposal for the Sun Road is not consistent with this principle. 
Rather, it is site specific, date specific and project specific. We 
believe the decision to close the Road necessarily commands a separate 
plan and Environmental Impact Statement.
    The Plan only offers three alternatives including a ``no action,'' 
alternative. The remaining two have a narrow scope and few details. Our 
Association offered to help develop an alternative for the Sun Road 
reconstruction. This offer was refused by the Park Service on the 
grounds that it would be a violation of the Federal Advisory Committee 
Act. I find it difficult to believe Congress wanted to keep the public 
out of this kind of process when this legislation was enacted.
    There are other alternatives that could have been included in this 
proposal. We know, based on recently obtained information from the 
Federal Highway Administration, that Federal Highways analyzed at least 
one other alternative that appears to have merit, yet the Park Service 
did not include that in the draft EIS or explain why such an 
alternative was not considered.
    The two alternatives the Park Service selected have little 
supporting information, facts or details. In the information 
Congressman Hill obtained from the Federal Highway Administration, the 
figures used by Federal Highways do not match the figures presented by 
the Park Service in the EIS. There is no information that tells us how 
they used the data provided by Federal Highways or why the Park Service 
came up with different alternatives, with different estimated years for 
completion of construction projects and different estimated costs. 
Clearly, the public deserves to know this and to be assured that the 
Park Service is not attempting to gather public support for the 
preferred alternative by mitigating the expected impacts through 
selective use of numbers and data.
    For instance, we note that the Federal Highway Administration has 
detailed a list of ``essential requirements'' the agencies must adhere 
to in order to meet the estimated timelines and costs for these 
alternatives. The Park Service failed to include these in the EIS, even 
though Federal Highway Administration repeatedly stresses that these 
requirements are ``critical for success.'' I have attached these 
requirements to my testimony, but our Association believes the 
``Essential Requirements'' have their own set of impacts and the public 
certainly deserves to see the entire picture.
    There is other information from Federal Highways which was not 
included as attachments to the EIS. The information that was just 
recently obtained from Congressman Hill's office is not a part of the 
public record. We initiated a call to Congressman Hill's office and 
through his efforts, as well as Senator Conrad Burns, we have now 
obtained this information. All of this should have been in the EIS and 
the public should have full access to this information.
    In contrast to the lack of information which was not included, 
there is other information which was included that is questionable at 
best. For instance, we do not agree with the economic predictions 
suggested by the Park Service. Part of the predictions are based on a 
``survey'' of Park Visitors. The survey was done by an engineering firm 
and polled tourists who had just traveled the Sun Road. You do not even 
need a background in polling to know that such a survey is skewed and 
of little value. The survey should have used as its sample population 
persons who had requested information about visiting Montana or Glacier 
Country. If you tell potential vacation planners who have not seen 
Glacier that the Road will be closed, the com-

petition by other states and countries for that same visitor will most 
assuredly cause the visitor to wait on the Glacier trip.
    Even assuming the poll has validity, the Park Service is misquoting 
the data. The Park Service has said 80 percent of those surveyed said 
they would skill come to Glacier. A closer reading reveals that only 60 
percent of those surveyed would visit the Park if the Road is closed. 
While the Park Service may believe people will be able to distinguish 
one-way closures from total closure, the reality is any ``closure'' 
whether temporary or longterm, is reported as closure.
    The Park Service uses this survey to assure businesses that they 
can expect only a 20 percent decline in visitation during construction. 
Using the number from the survey, it is probably more accurate to 
predict a 40+ percent decline in visitation. Ultimately, the survey is 
not a reliable predictor and to embark on a project with skewed 
unscientific information as the basis of data leaves no constituency 
well served. I have attached a copy of the survey for the record.
    The Park Service contends they have selected Alternative A as their 
preferred alternative based on the ``best available information.'' We 
have just now been able to review some of the information the Park 
Service used as their ``best available information'' and would submit 
that there is (1) gaps in the best available information, (2) the 
information may not have been fully analyzed and (3) possibly the best 
alternative has been prematurely determined.
    7. Current Federal funding levels for road construction in Glacier 
Park do not provide for reconstruction of the Sun Road and other Park 
roads at the same time. Glacier Park receives about $2.8 million a year 
from the ISTEA. Both of the alternatives offered in the General 
Management Plan would cost upwards of $80 million to complete. Knowing 
this increase in appropriation will take some work from Montana's 
Congressional Delegation, it seems we should work towards securing this 
commitment in conjunction with the delegation, not let fear and panic 
that the road is ``deteriorating'' create an emergency fiscal crisis in 
Congress.
    Any decision on this road deserves and demands a strategic plan, 
with fully researched impacts to resources, visitors and the local 
economy. In fact, the Park Service agrees! In May of 1997 they wrote in 
an internal document ``Such a huge and potentially expensive project 
must receive the benefit of strategic thought before the present course 
continues.'' We do not believe the issue has had the benefit of this 
and we urge Congress and the National Park Service to remove the 
proposals for reconstruction on the Going-to-the-Sun Road from the 
General Management Plan and give this the thought and attention it 
requires.
    (More on the historic lodges in the final statement. Bottom line, 
we do not believe the Park Service can afford to buy anything when it 
can not maintain what is has.)
                                 ______
                                 
  Statement of John E. Helton, Abbott Valley Homestead, Martin City, 
                                Montana
    To whom it may concern:
    We have a small ranch outside of Martin City and in addition to 
raising hay and a few head of cattle we also rent out tourist cabins on 
our property. Needless to say, we are very interested in the expected 
time-table and cost to the local economy as well as the Federal 
coffers.
    From the information gathered so far from the local and state 
papers and radio, we think the best path for the road work to be 
completed is to do it quickly, the least cost, and with the least 
amount of tourist disruption. To that end we support the plan to close 
each side of the pass while road work is being done and still allowing 
access to Logan Pass. While as residents of the area, we know there is 
so much more to Glacier than Logan Pass, we also know that it is one of 
the main draws to the Park. Being up front about the closures, 
publicizing them, and giving tourists many travel options, via Travel 
MT, Glacier County, etc., will help convince folks that this area is 
still worth visiting. Our main form of advertising is the Internet and 
we plan to be very up front about the expected road closures both in 
our web pages and in links to the expected web pages describing the 
road reconstruction progress--a definite must.
    It can only be expected that there will be a drop in revenues from 
lost tourist dollars, what we don't want to see is a long term 
hemorrhaging. Montana, according to many of our guests, already has a 
reputation for summer road construction delays and nothing is going to 
change that unless the Earth's climate changes (hopefully not anytime 
soon). Having rolling delays spread over multiple years would do 
nothing to change the perception and would probably drive more people 
away over the long term. Or maybe not: we do support the ``bed tax'' 
being used to conduct polls and studies to find the best solution 
possible. What is definite about spreading the reconstruction over 5 to 
50 years is the greater cost. If we are going to spend more tax dollars 
on Glacier, we would rather not have it all go into asphalt!
    Increased shuttle service, both for road workers and tourists, is a 
must to limit the expected congestion on the still open side of the 
Pass. Having good operational plans for getting injured people out of 
the park and to medical care is a necessary component of the road 
construction plans as well. Like the ``show me days'' the Park has for 
the snow clearing operations, I think the same program might apply to 
the road re-construction. This letter has been written before the 
information/comment meeting of 9/21/98 in Kalispell and we will be 
amending our views as further information necessitates.
    To finish up, it is very evident the Going-to-the-Sun road needs a 
lot of work. We have been up on the road almost on a weekly basis this 
spring and summer, both on foot and by car and it very evident in 
places where the roadway is starting to fall off--not a good confidence 
builder for the observant driver. While rock fall from above is always 
going to be a problem--we hesitate to think just what the consequences 
would be if the roadway was to fall off with cars and people on it. I 
would also think waiting till 2004 might be starting late but more on 
that later.
    Thank you for your time and effort. All good problems deserve a 
good solution and keeping the public informed and engaged is the best 
way to achieve the solution.
                                 ______
                                 
            Statement of Rahn Armbruster, Cut Bank, Montana
    I come here today to ask that a different route be considered as a 
solution to the reconstruction of ``Going-to-the-Sun'' Highway. The 
reason why I ask this request is from the observations which I have 
made.
    At a meeting hosted by Glacier Park Incorporated, a park 
administrator explained the National Park Service's responsibility 
concerning the ``Going-to-the-Sun'' Highway, is to ``preserve the 
experience.'' He further explained that each of us has the right to the 
same experience that our parents had and that of our grandparents as 
well. He also shared his frustration in the process of bringing 
necessary change to the park.
    Can I ask what the foundation is that has provided the criteria for 
the design of the reconstruction of ``Going-to-the-Sun'' Highway? Is it 
preservation guided by tradition?
    Can I ask you what effect preservation has on an environment that 
is under constant change--constant evolution? And what role have we 
taken in preserving the very namesake of this park? Perhaps 
preservation is not our purpose. Have we confused preservation with 
protection? And what effect does tradition have on the ``Nature'' of 
the park? How does a traditional boundary between two countries who 
have never been at war effect this park? Would criteria from the very 
source of why this park was created provide truer guidance for this 
highway's reconstruction?
    I believe that in returning to it's origin we will find the common 
thread which has brought us here, together, today. And in returning to 
the origin of the National Park system, I believe we will return to the 
very origin of our nation. Not its constitution but its Declaration Of 
Independence. It was Jefferson's observation of Nature that provided 
source for our Nation's design. Is observation of Nature the cohesive 
simplicity that is the common ground that connects all the peoples of 
this Nation? And through following their hearts, in giving themselves 
what they truly needed, our forefathers gave themselves the freedom 
necessary for their own evolution.
    Does observation of Nature lie at the very heart of why this road 
was originally constructed? Would observation of Nature guided by the 
heart provide truer criteria for the reconstruction of this highway?
    Through allowing our heart to guide us, will the need for 
protecting this park and its inhabitants diminish with time? To the 
east of Glacier Park lies the sculpture studio of Bob Scriver. And 
through observation you will note the evolution of his work over time. 
His early works being that of taxidermy evolving, as Bob followed his 
heart, to sculpture. Where he captures the beauty and spirit of the 
animal without destroying it.
    I believe something very special occurs when we allow ourselves to 
be guided by our heart. We open our minds. Somehow, in a manner which I 
cannot explain, our heart leads us to the possibilities. Possibilities 
which are firmly rooted in love--in understanding and respect. And love 
never makes anything less, or leaves anything the same. Love always 
makes more through it's actions. I believe it is our mind which allows 
us to see only the probabilities.
    And what difference would there be in the reconstruction of this 
highway if ``Observation of Nature guided by the Heart'' were the 
criteria for its design. Would our heart illuminate possible solutions 
for its reconstruction, that our mind cannot see, that would allow for 
continual flow of observers over this mountain? Giving us something we 
truly need?
    Can the heart guide us to a solution that would truly reflect the 
beauty of Glacier--of Nature itself--and the beauty of us as humans? 
Can our heart guide us to a design that would allow a mountain to be a 
mountain where she needs to be? And isn't this what our National Park 
system is all about? Allowing Nature to be itself?
    Could a road be designed so that it too reflects who we are as 
humans. Through observation of our own Nature, are we not both a 
physical being and a spiritual being? And is our spirituality somehow 
connected to the depth of our observations?
    And what could be learned through depth in observation of the 
Nature of such a road. If we could see the beauty in a road, which 
allows a mountain to be a mountain, could a Nation also see the beauty 
in allowing its peoples the freedom to be human? Could a Nation also 
see the beauty in returning to its source for guidance into the future?
    What risk do we take in returning to our origin to seek guidance 
for our future? Do we fear that we won't find truth in our very 
foundation? I believe that when we allow an open mind to guide us back 
to our source, we will make the return without judgment. And in doing 
so we will see the beauty and love of which our foundation is made. We 
will find our heart. We will discover the cohesive simplicity which 
connects us all together on earth. And somehow when we return to our 
heart, our origin, with an open mind something very wonderful happens--
we open a door.
    And as lyric in the ``Love Theme'' from the motion picture 
``Titanic'' states:

        ``Once more we open the door . . .
        and the heart goes on.''
    Thank you for your time and consideration.
                                 ______
                                 
  Statement of Sharlon L. Willows, C.L.A., Certified Legal Assistant, 
                Adminstrative Law, Hungry Horse, Montana
    Hello Representative Hill. My name is Sharlon Willows, I am a 
Certified Paralegal in Administrative Law, I have personally conducted 
research on Going-to-the-Sun Road (GTSR) and other Glacier Park 
management issues for the last 15 years throughout the early 
development of GTSR Cultural Management Plan (which isn't listed in the 
Draft EIS Bibliography) and Glacier's Transportation Plan of (Jan. 
1991). As coordinator of CCP, Inc., I have conducted extensive FOIA 
research on these and other Glacier Park matters over the years under 5 
USC 552.
    I urge Congressional attention to some very critical omissions and 
deceptions that underly the newly released GMP DEIS. The seriousness of 
these require an immediate congressional inquiry into essential missing 
or unavailable background information regarding the safety & condition 
of GTSR such as:

        (1) the comprehensive plan prepared by FHWA to develop & 
        justify the construction alternatives is not listed in Draft 
        EIS Bibliography and is only briefly mentioned on p. 48. Where 
        is it? Where are the details? This document should be available 
        for interested parties to review during the EIS comment period. 
        Why are the construction alternatives so general, vague, and 
        unsubstantiated?
        (2) the Bibliography shows numerous recent MPS contracts were 
        let to Bioeconomics, Inc. and Robert Peccia & Associates for 
        background studies on SocioEconomic impacts & Traffic Safety 
        Analysis for the Draft EIS. The DEIS states these studies are 
        ``on file at Denver Service Center'' (p.287,293). Why are they 
        unavailable? NEPA requires these essential background analysis 
        to be available for review during the DEIS comment period. What 
        can Rep. Hill do to make these documents available now for 
        review as required by NEPA regulations?
    Glacier's historic management philosophy has been development 
outside the park (see 1977 Master Plan FEIS). Therefore, a sizable 
local economy has grown over the years based on historic management 
philosophy, that is, the 1977 Master Plan FEIS and the park's 
Statements for Management documents issued regularly since then.
    The park is lying to the public by claiming they are ``Keeping it 
like it is.'' The new GMP Draft EIS secretly changes management 
philosophy; first, by failing to disclose the Existing or historic 
management zoning (as found in Glacier's Statements for Management, map 
attached), which is a NEPA violation on its' face (NEPA requires 
disclosure of Existing Conditions, necessary for agency and public 
review. How else can we know what the baseline is, before the park 
makes substantial changes?). Secondly, by presenting a totally new 
management zoning scenario for the park on (pgs. 19-40). This is major 
deception being perpetrated in the draft EIS without public involvement 
or knowledge; that is, the secret rezoning of Glacier Park.
    Based on my years of research and gutfeeling, I believe the Park is 
intentionally delaying necessary and previously planned incremental 
repair projects while expecting the road to fail in order to obtain a 
massive contract for their Preferred Alternative A (p.49). This may be 
agency negligence under Emergency Repair regulations and 
requirements.Waiting for construction in 2004 appears unreasonable.
    Meanwhile, the Park has secretly rezoned the GTS Road corridor from 
primarily natural & historic zone to ``visitor services zone'' (compare 
SFM Existing Zoning map attached with GMP DEIS, pgs. 19,2O,30). In 
other words, while local businesses may suffer outside the park while 
the road is shut down, a multinational corporation, the owner of 
Glacier's major concessionaire, has achieved a new free reign for new 
publicly funded facility development inside the park. The secret 
rezoning situation appears to be a preplanned corporate takeover of 
Glacier Park corridor business interests, an inappropriate 
collaboration that underlies this GMP DEIS.
    In summary, Federal Highway Administration (FHWA) studies, 
assessments, and plans to proceed repairing the GTS road in timely 
incremental projects are missing from the Draft EIS record. These were 
background studies prepared for the 1991 Transportation Plan. The DEIS 
also fails to consider a night construction alternative to facilitate 
necessary repairs in a more timely manner; another indication that 
delay is the game.
    The GTS Road has been studied completely. Where is this 
information? As confirmed by park officials recently on one of my 
research tours, there are thirteen (13) ``hotspots'' on GTSR. These are 
areas that could easily or currently do qualify under DOT Emergency 
construction regulations. Therefore, we've got a serious negligent 
scenario here, with Federal agencies ``hiding'' the most relevant facts 
in an unnecessary ploy to shut down GTS Road and secretly rezone 
Glacier for interior development.
    Again, Glacier's historic management as been development outside 
the park (see 1977 Master Plan FEIS). If the public wanted to ``Keep it 
the way it is,'' why the mayor secret zoning changes with possible 
serious adverse consequences for local businesses outside the park that 
pay local and state taxes the multinational corp. doesn't.
    Please understand, further study is a trap to create irresponsible 
delay & allow the road to fail, thus allowing Federal agencies to have 
no choice but close the road, adversely impacting local businesses 
outside the park. Meanwhile, the multinational corp. gets its' foot in 
the door with the secret rezoning of Glacier's GTS Road corridor. This 
scenario requires immediate Congressional investigation. Thank you very 
much for the opportunity to be heard.

[GRAPHIC] [TIFF OMITTED] T1797.001

[GRAPHIC] [TIFF OMITTED] T1797.002

[GRAPHIC] [TIFF OMITTED] T1797.003

[GRAPHIC] [TIFF OMITTED] T1797.004

 Statement of Gilbert K. Bissell, Owner/Manager, Aero Inn, Kalispell, 
                                Montana

    Dear Congressman Hill:
    As the owner and manager of a hotel in the Flathead Valley 
and past president of the Flathead Valley Chamber of Commerce, 
I would like to express how critical the Going-To-The-Sun Road 
construction will be to my business and to many businesses in 
Northwest Montana.
    At the Aero Inn I employ an average of 14 employees. 
Several hotels in the Flathead Valley employ significantly more 
employees than the Aero Inn, many employ less. We make 60 
percent of our annual revenue during the months of June, July, 
August and September. (1993 59 percent, 1994 60 percent,1997 58 
percent). A vast majority of our summer guests are Glacier Park 
visitors. To lose this critical summer season revenues would 
literally spell the end of my business and many others 
throughout Northwest Montana. The loss of any summer season 
would directly impact hundreds of lodging industry employees. 
This doesn't even begin to address the impact on retailers or 
the indirect impact of money spent by tourism industry 
employees and businesses.
    I don't think that all Going-To-The-Sun Road construction 
options nor all economic impacts have been adequately explored. 
The Going-To-The-Sun Road is undeniably a national treasure 
which must be preserved for future generations and which must 
be addressed soon. There are no cheap or easy solutions to 
repairing the road, but the only viable solution is a 
cooperative effort between the Federal Government, The National 
Park Service, Travel Montana, The State Government, Local 
Chambers of Commerce, Local Convention and Visitor Bureau's and 
the citizens of Northwest Montana.
    A comprehensive marketing plan is absolutely critical for 
future ``damage control'' before construction is begun. 
Extensive resources and money for this plan must be made 
available on the Federal, State and Local level.
    I have always felt that Glacier National Park needs to do 
more positive press releases such as ``we have ---------- 
campsites open, the waterfalls are at their peak, the flowers 
are blooming now, ---------- miles of trail are now open and 
passable, cruises are available on ---------- lakes, ----------
-- rangers are on duty to give nature tours and talks'' etc. 
What we typically hear is negative such as ``a boulder fell on 
a tourist, a portion of the Sun Road collapsed, or a bear 
munched someone'' (granted these are newsworthy stories!) With 
a portion of the Sun Road closed, positive press releases will 
be even more critical.
    Please do not interpret this as a motel owner worried about 
losing a little business. If that were the case, we'd budget 
for a slow year or two and survive it. I'm worried about a 
summer or more, bad enough to bankrupt our business and that of 
many others in the Flathead Valley. The construction plan and 
the marketing plan demand very careful forethought and 
expertise. Please insure that this plan is an extremely high 
priority.
    If I can be of any assistance to you, please feel free to 
contact me at any time.
    Thank you for your time and your concern in this matter.
                                ------                                


 Carol H. Jacoby, Division Engineer for Western Federal Lands, Highway 
 Division, Federal Highway Administration, response to questions from 
                                Mr. Hill

    Question: Could you provide information regarding curve 
widening and the selection and application of road design 
standards?
    Answer: The American Association of State Highway and 
Transportation Officials (AASHTO) issues a reference guide 
titled, ``A Policy on Geometric Design of Highways and 
Streets.'' This publication is updated periodically to reflect 
changes in design practice. In addition, AASHTO publishes 
numerous highway industry design and construction manuals, 
which are used as ``guides'' in the application of highway 
engineering.
    In 1984, the National Park Service published ``Park Road 
Standards,'' which defines the standards to which the park 
roads should be constructed, operated and maintained. The 
development of these standards included an issuance of a Notice 
of Public Review, published in the May 1, 1984, Federal 
Register. Consistent with the philosophy encompassed in the 
AASHTO design guide, the National Park Road Standards allow for 
flexibility in the planning and design of park road facilities. 
Flexibility is necessary to accommodate variations in the type 
and intensity of the use, the terrain and climate conditions, 
and to protect the natural and cultural resources in the 
National Park system areas.
    Question: What is the application of design standards on 
park roads in Glacier National Park, where, as part of an 
ongoing construction project, pavement material is being 
removed?
    Answer: In Glacier National Park, there is a 4000 linear 
foot section of road which was built to a 22-foot travel way 
width. This section of the road was widened to a 26 foot travel 
way width as a result of flooding repairs completed in the 
1960's. As part of the ongoing construction contract, 4 feet of 
pavement width in this 4000 foot roadway section is being 
removed to provide a consistent 22 foot travel way for the 
entire section of road. A 22 foot paved travel way for the 
Going to the Sun Road is consistent with the NPS Park Road 
Standards publication.

[GRAPHIC] [TIFF OMITTED] T1797.005

[GRAPHIC] [TIFF OMITTED] T1797.006

[GRAPHIC] [TIFF OMITTED] T1797.007

[GRAPHIC] [TIFF OMITTED] T1797.008

[GRAPHIC] [TIFF OMITTED] T1797.009

[GRAPHIC] [TIFF OMITTED] T1797.010

[GRAPHIC] [TIFF OMITTED] T1797.011

[GRAPHIC] [TIFF OMITTED] T1797.012

[GRAPHIC] [TIFF OMITTED] T1797.013

[GRAPHIC] [TIFF OMITTED] T1797.014

[GRAPHIC] [TIFF OMITTED] T1797.015


</pre></body></html>
